<html>
<title> - NATIONAL PARKS BILLS</title>
<body><pre>[Senate Hearing 112-401]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-401
 
                          NATIONAL PARKS BILLS

=======================================================================


                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON

                      ENERGY AND NATURAL RESOURCES

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

                           S. 29                                 S. 1150

                           S. 1191                               S. 1198

                           S. 1215                               S. 1589

                           S. 1708                               S. 2131

                           S. 2133                               H.R. 1141

                          H.R. 2606



                                     

                               __________

                             MARCH 7, 2012


                       Printed for the use of the
               Committee on Energy and Natural Resources




                  U.S. GOVERNMENT PRINTING OFFICE
74-296                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
BERNARD SANDERS, Vermont             RAND PAUL, Kentucky
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     MARK UDALL, Colorado, Chairman

MARY L. LANDRIEU, Louisiana          RAND PAUL, Kentucky
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
AL FRANKEN, Minnesota                ROB PORTMAN, Ohio
JOE MANCHIN, III, West Virginia      DEAN HELLER, Nevada
CHRISTOPHER A. COONS, Delaware       BOB CORKER, Tennessee

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Harris, Annie C., Executive Director, Essex National Heritage 
  Commission, Salem, MA..........................................    30
Kerry, Hon. John F., U.S. Senator From Massachusetts.............     2
Reagan, Michael J., Member of the Board of Supervisor, Solano 
  County, CA.....................................................    24
Reed, Hon. Jack, U.S. Senator From Rhode Island..................     4
Toothman, Stephanie, Associate Director, Cultural Resources, 
  National Park Service, Department of the Interior..............     7
Udall, Hon. Mark, U.S. Senator From Colorado.....................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    39

                              Appendix II

Additional material submitted for the record.....................    43


                          NATIONAL PARKS BILLS

                              ----------                              


                        WEDNESDAY, MARCH 7, 2012

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:38 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Mark Udall 
presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall. The Subcommittee on National Parks will come 
to order.
    This afternoon, the Subcommittee on National Parks is 
holding a hearing to consider 11 bills, most of which relate to 
national heritage areas or national historic parks.
    The agenda today includes proposals for new national 
heritage areas in California and Pennsylvania, a study of a 
possible new heritage area in Connecticut, and extensions of 
authorizations for several existing heritage areas.
    In addition to those bills, we are also receiving testimony 
today on bills to authorize a land exchange at Lowell National 
Historical Park in Massachusetts, to establish the John H. 
Chafee Blackstone River Valley National Historical Park in 
Rhode Island and Massachusetts, to authorize the construction 
of a natural gas pipeline through the Gateway National 
Recreation Area in New York, to extend the authorization for 
the Coastal Heritage Trail in New Jersey, and finally, a bill 
to authorize a study for a potential national park in the 
Commonwealth of the Northern Mariana Islands.
    The National Park Service appears to be generally 
supportive of several of these bills, but has identified 
concerns with a few of the bills. We will hear from the Park 
Service witnesses in a few minutes who can explain their 
concerns in greater detail.
    I look forward to working with the Park Service, and the 
sponsors of the bills, to see if we can find a way to address 
those concerns, so we can get the bills ready for committee 
markup.
    At this time, I would like to turn to my 2 illustrious 
colleagues, who have joined the subcommittee today, to hear 
their testimony in support of their bills. I turn to Senator 
Kerry to begin.
    Senator Kerry, you are recognized.

         STATEMENT OF HON. JOHN F. KERRY, U.S. SENATOR 
                       FROM MASSACHUSETTS

    Senator Kerry. Mr. Chairman, thank you very, very much.
    Thanks for allowing us to speak on behalf of these bills, 
and I am delighted to join my colleague, Senator Reed from 
Rhode Island where we share a common interest here with respect 
to one of them; an important interest. We have enjoyed, I have 
enjoyed working actually, particularly, with Senator Chafee 
when he was here on this, and I will speak about it in a 
minute.
    But I believe the bills that I am addressing here today, I 
think, make sense. We certainly are prepared to work with the 
Park Service on any of the issues. Obviously, we want to work 
these to get them primed for markup and hopefully can move 
forward.
    But there is no question in my mind that these bills will 
help Massachusetts grow its economy, but also, preserve 2 of 
the many remarkable historical treasures that we are blessed to 
have in our State. I hope the committee will look favorably on 
these, and be able to help us move to markup as soon as 
possible. I think you will see the basic common sense of them 
pretty quickly.
    The Lowell National Historical Park Land Exchange Act of 
2011 is really simple, it is very straightforward, and it makes 
economic sense. It would allow the Secretary of the Interior to 
exchange land in Lowell in the National Historical Park, which 
we have there, for land currently owned by the Commonwealth of 
Massachusetts, the city of Lowell, and the University of 
Massachusetts Building Authority. So this bill would simply 
allow that land swap to take place with a net plus in revenue 
to the Federal Government, I believe.
    This bill is supported by the National Park Service, by the 
city of Lowell, and by the Commonwealth of Massachusetts. So 
there is no battle over it at all. Everybody is on the page.
    The Federal land includes a maintenance facility and 
parking lots that are no longer of use to the National Park 
Service. So the bill will open up important development 
opportunities in Lowell and, as I said, the Federal Government 
can hopefully make money from the transaction. So I think it is 
good government all around.
    On the second issue, the issue that Senator Reed and I 
share an interest, is the John H. Chafee Blackstone River 
Valley National Historical Park Establishment Act.
    Now, I was very pleased to work on this with Senator Reed, 
and I think we both have a common excitement about this. I want 
to invite you, Mr. Chairman, to come up maybe in the later 
spring and early summer here, get you out on the Blackstone 
River, and have a chance in a canoe, and get out there, and you 
will see the wildlife which may even impress a Coloradan, a 
westerner. I do not know; I hope so.
    We designated this. I was here when we first worked on 
this. I worked on it with Senator Kennedy and Senator Chafee, 
and it was designated as a National Historic Corridor. Senator 
Reed and I believe it is time now to take the next step, and to 
turn this National Heritage Corridor into a National Historic 
Park.
    Under our legislation, some of the valley, the Blackstone 
River Valley, which is this industrial valley, goes back to the 
early development of Massachusetts and Rhode Island, a slew of 
beautiful old mill buildings, and waterworks, and canals, and 
other things along the way. It will take some of the most 
historic components of that, the Old Slater Mill, the 
Blackstone River itself, its tributaries, the Blackstone Canal 
will all become part of the Park.
    The evidence of the success of this, really, is in Lowell 
where, under Senator Tsongas's early leadership, we developed 
one of the first urban national parks in America; a remarkable 
site. But this will have the benefit of enormous future land 
preservation and leverage critical tourism dollars for both of 
our States.
    Senator Chafee, who was a great champion of open space and 
of preservation, a Marine veteran, Secretary of the Navy, 
throughout his long political career was one of the most 
passionate environmentally committed senators. He had a great 
love of history, a love of New England, a love of this region, 
and I know he would be excited about this concept of turning 
this river valley into this national park.
    It is unique to the American experience in its development, 
and I think protecting it as a national historical park would 
be hugely in the public interest, and a wonderful way to honor 
his memory.
    Finally, just a quick word about the Essex National 
Heritage Area Reauthorization Act; Senator Kennedy and I also 
worked together on this through the 1990s together with the 
citizens of the region. This is the area north of Boston, 
encompassing communities like Salem, and Gloucester, Rockport, 
and many others inland. It has a tremendous impact on 
conservation in the area, but we recognized the national 
significance of this historic area, a 500 square mile region. 
We established the National Historic Heritage Area, which has 
allowed it to develop a remarkable interconnectedness in terms 
of tourism and the preservation of these historical sites.
    Mr. Chairman, there are now 9,968 historic structures 
listed on the National Register of Historic Places in this 
area. There are 400 historic farms. There are 86 significant 
museums. There are 26 important National Historic Landmarks, 9 
scenic State Parks fit within that area, 2 National Park units 
are there now, and one National Wildlife Refuge. It is a 
remarkable arena.
    Annie Harris, who is the Executive Director of the Essex 
National Heritage Commission, is going to be here to testify 
today. She will speak in more detail to the successes of the 
area, but she will also highlight one of the best parts of the 
program there. It is something called ``The Youth Job Corps.'' 
The Corps accepts between 10 and 25 young people each summer 
who work at the Salem Maritime and Saugus Iron Works National 
Historical Sites under the supervision of the National Park 
Service employees.
    So these kids not only get a great work experience, but 
they develop an important sense of history, pride, and loyalty 
to the hometown, and that is a wonderful thing to create, I 
think, in our citizens.
    So thanks for giving me a chance to talk about these 3 
areas. We really want to work with this committee to get this 
out of here. They should not be controversial and they would 
have a profound impact on the long-term historic and economic 
development of our State.
    Senator Udall. Thank you, Senator, for that very compelling 
statement.
    I do very much look forward to working together with you. I 
think the emphasis on jobs and our youth, there is nothing 
better than that combination. I look forward to getting in a 
kayak or a canoe.
    Senator Kerry. Yes.
    Senator Udall. See, you may remember, I went to school in 
western Massachusetts and fell in love with that part of our 
great country, and I always looking forward to visiting your 
part of New England.
    Senator Kerry. Thank you. We appreciate it. We look forward 
to it, and I know you love getting out there.
    Senator Udall. Senator Reed.

           STATEMENT OF HON. JACK REED, U.S. SENATOR 
                       FROM RHODE ISLAND

    Senator Reed. Thank you very much, Mr. Chairman.
    I thank you particularly for the opportunity to appear 
today and to speak on behalf of S. 1708, the John H. Chafee 
Blackstone River Valley National Historical Park Establishment 
Act. I was proud to introduce this bipartisan legislation, 
along with Senator Kerry, Senator Whitehouse, and Senator Scott 
Brown. I particularly want to thank Senator Kerry for his kind 
words in support of this legislation, but also he was 
instrumental along with Senators Ted Kennedy, John Chafee, 
Lincoln Chafee, and others in moving us where we are today. We 
are on the verge, we hope, of enacting this legislation and 
creating a national park.
    Creating this new national park will preserve the 
industrial heritage, and natural and cultural resources of the 
Blackstone River Valley. It will help provide economic 
development opportunities for the local economy, and build upon 
the solid foundation that the John H. Chafee Blackstone River 
Valley National Heritage Corridor has already established.
    Samuel Slater built his mill in 1793 and started the 
American Industrial Revolution in Rhode Island along the 
Blackstone River. He was an early proponent of taking 
intellectual property and bringing it someplace else, and 
getting an industry going. He did, and that really was the 
beginning of the Industrial Revolution in the United States, 
and the factory system, and it all has its roots there.
    But as Senator Kerry has pointed out, the Blackstone River 
Valley is a rich concentration of mills and villages. They 
illustrate this whole period of American history from the 1790s 
and through the mid-part of the 1800s. The Blackstone Valley is 
truly a national treasure, thousands of acres of beautiful, 
undeveloped land and waterways that have been developed and 
made accessible to vacationers and outdoorsmen and women.
    The extensive work of the National Park Service and the 
tireless efforts of Federal, State, and local officials, 
developers, and volunteers in both Rhode Island and 
Massachusetts have resulted in the recovery of dozens of 
historic villages, river ways, rural landscapes throughout the 
Corridor. It is a remarkable success story.
    These types of economic redevelopment and environmental 
restoration efforts reflect the ongoing story of the Blackstone 
River and the whole valley, stretching between Massachusetts 
and Rhode Island.
    One example is the Ashton Mill in Cumberland, Rhode Island. 
With the designation as a National Heritage Corridor, with the 
clean up of the Blackstone River that resulted, with the 
creation of the Blackstone River State Park in Lincoln very 
close to Ashton, and the construction of the Blackstone River 
Bikeway, this property was then restored for reuse as rental 
apartments.
    Once again an old mill, that was on the verge of 
demolition, was turned into a vital and vibrant rental property 
that has revitalized the entire community. That is one example 
of what is happening along the Blackstone River.
    We have made progress in environmental restoration. Senator 
Kerry invited you to get in a kayak and a canoe and come down 
the River. I do not think he would have done that 20 years ago. 
You can do it now. In fact, we had Interior Secretary Ken 
Salazar up there, and as he was walking along the Blackstone, 
the kayakers and the canoers were up and down the river. So it 
has been restored.
    I have been pleased to help over the years working with 
both my colleague John Chafee and our Massachusetts colleagues 
with Lincoln Chafee and with Sheldon Whitehouse. Senator 
Lincoln Chafee was the one who asked the National Park Service 
to conduct a special resource study of the Heritage Corridor. 
After extensive local input from stakeholders and historians, a 
draft study was released last July and officially transmitted 
to Congress this March.
    The study recommended the creation of a new, national 
historical park whose boundaries would encompass nationally 
significant areas in both Rhode Island and Massachusetts 
including the Blackstone River and its tributaries; the 
Blackstone Canal; and the historic districts of Old Slater Mill 
in Pawtucket; the villages of Slatersville and Ashton, Rhode 
Island; and the villages of Whitinsville and Hopedale in 
Massachusetts.
    The Department of Interior officially stated in its recent 
letter to Congress about the study that its preferred 
management option is the creation of a new, national historical 
park since it is the most effective and efficient alternative 
for the protection of resources and visitor use and enjoyment, 
and is favored by most Blackstone River Valley stakeholders and 
citizens, who commented on the study.
    The park described in the study and the legislation that I 
have introduced, along with Senator Kerry, would be run 
collaboratively through a special partnership in which the 
National Park Service would manage and operate the facilities, 
and provide educational services in the park, in partnership 
with regional and local preservation groups who would lead the 
efforts to preserve the surrounding rural and agricultural 
landscape within the greater Blackstone River Valley.
    The partnerships between the Federal, State, and local and 
private organizations have a proven track record of success 
within the Corridor, and I believe that the communities in 
Rhode Island and Massachusetts that have been engaged in this 
endeavor for many years will continue to successfully partner 
with the National Park Service going forward.
    Designating these areas as a national historical park has 
important economic and environmental, historical and 
educational benefits for the region. It would provide 
opportunities for work, opportunities for recreation, and 
opportunities to boost economic development while memorializing 
the history of this place and its role in the American 
Industrial Revolution.
    This is a 2 State initiative clearly indicated by the 
presence of Senator Kerry and myself today. Mr. Chairman, I, 
too am very proud as Senator Kerry that this park has been 
chosen to commemorate the work of John H. Chafee, a great 
environmentalist.
    In 1962 when I was 12 years old, as the Governor of the 
State, he introduced the Green Acres Program, which was State 
resources acquiring open lands. That was 8 years before the 
real dawn of the environmental movement in the United States. 
He was a visionary then, a visionary in the Senate, and this 
would be a fitting tribute to his service as a Marine, as the 
Secretary of the Navy, as the United States Senator, as the 
Governor of Rhode Island, and as a great American.
    So, I hope that we can move together, work with the Park 
Service, come quickly to a conclusion and move this forward.
    I would also like to submit a letter* in support of this 
legislation from Senator Whitehouse.
---------------------------------------------------------------------------
    * Letter has been printed in the Appendix.
---------------------------------------------------------------------------
    Senator Udall. Without objection.
    Senator Reed. Again, Mr. Chairman, thank you so much. I 
look forward to working with you, and Chairman Bingaman, and 
Ranking Member Murkowski, and Ranking Member Paul, and all the 
members of the committee.
    Thank you.
    Senator Udall. Thank you, gentlemen, for the compelling 
testimony. I know you both helm important committees and 
subcommittees, but this is one of the reasons I think I have a 
great assignment, chairing the National Park Subcommittee is to 
reconnect with our heritage and our national landscapes.
    I do not think it would surprise you if I told you that in 
my family, both my uncle Stewart and my father, Mo, venerated 
John Chafee, and it was a real thrill for me to meet him as a 
young man because of that vision and that passion. He was Teddy 
Roosevelt in our era, you could argue, maybe with a little more 
statesmanlike vocabulary. But he was--what, Senator Kerry?
    Senator Kerry. Calmer demeanor.
    Senator Udall. A calmer demeanor. But he is a hero to all 
of us, and this would be very, very fitting and I look forward 
to working with you.
    One final comment, Senator Kerry. I am not very 
competitive, but if Secretary Salazar has been up on the 
Blackstone, I have got to get up there as well.
    Senator Reed. You can fly into Providence.
    Senator Udall. Great. Thanks. Thank you again. I know how 
busy you are. Thanks for taking the time to appear before the 
subcommittee. Thank you.
    We have--now we will be joined by Dr. Stephanie Toothman, 
who is the Associate Director of Cultural Resources at the 
National Park Service, Department of the Interior.
    Dr. Toothman, I understand this is your first time 
testifying before us, and it is wonderful to have you here with 
us. I look forward to your comments and again, the floor is 
yours.

 STATEMENT OF STEPHANIE TOOTHMAN, ASSOCIATE DIRECTOR, CULTURAL 
  RESOURCES, NATIONAL PARK SERVICE, DEPARTMENT OF THE INTERIOR

    Ms. Toothman. Thank you, Mr. Chairman, and thank you for 
the opportunity to--thank you.
    Senator Udall. There we go.
    Ms. Toothman. It is my first time.
    Mr. Chairman, thank you for the opportunity to appear 
before this subcommittee to present the Department of the 
Interior's views on 11 bills on today's agenda. I would like to 
submit our full statements on each of these bills for the 
record and summarize the Department's views.
    Senator Udall. Without objection.
    Ms. Toothman. Thank you.
    The Department supports S. 1215. This legislation would 
provide for the exchange of land located at Lowell National 
Historical Park, and would continue the preservation loan fund 
to help finance the restoration and redevelopment of historic 
structures through 2036. Both provisions facilitate the Park's 
long term goals without requiring any additional appropriation.
    The Department supports S. 1708 and H.R. 2606 with 
amendments.
    S. 1708 would establish the John H. Chafee Blackstone River 
Valley National Historical Park as a new unit of the National 
Park system.
    H.R. 2606 would authorize the Secretary of the Interior to 
allow the construction and operation of natural gas pipeline 
facilities in the Gateway National Recreation Area, and 
authorizes a non-competitive lease. Detailed explanations of 
these amendments are contained in our full statements. We 
request the opportunity to work with the committee on these 
amendments.
    The Department supports S. 1191 and H.R. 1141.
    S. 1191 directs the Department to conduct a study of the 
resources of a prototypical New England mill town in the 
Naugatuck River Valley in Connecticut, and my apologies if I 
did not get ``Naugatuck'' right.
    While H.R. 1141 directs the Department to conduct a study 
of the prehistoric, historic, and limestone forest sights on 
Rota located in the Commonwealth of the Northern Mariana 
Islands. The Department also recommends a technical correction 
to H.R. 1141.
    The Department supports the goals of S. 29 and S. 1150, but 
recommends deferring action on both of these bills.
    S. 29 would establish the Sacramento-San Joaquin Delta 
National Heritage Area. A feasibility study for the area is 
underway by the Delta Protection Commission, and the National 
Park Service staff is currently reviewing the Commission's 
draft study for consistency with the Interim National Heritage 
Area Feasibility Study Guidelines. The Department believes it 
would be premature to recommend support for establishment of 
this National Heritage Area without an evaluation of its 
feasibility.
    S. 1150 establishes the Susquehanna Gateway National 
Heritage Area in the State of Pennsylvania. A 2008 study 
determined Susquehanna meets the interim criteria for potential 
designation. However, there is currently no program legislation 
that establishes criteria to evaluate potentially qualified 
national heritage areas, and a process for the designation and 
administration of these areas.
    We recommend that Congress defer action on S. 1150 until 
the heritage area program legislation is enacted by Congress.
    The Department supports S. 1198, S. 2131, and S. 2133, 3 
bills that would reauthorize Federal funding for 5 National 
Heritage Areas where authority for Federal heritage area 
program funding sunsets at the end of fiscal year 2012. The 
Department recommends extending their authorization until we 
have completed an evaluation and report on the accomplishments 
of these Areas, and the future role of the National Park 
Service, and until heritage area program legislation is 
enacted.
    S. 1198 would reauthorize the Essex National Heritage Area 
in the State of Massachusetts.
    S. 2131 would reauthorize the Rivers of Steel National 
Heritage Area, the Lackawanna Valley National Heritage Area, 
and the Delaware and Lehigh National Heritage Corridor in the 
State of Pennsylvania.
    S. 2133 would reauthorize America's Agricultural Heritage 
Partnership in the State of Iowa. The Department would like to 
work with Congress to determine the future Federal role when 
heritage areas reach the end of their authorized eligibility 
for heritage program funding. We recommend that Congress enact 
national heritage legislation during this Congress.
    The Department has no objection to S. 1589, which would 
extend the authorization for the Coastal Heritage Trail in the 
State of New Jersey.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions you may have.
    [The prepared statement of Ms. Toothman follows:]

Prepared Statement of Stephanie Toothman, Associate Director, Cultural 
 Resources, National Park Service, Department of the Interior, on S. 29
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 29, a bill to establish the 
Sacramento-San Joaquin Delta National Heritage Area.
    The Department recognizes the importance of the natural, historic, 
scenic and cultural resources within the proposed Sacramento-San 
Joaquin Delta National Heritage Area, but recommends deferring action 
on S. 29 until a feasibility study is completed. A Feasibility Study 
for a Sacramento-San Joaquin Delta National Heritage Area is underway 
by the Delta Protection Commission. National Park Service staff are 
currently reviewing the Commission's draft study for consistency with 
the interim National Heritage Area Feasibility Study Guidelines. The 
Department believes that it would be premature to recommend support for 
establishment of this national heritage area without an evaluation of 
its feasibility.
    S. 29 would establish the Sacramento-San Joaquin Delta National 
Heritage Area within the counties of Contra Costa, Sacramento, San 
Joaquin, Solano, and Yolo, in the State of California, with the Delta 
Protection Commission designated as the Heritage Area's management 
entity. The Sacramento-San Joaquin is a rare inland/inverse Delta and 
the largest estuary on the West Coast of the Americas. Its vast size, 
unique shape, and geographic location in the heart of California has 
produced a heritage of habitat and community diversity, industry, 
innovation, and a unique infrastructure.
    A rapid rise in sea level following the last ice age 10,000 years 
ago inundated the alluvial valley of the Sacramento River and formed 
the Delta landscape. From the confluence of the Sacramento and San 
Joaquin Rivers emerged a system of freshwater and brackish marshes and 
extensive grassland, oak woodland, savannah, chaparral, and riparian 
habitat rich with wildlife. Native Americans built villages and trading 
posts, and early fur traders such as Jedediah Smith trekked into the 
region in search of otter, mink and beaver.
    Then, gold seekers on their way from San Francisco to the gold 
fields in the Sierra Nevada recognized the fertility of the Delta's 
soils. Beginning in the 1880s, with significant contributions from 
Chinese, Japanese, Filipino, East Indian, Portuguese and Italian 
immigrants and the development of innovative equipment, one of the 
largest scale reclamation projects in the United States converted the 
vast marshes into the predominantly agricultural landscape that 
characterizes the Delta today.
    As one of the most productive agricultural regions in the country, 
the Delta exports crops throughout the world and contributes billions 
of dollars to the California economy. The Delta irrigates over seven 
million acres of the State's farmland and also supplies two-thirds of 
California's residents their drinking water.
    Still an important natural area, the Delta is a key stopover on the 
Pacific Flyway and an important anadromous fish corridor. Its waterways 
provide leisurely retreats for large, nearby urban populations in the 
San Francisco Bay area and Great Central Valley. Agricultural-related 
tourism initiatives are springing up to showcase and share the region's 
agricultural traditions while wildlife friendly farming practices 
demonstrate how Delta farmland and habitat can coexist.
    A Sacramento-San Joaquin Delta National Heritage Area could promote 
a wide range of partnerships among governments, organizations and 
individuals to increase public awareness of and appreciation for the 
important natural, historic, scenic and cultural resources of the area. 
However, the Department would withhold a final recommendation until we 
have had an opportunity to review the completed feasibility study.
    Mr. Chairman, this concludes my prepared remarks. I would be happy 
to answer any questions you or any other members of the subcommittees 
may have.
                                s. 1150
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 1150, a bill to establish the 
Susquehanna Gateway National Heritage Area in Pennsylvania.
    The Department recognizes the appropriateness of designating the 
Susquehanna Gateway National Heritage Area, but recommends deferring 
action on S. 1150 until program legislation is enacted that establishes 
criteria to evaluate potentially qualified national heritage areas and 
a process for the designation and administration of these areas.
    There are currently 49 designated national heritage areas, yet 
there is no authority in law that guides the designation and 
administration of these areas. Program legislation would provide a 
much-needed framework for evaluating proposed national heritage areas, 
offering guidelines for successful planning and management, clarifying 
the roles and responsibilities of all parties, and standardizing 
timeframes and funding for designated areas. We recommend that Congress 
enact this legislation during this Congress.
    Flowing for 441 miles, the Susquehanna River is the longest river 
on the East Coast and the largest contributor of fresh water to the 
Chesapeake Bay. The portions of the river flowing through Lancaster and 
York Counties in Pennsylvania exhibit exceptional natural and 
recreational value and traverse landscapes of historical importance to 
our nation.
    The region of the proposed Susquehanna Gateway National Heritage 
Area was first inhabited by Native Americans who left evidence of their 
occupation in a myriad of archeological sites, as well as rock art at 
several petroglyph sites. When Captain John Smith journeyed up the 
Susquehanna River in the summer of 1608, he sent emissaries to the 
Susquehannock town located on the east side of the river near present 
day Washington Boro in Lancaster County. Tribal leaders there entered a 
trade alliance, opening to the English a trade network extending 
hundreds of miles.
    In 1668, William Penn set the tone for religious tolerance in 
Pennsylvania and brought colonists who settled the great fertile valley 
of the Susquehanna Gateway region, beginning its long history as an 
abundant agricultural center. Serving as an important transportation 
corridor, the river provided opportunities for commerce and invention. 
It was here that John Elgar constructed the first iron steamboat in 
America. The birthplace of Robert Fulton, the original inventor of 
steam powered boats, is a National Historic Landmark in Lancaster 
County. Here, too, Phineas Davis designed and built the first practical 
coal burning steam locomotive, thereby revolutionizing railroad 
transportation.
    The region is the home ground of the ``Plain People''.the Amish and 
Mennonites. Their religious values, simple way of life, and well-tended 
farms speak to the deepest feelings that Americans have about ourselves 
and our national experience.
    In this region, visitors also find evidence of our Revolutionary 
War past. Lancaster and York Counties served as venues for the 
Continental Congress when it left Philadelphia upon the British 
occupation of that city. In the courthouse in York, the Congress 
approved the Articles of Confederation and Perpetual Union, the 
nation's ``first constitution,'' and sent it forth to the states for 
ratification. In the summer of 1781, Continental Army General James 
Wood established Camp Security, housing more than a thousand British 
soldiers from General John Burgoyne's army, which had surrendered at 
Saratoga.
    The region also has an abundance of natural resources including 
migratory bird nesting sites, remnants of old growth forests, and areas 
of both ecological diversity and scenic quality. Ferncliff, known for 
its wildflowers, and the Susquehanna Gorge are both designated National 
Natural Landmarks. Recreational resources abound in the region, 
including the Kelly's Run and Susquehanna River Water Trails, both 
National Recreation Trails.
    S. 1150 designates the Susquehanna Heritage Corporation, a non-
profit organization, as the proposed management entity for the 
Susquehanna Gateway National Heritage Area. The area, designated as a 
state heritage area in 2001, recently changed its name from the 
Lancaster-York Heritage Region to the Susquehanna Gateway Heritage 
Area, to reflect the area's expanded focus, which includes the cultural 
and economic value of the Susquehanna River. The Susquehanna Heritage 
Corporation has demonstrated success in coordinating among diverse 
partners in Lancaster and York Counties. Over the past nine years, the 
Corporation has been effective in facilitating preservation, 
interpretative, and educational projects and in leveraging community 
participation and funding. The heritage area has strong support from 
the public and from a myriad of state, local, federal, and non-
governmental partners throughout the area. In 2008, the Corporation 
prepared a national heritage area feasibility study that was reviewed 
by the National Park Service and found to meet the interim criteria for 
potential designation.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions from members of the committee.
                                s. 1191
    Mr. Chairman, thank you for the opportunity to appear before the 
committee to present the Department of the Interior's views on S. 1191, 
a bill to direct the Secretary of the Interior to conduct a study of 
the suitability and feasibility of establishing the Naugatuck River 
Valley National Heritage Area in Connecticut, and for other purposes.
    The Department supports enactment of S. 1191. However, we feel that 
priority should be given to the 36 previously authorized studies for 
potential units of the National Park System, potential new National 
Heritage Areas, and potential additions to the National Trails System 
and National Wild and Scenic Rivers System that have not yet been 
transmitted to Congress.
    In addition, the Department continues to recommend that Congress 
enact program legislation for national heritage area studies and 
designations. There are currently 49 designated national heritage 
areas, yet there is no authority in law that guides the designation and 
administration of these areas. Program legislation would provide a 
much-needed framework for evaluating proposed national heritage areas, 
offering guidelines for successful planning and management, clarifying 
the roles and responsibilities of all parties, and standardizing 
timeframes and funding for designated areas. We recommend that Congress 
enact this legislation during this Congress.
    The proposed study area includes a part of Connecticut following 
the Naugatuck River Valley between Torrington and Shelton in the 
counties of Litchfield and New Haven. The Naugatuck River Valley 
contains a collection of historic and natural resources relating to the 
industrial, intellectual, political, and architectural heritage of the 
United States. The proposed study area includes numerous properties 
listed on the National Register of Historic Places, and three National 
Historic Landmarks: the Litchfield National Historic Landmark District; 
the Tapping Reeve House and Law School, which was the first law school 
in the United States; and the Oliver Wolcott House, which was the home 
of a signer of the Declaration of Independence. Many of the fourteen 
communities identified in the bill are prototypical New England mill 
towns that represent one of the main manufacturing centers of the 
nation during the 19th and 20th centuries and a crucial hub of 
industrial innovation. The valley's principal industries were rubber 
(Charles Goodyear developed the rubber vulcanization process here), 
brass (first developed in the valley), and clock making. The story of 
the immigrants who worked in these industries and contributed to the 
cultural mosaic of the country is equally compelling. The river flows 
for over forty miles through landscapes of historical importance to our 
nation.
    The proposed study area has extensive recreational resources in 
place or under development, including the Naugatuck River Greenway, the 
Derby Greenway, and the Steele Brooke Greenway. Through the efforts of 
the Connecticut Department of Environmental Protection and the support 
of the local communities, considerable progress has been made to 
restore water quality along the length of the proposed study area. It 
is an area worthy of study for potential designation as a national 
heritage area.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions you or other members of the committee may have.
                                s. 1198
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 1198, a bill to reauthorize the Essex National Heritage Area.
    The Department recognizes the important work of the Essex National 
Heritage Area to preserve heritage resources in Essex County, 
Massachusetts. We recommend that S. 1198 be amended to authorize an 
extension for heritage area program funding until we have completed an 
Evaluation and Report on the accomplishments of the area and the future 
role of the National Park Service; and until heritage area program 
legislation is enacted that standardizes timeframes and funding for 
designated national heritage areas. Consistent with congressional 
directives in the 2009 and 2010 Interior Appropriations Acts, the 
Administration proposed focusing most national heritage area grants on 
recently authorized areas and reducing and/or phasing out funds to 
well-established recipients to encourage self-sufficiency in the FY 
2013 Budget. The Department would like to work with Congress to 
determine the future federal role when heritage areas reach the end of 
their authorized eligibility for heritage program funding. We recommend 
that Congress enact national heritage legislation during this Congress.
    There are currently 49 designated national heritage areas, yet 
there is no authority in law that guides the designation and 
administration of these areas. Program legislation would provide a 
much-needed framework for evaluating proposed national heritage areas, 
offering guidelines for successful planning and management, clarifying 
the roles and responsibilities of all parties, and standardizing 
timeframes and funding for designated areas.
    Essex National Heritage Area (Essex) was established in 1996 by 
Public Law 103-333. Essex was established to recognize, preserve, 
promote, and interpret the historic, cultural, and natural resources of 
the North Shore and lower Merrimack River valley in Essex County, 
Massachusetts. The early settlement history, maritime history, and the 
imprint of the early industrial era on the landscape, in particular, 
were considered to be nationally distinctive and met the criteria for 
Heritage Area designation. Essex preserves and interprets a rich 
cultural landscape that includes historic homes, small family farms, 
and historic industrial architecture. Additionally, Essex contains an 
array of scenic and natural resources such as rocky coasts and harbors, 
marshlands, and rivers. Essex spans 500 square miles in northeastern 
Massachusetts, and includes 34 cities and towns.
    Essex is managed by the Essex National Heritage Commission 
(Commission), which facilitates public private partnerships for the 
preservation of heritage resources and works closely with National Park 
Service (NPS) staff at Salem Maritime National Historic Site and Saugus 
Iron Works National Historic Site, both of which are within the 
boundary of Essex. The Commission's work focuses on regional 
initiatives for heritage programming, interpretation, and education, 
preservation and resource stewardship, heritage development and 
infrastructure, and planning and design.
    During its 15 years of existence, Essex has a significant record of 
achievement. Essex has worked closely with NPS staff at Salem Maritime 
and Saugus Iron Works on a variety of educational and interpretive 
programs to educate visitors and students about local heritage 
resources. One successful example is the Trails & Sails weekend, a 
county-wide event that involves more than 50 host organizations at more 
than 140 host locations in Essex County in providing interpretive 
tours, hikes, walks, sail trips and special events at no charge to 
participants. The Essex Local History In a National Context program has 
also successfully brought the main themes of Essex into area 
classrooms.
    Essex has played a significant role in local communities in helping 
to inventory and research historic resources. Working with the 
Massachusetts Department of Conservation and Recreation, Essex created 
a catalog of heritage landscapes that communities had identified as 
being valuable and worthy of protection. In all, communities identified 
1,320 resources in 24 of the 34 municipalities included within the 
boundary of Essex. Additionally, the inventory articulated strategies 
for preserving these historic resources and landscapes.
    Essex has also implemented a successful public information and 
wayfinding campaign for promoting tourism within the Heritage Area. 
More than 80 directional highway signs have been installed within Essex 
that point visitors toward regional visitor centers and historic and 
natural visitor destinations. These signs not only have helped visitors 
find tourism destinations within Essex, they have also helped create a 
regional identity for the heritage area. Essex also plays a significant 
role in leveraging federal dollars. For every Federal dollar Essex 
received, it leveraged approximately $5 of non-federal funds in fiscal 
year 2011 ($671,000 Federal vs. $3,574,139 non-federal). In total, 
Essex has received over $12 million in Federal funding.
    S. 1198, as written, would extend the authorization of federal 
funding for Essex for an additional 15 years and increase the 
authorization of appropriations by $5 million. Currently, Essex is one 
of the nine heritage areas now being evaluated by the NPS pursuant to 
Public Law 110-229. We anticipate the Essex evaluation will be 
transmitted to Congress this year, and will include recommendations on 
what the future role of the National Park Service should be in the 
area.
    We recommend a technical amendment to the long title of the bill to 
make it clear that the bill would extend the authorization for Federal 
funding for the heritage area instead of reauthorizing the heritage 
area. While the Essex National Heritage Area faces a sunset for its 
Federal funding, its National Heritage Area designation will not 
sunset.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions you or other members of the committee may have.
                                s. 1215
    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 1215, a bill to authorize the exchange of land or interest in land 
between Lowell National Historical Park and the city of Lowell in the 
Commonwealth of Massachusetts, and for other purposes.
    The Department supports enactment of this legislation. S. 1215 
would enable Lowell National Historical Park to acquire land by means 
of exchange with public entities and to continue beyond 2018 the 
successful use of the Preservation Loan Fund to help finance the 
restoration and redevelopment of historic structures. Both of these 
provisions would facilitate the park's long-term goals without 
requiring any additional appropriations.
    Public Law 95-290, enacted in 1978, established Lowell National 
Historical Park to preserve and interpret the city's nationally 
significant historical and cultural sites, structures, and districts 
associated with the city's role in the 19th Century American industrial 
revolution. Along with the park, the law established the Lowell 
Historic Preservation Commission to complement and coordinate the 
efforts of the park, the Commonwealth, and local and private entities 
in developing and managing the historic and cultural resources and to 
administer the Lowell Historic Preservation District. The law 
established an arrangement that requires a high level of cooperation 
between the Federal, Commonwealth, and local governments, and the 
private sector. The General Management Plan (GMP) and the Lowell 
Preservation Plan were designed to be supportive of local government 
preservation and community development efforts and to encourage 
substantial private investment in the redevelopment of the city's vast 
19th-century urban resources.
    Over the past three decades, the park and the commission have 
played a key role in the city's revitalization. Working in cooperation 
with the city, Commonwealth, and other public entities and private 
partners, the National Park Service has contributed to the 
rehabilitation of over 400 structures and the creation of extensive 
public programs to preserve and interpret the city's cultural 
resources. An estimated $1 billion in private investment has occurred 
within the park and preservation district since the creation of the 
park. To date, 88 percent of the 5.2 million square feet of vacant mill 
space within the park and preservation district has been renovated or 
is in the process of being renovated in accordance with the Secretary 
of the Interior's Standards for the Treatment of Historic Properties.
    Because of changes in the vicinity of the park as these 
preservation and redevelopment efforts have occurred, the National Park 
Service would like to shift the use, management, or ownership of some 
park lands in order to facilitate their redevelopment for other uses. 
The park's maintenance facility and visitor center parking lot sites, 
which are not historic, have been identified by the University of 
Massachusetts-Lowell, and the City of Lowell, respectively, as critical 
to their master plan redevelopment programs. The university and city 
seek to acquire these sites from the park, have proposed to develop 
them in ways consistent with the mission, intent and purposes of the 
park, and have expressed a willingness to work with the park to help 
facilitate the equitable exchange and relocation of these facilities. 
The park's September 2010 GMP Amendment specifically recommended the 
Visitor Center Parking Lot exchange with the city. The University's 
request to exchange the park's maintenance facility came after the GMP, 
but is in the park's long-term interest. The National Park Service 
supports the exchange of both the Visitor Center Parking Lot and the 
park's maintenance facility.
    Under current law, the park has authority to acquire property from 
the Commonwealth or its political subdivisions only by donation. S. 
1215 would give the park the authority to acquire land by exchange from 
the Commonwealth, the city of Lowell, or the University of 
Massachusetts Building Authority. This authority would enable the park 
to conduct both proposed land exchanges. The legislation ensures that 
if the value of land to be acquired by the park is lower than the value 
of the land exchanged, the city or Commonwealth would be required to 
make a cash payment to equalize values and the park would have use of 
those funds for the purpose of replacing exchanged facilities and 
infrastructure. At this time, the National Park Service has not 
identified potential exchange properties.
    The Preservation Loan Fund was also authorized in Public Law 95-290 
and formally established in 1983. The purpose of the fund is to 
stimulate private investment in nationally significant historic 
buildings to meet the historic preservation mandate within the Lowell 
National Historical Park and Preservation District. The law directed 
the commission to loan the funds to the non-profit Lowell Development 
and Financial Corporation, to create a revolving loan fund to 
accomplish historic preservation goals. The program has funded twenty-
one nationally significant historic building projects with loans 
totaling approximately $2.5 million. The original Federal appropriation 
of $750,000 leveraged non-federal project investments totaling 
approximately $130.3 million to date, representing over $173 in non-
federal investment for each Federal dollar appropriated.
    The Preservation Loan Fund was initially authorized for a 35-year 
period expiring in 2018. S. 1215 would extend the program for an 
additional 25 years. The extension of the program would enable existing 
funds to continue in a revolving fund for the purposes identified in 
the original authorization. No additional appropriations would be 
needed. Despite what has been accomplished in Lowell, numerous historic 
structures still require rehabilitation, and this program is an 
important catalyst for generating the private and non-federal funding 
needed to ensure the preservation of these structures. Extending this 
authorization would greatly enhance the park's efforts to assure the 
integrity of the park and preservation district.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions you or members of the subcommittee may have 
regarding S. 1215.
                                s. 1589
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 1589, a bill to extend the 
authorization for the Coastal Heritage Trail in the State of New 
Jersey.
    The Department does not object to S. 1589, but notes that the 
National Park Service is no longer providing technical assistance since 
the authorization of funding expired on September 30, 2011. This bill 
would extend the trail's authorization to September 30, 2016.
    Public Law 100-515 enacted on October 20, 1988, authorized the 
Secretary of the Interior to designate a vehicular tour route in 
coastal New Jersey and to prepare an inventory of sites along the 
route. An interpretive program was also mandated to provide for public 
appreciation, education, understanding and enjoyment of important fish 
and wildlife habitats, geologic and geographical landforms, cultural 
resources, and migration routes in coastal New Jersey. The Secretary 
was authorized to provide technical assistance, prepare and distribute 
information, and erect signs along the route. The resulting New Jersey 
Coastal Heritage Trail Route links national wildlife refuges, national 
parklands, National Historic Landmarks, and National Register sites 
with important historic communities, state parks, natural areas, and 
other resources to tell the story of New Jersey's role in shaping U.S. 
history and in providing internationally important habitats for bird 
and other migrations.
    The trail was envisioned as a partnership among the National Park 
Service (NPS), the State of New Jersey, and many local government and 
private non-profit partners. Through interpretation of five themes 
(Maritime History, Coastal Habitats, Wildlife Migration, Relaxation & 
Inspiration, and Historic Settlements), the trail brought attention to 
important natural and cultural resources along coastal New Jersey. The 
trail had a variety of accomplishments that have continued to provide 
enjoyment and education to visitors even after the trail's 
authorization expired including a wayside exhibit program, welcome 
center partnerships in several communities, a successful publications 
and brochure program, and a highway directional signage program. All of 
these accomplishments were the result of partnerships with state, local 
and other entities and helped meet the trail's core mission of natural 
and cultural resource preservation along with interpretation and public 
education in a cost-efficient manner through technical assistance while 
reducing operational responsibilities. No NPS funds were used for 
maintenance, repair, or operation of any road or road-related 
structure.
    Prior to the expiration of the NPS authority for assistance for the 
trail in 2011, the NPS completed a strategic plan for the trail. The 
strategic plan identified four options for the continuance of the 
trail's mission: 1) No further NPS management of the trail after the 
sunset date of September 30, 2011; 2) Limited time for NPS management, 
in order to transition to a new management framework; 3) A new federal 
role for or within the trail project area; and 4) Permanent 
authorization for the trail. With the exception of option 1, all 
identified options required legislative action.
    With the expiration of the trail authorization on September 30, 
2011, the NPS moved forward with implementing option 1 from the 
strategic plan and commenced an orderly conclusion of NPS management of 
the trail. The NPS closed its trail office in Newport, New Jersey, 
relocated staff assigned to work on the trail to other NPS offices and 
ended direct NPS involvement in the operation of the trail. If 
assistance is reauthorized, the NPS does not intend to reopen its trail 
office, reassign staff to work on the trail or otherwise change its 
current management structure. The NPS would support the trail through 
the work of appropriate regional staff.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions from members of the committee.
                                s. 1708
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 1708, a bill to authorize the Secretary of the Interior to establish 
the John H. Chafee Blackstone River Valley National Historical Park.
    The Department supports S. 1708, if amended in accordance with this 
testimony.
    S. 1708 would establish a new unit of the National Park System, the 
John H. Chafee Blackstone River Valley National Historical Park (Park) 
within the existing, bi-state, Blackstone River Valley National 
Heritage Corridor (Corridor) that extends from Worcester, Massachusetts 
to Providence, Rhode Island. The bill directs the Secretary of the 
Interior (Secretary) to administer the Park in accordance with the laws 
applicable to the National Park System and authorizes the Secretary to 
enter into cooperative agreements with state and local governments as 
well as the coordinating entity for the Corridor and others, for the 
purpose of collaborating on programs, projects and activities that 
further the purposes of the Park.
    The bill also authorizes the Secretary to acquire land for the Park 
from willing sellers with donated or appropriated funds, transfer from 
another federal agency, or exchange. Lands owned by the Commonwealth of 
Massachusetts or the State of Rhode Island, or their political 
subdivisions, may only be acquired by donation or exchange. Finally, 
the Secretary is directed to complete a General Management Plan for the 
Park within three years after funds are made available. Among other 
things, the plan must seek to make maximum practicable use of certain 
named visitor facilities in the Corridor that are operated by Corridor 
partners, many of which were developed with significant investment of 
federal funds.
    S. 1708 is consistent with the findings of the Special Resources 
Study (SRS) that the National Park Service (NPS) completed in 
accordance with Public Law 109-338 of 2006, which directed the NPS to 
conduct the SRS to ``evaluate the possibility of (A) designating one or 
more sites or landscape features as a unit of the National Park System; 
and (B) coordinating and complementing actions by the [Corridor] 
Commission, local governments, and State and Federal agencies, in the 
preservation and interpretation of significant resources within the 
Corridor.'' The SRS evaluated a broad range of sites, features and 
resources throughout the Blackstone River Valley and concluded that the 
following meet the criteria for designation as a unit of the National 
Park System: Old Slater Mill National Historic Landmark district in 
Pawtucket, Rhode Island, the historic mill villages of Ashton and 
Slatersville in Rhode Island, and Hopedale and Whitinsville in 
Massachusetts; the Blackstone River and its tributaries; and the 
Blackstone Canal. S. 1708 proposes to include these sites and features 
in a new unit of the National Park System.
    The SRS also evaluated various management alternatives with 
different scopes and levels of National Park Service involvement. The 
preferred alternative, from both an environmental and park management 
perspective, is a new unit of the National Park System that consists of 
the aforementioned sites and features, and that would partner with the 
coordinating entity for the Corridor and others to undertake the 
protection and interpretation of these resources. S. 1708 reflects that 
recommendation, as it proposes to create a National Historical Park in 
the Blackstone River Valley of Massachusetts and Rhode Island. The Park 
would be granted the necessary authorities to continue to work with the 
Corridor and other partners to optimize protection, management, and 
public enjoyment of these resources. We believe that the NPS, working 
in partnership with local groups within the Corridor is the most 
effective and cost efficient management model for a new unit of the 
National Park System in the Blackstone River Valley.
    If established based upon the management alternative recommended in 
the SRS, we estimate that the cost to create the Park would be $6.1 
million in one-time expenditures on research, planning, construction 
and/or rehabilitation, and exhibits. When the Park is fully 
established, operational costs are estimated to be $3.5 million 
annually for salaries, supplies and equipment. All funds would be 
subject to NPS priorities and the availability of appropriations.
    We recommend several amendments to S. 1708 to clarify authorities 
and conform the bill to similar legislation establishing new National 
Park System units.
    First, we recommend changing the name of the Park to Blackstone 
River Valley National Historical Park. While we have the greatest 
respect for the late Senator John H. Chafee and recall his strong 
support for the protection of our national parks and his efforts to 
preserve the resources of the Blackstone River Valley, we know of no 
instances of national parks being named after their congressional 
sponsors nor do we wish to set this precedent. Naming the Park after 
the late senator would divert attention from the important resources 
and values that Park visitors learn about at national park sites, and 
could cause confusion between the park and the surrounding national 
heritage corridor that bears the senator's name.
    As an alternative, we recommend that the committee consider 
dedicating the Park to Senator Chafee, naming the main visitor center 
in his honor, or providing some interpretive exhibits or materials 
about his work.
    Second, we recommend that parcels for Federal land acquisition be 
prioritized in order to establish a base for NPS ownership and 
management and that NPS be authorized to acquire a limited amount of 
land for administrative purposes outside the boundary of the Park. NPS 
currently has office space outside of the park boundary in Woonsocket, 
RI, and being able to continue to use this space for purposes of the 
park will save money and allow a central location that will better 
serve the urban communities of the park. We also recommend language 
that creates a matching requirement for the expenditure of Federal 
funds under cooperative agreements for any natural, historic or 
cultural resource protection project in the Park or the Corridor that 
is consistent with the general management plan. There is approximately 
$1 million in unexpended funds for the heritage corridor that remains 
available for these types of projects. The use of this cooperative 
agreement authority for any future projects would be subject to further 
appropriations for this purpose and Administration priorities. We will 
be happy to work with the committee on drafting these suggested 
amendments.
    Mr. Chairman, that concludes my statement. I would be happy to 
answer any questions that you or other members of the Subcommittee may 
have.
                                s. 2131
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 2131, a bill to reauthorize the Rivers of Steel National Heritage 
Area, the Lackawanna Valley National Heritage Area, and the Delaware 
and Lehigh National Heritage Corridor.
    The Department recognizes the important work of the three national 
heritage areas to preserve historic, cultural, natural, and 
recreational resources in Pennsylvania. We recommend that S. 2131 be 
amended to authorize an extension for heritage area program funding 
until we have completed an Evaluation and Report on the accomplishments 
of the area and the future role of the National Park Service; and until 
program legislation is enacted that standardizes timeframes and funding 
for designated national heritage areas. Consistent with congressional 
directives in the 2009 and 2010 Interior Appropriations Acts, the 
Administration proposed focusing most national heritage area grants on 
recently authorized areas and reducing and/or phasing out funds to 
well-established recipients to encourage self-sufficiency in the FY 
2013 Budget. The Department would like to work with Congress to 
determine the future federal role when heritage areas reach the end of 
their authorized eligibility for heritage program funding. We recommend 
that Congress enact national heritage legislation during this Congress.
    There are currently 49 designated national heritage areas, yet 
there is no authority in law that guides the designation and 
administration of these areas. Program legislation would provide a 
much-needed framework for evaluating proposed national heritage areas, 
offering guidelines for successful planning and management, clarifying 
the roles and responsibilities of all parties, and standardizing 
timeframes and funding for designated areas.
    Created by Public Law 104-333 in 1996, the Rivers of Steel National 
Heritage Area (Rivers of Steel) is made up of eight counties in 
southwestern Pennsylvania known for their significant contributions to 
the steel industry in America. The mission of Rivers of Steel is to 
preserve and interpret the history of the region and share the dynamic 
story of the evolution of southwestern Pennsylvania from a small 
colonial settlement to the flourishing of the steel industry in the 
area.
    The Lackawanna Valley National Heritage Area (Lackawanna) was 
established by Public Law 106-278 in 2000. The Lackawanna includes four 
counties in northeastern Pennsylvania with historical ties to the 
anthracite coal industry. These counties preserve nationally 
distinctive resources related to Pennsylvania and America's industrial 
history, including the history of major labor unions and the struggle 
to improve working conditions of mine workers. The mission of the 
Lackawanna is to conserve, interpret and develop the historical, 
cultural, natural and recreational resources associated with the area's 
significant history.
    The Delaware and Lehigh National Heritage Corridor (Delaware and 
Lehigh) was established by Public Law 100-692 in 1988, one of the 
earliest National Heritage Areas created by Congress. The Delaware and 
Lehigh follows the historic Delaware Canal and Lehigh Navigation Canal 
through eastern Pennsylvania. Completed in 1834, the Delaware Canal was 
an important early transportation route that transformed eastern 
Pennsylvania from an agrarian region to an industrialized society. The 
Delaware Canal is a designated National Historic Landmark and portions 
of the Lehigh Navigation Canal are on the National Register of Historic 
Places. The purpose of the Delaware and Lehigh is to provide an 
integrated management structure that will preserve and interpret the 
canals and their history.
    The bedrock of the National Heritage Area concept has always been 
building partnerships for achieving goals. All three of these non-
profit heritage areas, with government funding assistance since their 
establishment, have shown significant success in working with partners 
and the Federal government to preserve, interpret, and promote the 
significant resources in their local areas. Every Federal dollar has 
been matched with non-federal funds. For example in fiscal year 2011, 
Lackawanna's Federal appropriation was $446,112 while the amount of 
leveraged non-Federal dollars was $1,361,235. For the same fiscal year, 
Rivers of Steel received $682,000 in Federal funding and received 
$734,313 in leveraged dollars, while Delaware and Lehigh received 
$625,000 in Federal funding and received $1,566,395 in leveraged 
dollars, which equals an average of $2 in non-federal funds for every 
dollar of Federal funds. In total, Lackawanna has received nearly $6 
million in Federal funding, Rivers of Steel has received approximately 
$12.2 million in Federal funding, and Delaware and Lehigh has received 
about $11.5 million in Federal funding.
    S. 2131, as drafted, would extend the authorization for federal 
funding for these three heritage areas for an additional ten years. 
Currently, the Evaluation and Report required by Public Law 110-229 is 
being completed for Rivers of Steel and we anticipate the evaluation 
will be transmitted to Congress this year. There is no legislation 
requiring an Evaluation and Report for Lackawanna. To be consistent 
with other national heritage areas, we recommend the bill be amended to 
include Evaluation and Report language similar to Sec. 462 of Public 
Law 110-229 for Lackawanna. The NPS and the Delaware and Lehigh 
completed an evaluation for the Delaware and Lehigh, however, this 
evaluation did not include recommendations on what the future role of 
the National Park Service should be in the area. The National Park 
Service will take another look at the evaluation and include 
recommendations on the future role of the National Park Service prior 
to transmitting it to Congress in order to be consistent with the other 
reports.
    We recommend a technical amendment to the long title of the bill to 
make it clear that the bill would extend the authorization for federal 
funding for the heritage areas instead of reauthorizing the heritage 
areas. While the three heritage areas face a sunset date for their 
federal funding, their national heritage area designation will not 
sunset.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions you or other members of the committee may have.
                                s. 2133
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 2133, a bill to reauthorize the America's Agricultural Heritage 
Partnership in the State of Iowa.
    The Department recognizes the important work of the America's 
Agricultural Heritage Partnership, better known as Silos and 
Smokestacks National Heritage Area, in northeast Iowa. We recommend 
that S. 2133 be amended to authorize an extension for heritage area 
program funding until we have completed an Evaluation and Report on the 
accomplishments of the area and the future role of the National Park 
Service; and until heritage area program legislation is enacted that 
standardizes timeframes and funding for designated national heritage 
areas. Consistent with congressional directives in the 2009 and 2010 
Interior Appropriations Acts, the Administration proposed focusing most 
national heritage area grants on recently authorized areas and reducing 
and/or phasing out funds to well-established recipients to encourage 
self-sufficiency in the FY 2013 Budget. The Department would like to 
work with Congress to determine the future federal role when heritage 
areas reach the end of their authorized eligibility for heritage 
program funding. We recommend that Congress enact national heritage 
legislation during this Congress.
    There are currently 49 designated national heritage areas, yet 
there is no authority in law that guides the designation and 
administration of these areas. Program legislation would provide a 
much-needed framework for evaluating proposed national heritage areas, 
offering guidelines for successful planning and management, clarifying 
the roles and responsibilities of all parties, and standardizing 
timeframes and funding for designated areas.
    America's Agricultural Heritage Partnership, better known as Silos 
and Smokestacks National Heritage Area, in northeast Iowa, was 
established in 1996 by Public Law 103-333 to interpret farm life, 
agribusiness and rural communities-past and present. Silos and 
Smokestacks National Heritage Area preserves and tells the story of 
American agriculture and its global significance through partnerships 
and activities that celebrate the land, people, and communities of the 
area. The heart of America's agricultural revolution still exists in 
the Silos and Smokestacks region, and the national heritage area is 
telling the breadth and scope of this story in a compelling, meaningful 
way.
    The heritage of American agriculture and its influence on the 
global agricultural revolution were considered to be nationally 
distinctive and met the criteria for national heritage area 
designation. American agriculture is one of the primary sources of this 
country's wealth and world leadership and should be preserved and 
interpreted. Silos and Smokestacks National Heritage Area preserves and 
interprets a rich cultural landscape that includes family farms and 
historic industrial architecture and rural communities across a 37-
county region in Northeast Iowa covering over 20,000 square miles.
    The national heritage area is managed by the America's Agricultural 
Heritage Partnership, which facilitates public private partnerships for 
the preservation and interpretation of heritage resources. The 
Commission's work focuses on regional initiatives for heritage 
programming, interpretation, and education, preservation and resource 
stewardship, heritage development and infrastructure, and planning and 
design.
    During its 15 years of existence, the Silos and Smokestacks 
National Heritage Area has a significant record of achievement. It has 
worked closely with the regional business community, county and state 
governments and multiple non-governmental organizations to build a 
network of partner sites dedicated to preserving and interpreting the 
past, present and future of America's agricultural story. Working 
together, the network has developed a successful public information and 
way-finding program for promoting tourism that welcomes visitors along 
the major highway corridors surrounding the region and identifies the 
more than 100 partner sites in the heritage area. The new signs serve 
as a connecting thread for this network of sites, while letting 
visitors know they can discover a piece of America's agricultural story 
being preserved at the site.
    This way-finding program has not only helped visitors find tourism 
destinations within the Silos and Smokestacks National Heritage Area, 
but has also helped the heritage area develop a regional identity.
    The bedrock of the National Heritage Area concept has always been 
building partnerships for achieving goals. Silos and Smokestacks 
National Heritage Area, with minimal government funding assistance 
since its establishment, has shown significant success in working with 
partners and the Federal government to preserve, interpret, and promote 
the significant resources of northeast Iowa. Every Federal dollar has 
been matched with non-federal funds. For example, in fiscal year 2010, 
Silos and Smokestacks received $609,000 in Federal funding while the 
amount of leveraged non-Federal dollars was $626,000. Since its 
establishment, Silos and Smokestacks has received $8,847,107 million in 
Federal funding.
    S. 2133, as is written now, would extend the authorization for 
federal funding for the Silos and Smokestacks National Heritage Area 
for an additional 10 years. Currently, Silos and Smokestacks National 
Heritage Area is one of the nine heritage areas being evaluated by the 
National Park Service pursuant to Public Law 110-229. We anticipate its 
evaluation will be transmitted to Congress this year.
    We recommend a technical amendment to the long title of the bill to 
make it clear that the bill would extend the authorization for Federal 
funding for the heritage area instead of reauthorizing the heritage 
area. While the Silos and Smokestacks National Heritage Area faces a 
sunset for its Federal funding, its national heritage area designation 
will not sunset.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions you or other members of the committee may have.
                                s. 1141
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's testimony regarding H.R. 1141, a bill to 
authorize the Secretary of the Interior to study the suitability and 
feasibility of designating prehistoric, historic, and limestone forest 
sites on Rota, Commonwealth of the Northern Mariana Islands, as a unit 
of the National Park System.
    The Department supports H.R. 1141 with a technical amendment. 
Priority should be given, however, to the 36 previously authorized 
studies for potential units of the National Park System, potential new 
National Heritage Areas, and potential additions to the National Trails 
System and National Wild and Scenic Rivers System that have not yet 
been transmitted to Congress.
    H.R. 1141 would authorize the Secretary of the Interior to complete 
a Special Resource Study of sites on the Island of Rota for potential 
inclusion in the National Park System. We estimate that this study will 
cost approximately $250,000 to $300,000.
    Rota, where the indigenous Chamorro and Carolinian people have 
retained their cultural heritage in its natural environment, is the 
southernmost island of the Commonwealth of the Northern Mariana Islands 
(CNMI). Spared the population displacement of other colonial islands 
and largely bypassed during World War II, Rota preserves striking 
examples of the three thousand-year-old Chamorro culture surrounded by 
the best remaining expanse of this island chain's native limestone 
forest. The Mochon Latte Village, the Chugai Pictograph Cave, the Taga 
Latte Stone Quarry, and the Alaguan Bay Ancient Village prehistoric 
sites include architectural features unique to the ancient Chamorro 
culture and represent outstanding examples of the territory's cultural 
resources. These sites possess a high degree of integrity in location, 
materials, workmanship and association.
    The limestone forests of Rota are the most intact and most 
extensive examples of primary, native limestone forest remaining on any 
island in the Mariana Archipelago. The forest provides and sustains 
habitat for endangered bird species, a threatened species of fruit bat, 
and numerous species of invertebrates that are proposed for listing as 
threatened or endangered. Several of these species are endemic to Rota. 
The significance of this unique biotic community cannot be overstated.
    Rota's residents and legislative delegation have demonstrated an 
extraordinary commitment to the protection of the island's environment, 
including establishment of marine protected areas on Rota. In 2004, 
Senator Diego M. Songao, Chairman of the Rota Legislative Delegation of 
the Fourteenth Commonwealth Legislature, formally requested planning 
assistance from the National Park Service (NPS).
    In response to this request, the NPS completed a reconnaissance 
survey of Rota's natural and cultural resources in September of 2005. 
The reconnaissance survey found that the natural and cultural resources 
of the island of Rota are significant to island residents, the CNMI, 
and the entire nation and merit protection. It also made a preliminary 
finding that these resources are likely to be suitable and feasible for 
inclusion in the park system.
    At present, the people of Rota and their political leaders find 
themselves at a crossroads regarding the uses to which their lands are 
being put. Major land use changes are continuing to take place in the 
form of residential and agricultural lots being subdivided out of the 
island's public lands and transferred into private ownership.
    Congressional authorization to conduct a Special Resource Study 
will provide a public process to determine the suitability and 
feasibility of designating prehistoric, historic, and limestone forest 
sites on Rota, Commonwealth of the Northern Mariana Islands, as a unit 
of the National Park System. The NPS would be pleased to actively 
engage organizations, residents and others in discussions of how best 
to preserve Rota's significant cultural and natural resources.
    The NPS recommends a technical correction to clarify the intent of 
section 2(a)(2) of the bill. We interpret this section to apply to 
areas identified as suitable and feasible for designation as a unit of 
the National Park System. It is possible, however, to read this section 
more broadly to imply that the National Park Service should examine 
alternatives for management of the entire island of Rota. We would like 
to work with the committee to clarify the intent of this section.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer questions that you or other members of the committee might have.
                               h.r. 2606
    Mr. Chairman, thank you for the opportunity to appear before you 
today to discuss the views of the Department of the Interior on H.R. 
2606, to authorize the Secretary of the Interior to allow the 
construction and operation of natural gas pipeline facilities in the 
Gateway National Recreation Area, and for other purposes.
    The Department supports H.R. 2606 with amendments described later 
in this statement.
    H.R. 2606 addresses the need for expansion of the current gas line 
operated by the firm National Grid. The last expansion was over 40 
years ago and the line is at capacity. This legislation would authorize 
the Secretary to allow for a natural gas pipeline right-of-way to pass 
through Gateway National Recreation Area. Further, it authorizes a non-
competitive lease that will facilitate the adaptive use of two historic 
aircraft hangar buildings on Floyd Bennett Field to house facilities 
needed for operation of the pipeline. Use of the buildings would be 
subject to restoration of the buildings and the collection of payment 
for their use at fair market value.
    Numerous alternative routes were considered by National Grid as 
part of the Federal Energy Regulatory Commission compliance process. 
However, the most feasible route considered would be to use an 
underground pipeline that traverses lands within Gateway National 
Recreation Area. It would require a 60,000-square-foot facility to 
house the metering station and equipment needed to move the gas from 
the supply lines into smaller, lower-pressure distribution pipelines.
    One option considered is to build the facility outside of the park. 
If built outside of the park, the National Park Service believes that 
the metering station and required security structures, which would be 
the approximate size of a football field with 20-foot high walls, would 
impact park resources, particularly the park viewshed.
    The option of constructing a new facility within the park would 
also cause impacts. New construction for pipeline facilities within the 
park would be contrary to the National Park Service's goals of reducing 
infrastructure and carefully managing existing facilities. Floyd 
Bennett Field and its associated buildings are listed on the National 
Register of Historic Places as a historic district, and such new 
construction could additionally jeopardize this status.
    The option that appears to be most feasible with least impact to 
the park is the one that H.R. 2606 would allow: the rehabilitation and 
use of two currently deteriorated historic airplane hangars on Floyd 
Bennett Field. If these are used to house the metering station, then 
neither the 20-foot-tall security structure that would be required 
around the facility outside of the park nor new construction within the 
park would be needed. Additionally, the use of these historic hangars 
on Floyd Bennett Field would allow for operation of the pipeline 
without impacting the historic landscape, while also providing for 
long-term care of the structures and providing annual income from rent, 
which the Secretary would be authorized to retain for infrastructure 
needs, resource protection, and visitor services at the park.
    As passed by the House on February 7, 2012, H.R. 2606 contains 
provisions to help ensure that the leasing and permitting authorized at 
Gateway National Recreation Area will be conducted in a way that 
protects park resources and that revenue derived from the leasing will 
be retained by the park, consistent with National Park Service law and 
policy. These are important changes that were made to the bill when it 
was reported by the House Natural Resources Committee and on the House 
floor. However, there are two additional amendments we would like to 
recommend: one to clarify that the equipment housed in the leased 
hangar will not be subject to both a lease and a permit, and the other 
to ensure that the National Park Service has the appropriate authority 
to make any necessary modifications to the lease before renewing it. 
Proposed language for both of these amendments is attached to this 
statement.
    Mr. Chairman, this concludes my prepared remarks. I will be happy 
to answer any questions you or any other committee member may have 
concerning this bill.
Proposed amendments to H.R. 2606, New York City Natural Gas Supply 
        Enhancement Act, as received in the Senate
    Page 2, line 18: Strike ``natural gas.'' and insert ``natural gas 
(but not including the metering and regulating station)''.
    Page 4, lines 14-16: Strike ``with any changes to its terms and 
conditions mutually agreed upon.'' and insert ``upon review, 
evaluation, and modification, if necessary, of its terms.''.

    Senator Udall. Thank you, Dr. Toothman.
    I do have a series of questions, but let me start with S. 
29, the proposed national heritage area in California.
    Ms. Toothman. Yes.
    Senator Udall. As I understand your testimony, the Park 
Service's principle concern with the bill is that you are still 
reviewing the study prepared by the Delta Protection 
Commission, so that the designation at this time would be 
premature. Is that a correct analysis on my part?
    Ms. Toothman. It would be premature for us to make a 
recommendation without having completed that review.
    Senator Udall. That review. When do you expect to have that 
review completed?
    Ms. Toothman. We have provided initial comments to the 
Commission and they are working on them. We expect to have them 
finalized before they meet in May to make their own decision on 
whether they concur with the recommendations. So I would say by 
the end of May.
    Senator Udall. That is helpful.
    Let me turn to S. 1150, the proposed Susquehanna Gateway 
National Heritage Area in Pennsylvania. In this case, you have 
recommended that we defer action on the bill until 
comprehensive heritage area legislation is enacted, which, I 
believe, has been the Agency's recommendation----
    Ms. Toothman. Yes.
    Senator Udall. For all recent heritage area proposals.
    Apart from that concern, does the Susquehanna proposal 
appear to meet the criteria for national heritage area 
designation?
    Ms. Toothman. Yes. We feel it is a very good candidate.
    Senator Udall. You feel it is a very good candidate?
    Ms. Toothman. Yes.
    Senator Udall. Let me move to the Essex National Heritage 
Area, which we heard testimony and comments from both Senator 
Reed and Senator Kerry, and that is S. 1198.
    It extends the authorization for the Essex National 
Heritage Area to receive Federal funding, and I think we can 
include the Iowa Heritage Area, and the 3 Pennsylvania Heritage 
Areas in this question, since they all raise the same issue.
    Your first recommendation is that the authority for these 
areas be extended long enough to allow the Park Service to 
complete an evaluation of the areas.
    Do you have a timeline that you can give us for when you 
expect to have each of these evaluations completed for the 
individual heritage areas?
    Ms. Toothman. Yes, I do, but I also want to clarify one 
point.
    Senator Udall. OK.
    Ms. Toothman. They remain heritage areas at the end of 
fiscal year 2012. What is expiring is their authority to 
compete for financial support from the appropriation we receive 
for heritage areas. So what we are asking for is an extension 
of their eligibility to compete for that funding
    Senator Udall. So the heritage areas themselves and their 
authorizations do not expire.
    Ms. Toothman. Right.
    Senator Udall. It is the authorization to compete for 
funding.
    Ms. Toothman. Yes, to be eligible for that Federal funding. 
We are in the midst of completing the evaluations, and we 
expect to have them done by the end of the year.
    Senator Udall. End of the year. Let me bring a follow on 
question, and you may have already answered this, but I want to 
ask it for the record.
    So the larger policy issue may be if a heritage area has 
completed its initial authorization period, and has been 
successful, would additional Federal funding be appropriate, or 
should each area only get a one-time funding authorization? 
Does the Park Service have a position on the issue?
    Ms. Toothman. May I just confer?
    Senator Udall. Oh, sure; of course.
    Ms. Toothman. OK. We do not have an official position on 
that right now, but we are supporting the interim extension 
until we can work with the committee on that issue.
    Senator Udall. All right. So you want an interim, you would 
support an interim extension.
    Ms. Toothman. Right.
    Senator Udall. But as far as a long term policy, you would 
like to discuss that and come up with a clear position from the 
Park Service's point of view.
    Ms. Toothman. Yes. Excuse me. I think they could also, in 
terms of those discussions, be part of the discussions of a 
national heritage program legislation. That might be one area.
    Senator Udall. I look forward to the fruits of your labor 
and perhaps we will have a continuing conversation on what you 
recommend through the analysis you will do.
    Let me turn to the Blackstone National Historical Park, and 
I want to ask you to clarify for the record that Senator Reed, 
I believe, did not speak to the Essex National Heritage Area; 
Senator Kerry did as it is exclusively in Massachusetts. But 
the 2 of them did discuss the Blackstone National Historical 
Park. I have one question.
    As I understand it, the area is currently designated as a 
National Heritage Corridor, but it is different from the more 
recent heritage area models in that it also has a Park Service 
presence. Is that not correct? Would that summarize it?
    Ms. Toothman. Yes, that is correct. Most of the recent 
designations have involved a non-profit entity rather than a 
commission. So that is one difference.
    In addition, their funding was different in that they had 
several streams of funding that were related to the National 
Park Service presence in its early creation, one of which was 
related to an appropriation for projects, one of which was 
related to, an in which there is still funding available, 
development. Then they also received an allocation, initially 
individually by law now from the competitive pool from which we 
now provide funding. So we would like to see that the $1 
million that they still have preserved as this legislation 
moves forward.
    Senator Udall. Let me follow up. I said I had one question, 
but I actually have 2 or 3 questions that make up one question.
    So this subcommittee had considered a number of proposed 
national historical parks this Congress that are within the 
same NPS region. One of the issues we have had to address is 
whether the Park Service will have a sufficient management 
role, one that is consistent with a National Park designation. 
Your testimony on the Blackstone bill noted that the new park 
is envisioned as a partnership with the Heritage Corridor and 
other local entities.
    Do you expect the Park Service to have direct management 
responsibilities here, or will the other partners be primarily 
responsible for management of the Park?
    Ms. Toothman. Within the areas designated for the Park and 
potential acquisition by the Park Service, we would expect to 
have National Park Service management authority. It would be 
our expectation and desire that we would continue to partner on 
issues affecting the larger corridor within which the Park 
would be located.
    Senator Udall. I know we are coming at the question from 
some different directions, so thank you for elaborating.
    Let me move to the Gateway National Recreation Area and 
pipeline right of way. That is H.R. 2606, which would authorize 
the Park Service to issue a right of way for a natural gas 
pipeline across the Gateway National Recreation Area in New 
York. I understand the Park Service needs legislative authority 
to allow for a natural gas pipeline to cross through a national 
park.
    If the bill is enacted, what criteria will the Park Service 
use to determine whether it is appropriate for a pipeline right 
of way to cross national parklands?
    Ms. Toothman. We would use the same criteria that we would 
apply to any such proposal. We would be looking at it both 
through the NEPA and the National Historic Preservation Office. 
The National Historic Preservation Act, Section 106 process. I 
just came from the NCSHPO meeting, so that is on my mind, but 
so we would do----
    Senator Udall. Better you than me.
    Ms. Toothman. Full compliance, and public scoping, and 
review.
    Senator Udall. Thank you for keeping all those acronyms 
separate. I serve on the Armed Services Committee, so we have a 
lot of acronyms over there as well.
    So following on, earlier in this congress, the committee 
considered similar legislation, which authorized a pipeline 
through a portion of Denali National Park in Alaska. In that 
case, the legislation provided that the right of way could only 
be issued if following appropriate analysis under the National 
Environmental Policy Act, NEPA, quote, ``The route through the 
Park was the one with the least adverse environmental effects 
for the Park,'' end of quote.
    Should we consider including a similar provision in this 
bill? If you want to take that under advisement or for the 
record, feel free to do so.
    Ms. Toothman. I think we would address that, again, through 
the NEPA process, preferred option and we would look at the 
most environmentally--one that we felt was not an adverse 
impact and which would be selected under the NEPA process. So I 
am not sure that it needs to be in your legislation, I think, 
would be the best response I can give you.
    I have seen the 2 hangars that are proposed to house the 
monitoring-metering facility, and they are 2 hangars that we 
have not found an appropriate use for. It would be a major 
boost for the park to have a compatible, acceptable reuse of 
those facilities as part of this project. So that is one reason 
why we would also be looking at it through Section 106 in terms 
of whether this is an appropriate adaptive reuse.
    Senator Udall. That is the end of my questions. Let me 
thank you for taking the time to come to appear today before 
the subcommittee. Thank you for all you do to enhance and 
protect our national heritage areas, and our historical park, 
and our national recreation areas. We are fortunate as 
Americans to have such a bounty of public lands, and access, 
and opportunities.
    Ms. Toothman. I agree with you, and I thank you for your 
support.
    Senator Udall. Thank you. Thank you so much, and I know you 
are busy, so you are welcome to stay and listen, or to leave as 
your schedule dictates.
    Ms. Toothman. I will be glad to stay. A number of these 
bills are very important to us.
    Senator Udall. Thank you.
    Ms. Toothman. Thank you.
    Senator Udall. Thank you, Dr. Toothman.
    I would like the panel to come forward. We are looking 
forward to your testimony.
    Before I introduce the witnesses, I want to include in the 
record, a statement from Senator Joseph Lieberman on the 
Naugatuck River Valley National Heritage Area Study Act. We 
will do that without objection.
    Congressman Sablan from the Mariana Islands has submitted a 
letter to the committee, and we will, with unanimous consent, 
also see that that is included in the record.
    So we have been joined by the Honorable Michael J. Reagan, 
Supervisor of Solano County, California and by Ms. Ann Harris, 
Executive Director of the Essex National Heritage Commission 
from Salem, Massachusetts.
    Mr. Reagan, if you want to start. Generally 5 minutes is 
what we appropriate. We look forward to your statement.

    STATEMENT OF MICHAEL J. REAGAN, MEMBER OF THE BOARD OF 
                 SUPERVISORS, SOLANO COUNTY, CA

    Mr. Reagan. Thank you, Chairman Udall.
    It is a pleasure to come here and testify. When I used to 
be an Air Force Legislative Liaison, I used to skull others to 
come over and do this. This is the first time I have had the 
opportunity to do it myself.
    I am Mike Reagan, a member of the Board of Supervisors, 
Solano County and today, we were asked by Senator Feinstein to 
testify in support S. 29 to establish the Sacrament-San Joaquin 
Delta Heritage Area. I will abridge my comments for the sake of 
the time, and I have submitted my entire remarks for the 
record.
    Senator Udall. Without objection.
    Mr. Reagan. Thank you.
    The Sacramento-San Joaquin Delta is a unique and vital 
place both within my county and the State of California. It 
includes portions of the counties of Solano, Sacramento, Yolo, 
San Joaquin, and Contra Costa in northern California. We 
believe it is highly appropriate and justified that we 
collectively recognize what a treasure it is, and do everything 
we can to preserve and enhance its future.
    Senator Feinstein's Sacramento-San Joaquin Delta National 
Heritage Area Establishment Act, S. 29, is a strong step in 
this direction, and for this reason, Solano County is pleased 
to support this important bill.
    I thought I would cover a little bit about why we think 
this area merits the designation. California's delta, there is 
an amazing natural system and a major contributor to 
California's vitality and its evolution.
    The vast size, we are talking about an area over 700,000 
acres. Unique shape, it is an inverted delta, one of the only 
ones in the world where the major river systems come in to a 
delta and then it passes through a series of inland, a coastal 
range of mountains through a series of bays and out into the 
ocean. So the delta is actually pointed inland.
    The geographic location has contributed to its importance 
in an ecological and a cultural landscape. The Delta is 
essentially the center of California, from which the rivers and 
streams flowing hundreds of miles from the north, south, east, 
and west all drain through the Delta and into the Carquinez 
Strait, and then into the San Francisco Bay.
    The Bay Delta region is the largest estuary in the West 
Coast of the Americas, North and South. It is the second 
largest in the United States after the Chesapeake Bay.
    This region is home to more than 3.5 million residents. It 
serves a $36 billion agricultural industry, mostly comprised of 
family farms, and supplies water through Federal and State 
water projects to more than 23 million Californians and another 
3 million acres of agricultural land.
    Historically, the Delta has a multicultural landscape with 
Native American Indian settlements, and a lot of history dating 
from California's Gold Rush. Most of the towns and cities were 
formed at that time.
    There are a number of minority groups including Chinese, 
Japanese, Filipinos, East Indians, Portuguese, and Italians 
established communities in the Delta and have made significant 
contributions in shaping the Delta into the vibrant 
agricultural landscape that it is today.
    The high fertility of the Delta's soils and an abundant, 
high quality water supply has enabled the Delta to be an 
extremely productive agricultural region since reclamation. 
There have been, and are, a large variety of specialty crops 
grown in the Delta. I will just name maybe a dozen of them: 
peaches, plums, cherries, tomatoes, onions, peas, celery, 
spinach, melons, wine grapes, olives, blueberries, pears, sugar 
beets, seed crops, more. We have a lot of cattle and sheep also 
raised in the area. Crops from the Delta have been shipped 
throughout the Nation as well as to other parts of the world 
for quite some time.
    In addition, the rare Mediterranean climate of the Delta 
supports unique plant and animal species, and provides habitat 
for more than 750 species of plants and wildlife, and 55 
species of fish.
    The State of California's legislature has long recognized 
the importance and significance of the Sacramento-San Joaquin 
Delta, and passed the Delta Protection Act of 1992, which is a 
unique approach to large scale protection of valuable multi-
resource landscape, and led to the establishment of the Delta 
Protection Commission that you spoke about earlier, who you 
heard the National Park Service speak about earlier.
    That State Commission is governed by 15 members who have 
representatives from cities, counties, special districts, and 
different agencies of the State of California. I am a member of 
that Commission. I am also serving, currently, as the Vice 
Chair. I am not here testifying for the Commission because we 
have not yet had a chance to review the National Park Service's 
comments, which I understand are generally favorable 
suggestions to strengthen the application. Our staff is 
readying an amendment that we will adopt here within the 
quarter.
    I do want to indicate that the entire State's level of 
involvement and commitment to keeping the Delta as a unique and 
viable region in California is very high.
    It is also worth noting that just getting into my county, 
within the proposed national heritage area in this legislation 
is the 116,000 acre Suisun Marsh which is the largest 
contiguous brackish water marsh remaining on the West Coast of 
North America. We have been maintaining that for over 100 
years.
    The Marsh is carefully managed for habitat, and it includes 
considerable threatened and endangered species, and duck 
habitat, a number of hunting clubs, and a unique herd of 
introduced tule elk reintroduced into the area. We have also 
included within the proposed boundaries of the National 
Heritage Area, the main waterway for transportation and 
commerce into this part of the California, the Carquinez 
Straits, which shares its rich history with the Delta.
    Agricultural goods produced in the Delta were processed and 
stored in grain warehouses and mills that basically supplied 
the Gold Rush and California's development since.
    It is home to numerous fishing fleets and canning 
facilities, which supported the Delta's fishing industry. Today 
the Strait continues to support a unique and diverse Bay Delta 
ecosystem by providing passage for native fish species and 
thousands of migratory birds traveling along the Pacific 
flyway, as well as ships traveling to and from international 
ports into the 2 inland seaports that are located in the city 
of Stockton and the city of West Sacramento.
    A review of the description of a national heritage area 
reveals how clearly the Sacramento-San Joaquin Delta Area fits 
under the description and criteria necessary for this national 
heritage designation. It embraces a defined place where, quote, 
``Natural, cultural, historic, and recreational resources 
combine to form cohesive, nationally distinctive landscape 
arising from patterns of human activity shaped by geography. 
These areas tell nationally important stories about our nation 
and are representative of the national experience through both 
physical features that remain and the traditions that have 
evolved within them,'' end quote. The Delta of today contains 
all of the requisite elements and the landscape tells the 
story.
    When asked to travel down the spine of the Delta through 
legacy communities such Hood, Courland, and Clarksburg, and 
Walnut Grove to get a sense of the meshing of culture and 
natural landscape, the story just unfolds before your eyes as 
you are going through it.
    The establishment of a national heritage area in this Delta 
would further our efforts to protect and restore the valuable 
natural, esthetic, cultural, recreational, and historic 
attributes in the Delta including recognition that the Delta, 
as a place, merits national recognition.
    I would also like to thank Senator Feinstein for 
introducing and Senator Boxer for co-sponsoring S. 29. 
Additionally, I would also like to extend my appreciation to 
the House members who introduced companions Delta NHA 
designation legislation including Representatives John 
Garamendi, George Miller, Doris Matsui, Jerry McNerney, and 
Mike Thompson. We in the Delta are grateful for their efforts 
and we look optimistically for a successful conclusion to this 
process after the NPS has had a chance to review the completed 
application and come back to this committee in the future.
    Thank you.
    [The prepared statement of Mr. Reagan follows:]

    Prepared Statement of Michael J. Reagan, Member of the Board of 
                Supervisors, Solano County, CA, on S. 29
    Good afternoon, Chairman Bingaman, and members of the committee. My 
name is Michael J. Reagan and I am a member of the Board of Supervisors 
of Solano County, California. Thank you for giving me the opportunity 
to testify today in support of S. 29, to establish the Sacramento-San 
Joaquin Delta Heritage area.
    We have long recognized the Delta as a unique and vital place both 
within my County and to the State of California. It also extends over 
portions of the Counties of Sacramento, Yolo, San Joaquin and Contra 
Costa, in Northern California. It is highly appropriate and justified 
that we recognize what a treasure it is and do everything we can to 
preserve and enhance its future. Senator Feinstein's Sacramento-San 
Joaquin Delta National Heritage Area Establishment Act (S. 29) is a 
strong step in this direction, and for this reason Solano County is 
pleased to support this important bill.
    My supervisorial district includes part of Solano County's portion 
of the Sacramento-San Joaquin Delta. I have actively engaged in Delta 
related activities during my 8 years on the Board of Supervisors and 
for several years prior to that as a Senior Policy Advisor to a State 
Senator representing the area. I am currently the County's 
representative on the State's Delta Protection Commission, serving as 
Vice Chair. I also serve, on behalf of the County, on the Delta County 
Coalition (DCC). The DCC is a coalition of five counties: Sacramento, 
Yolo, San Joaquin, Solano and Contra Costa, cooperatively representing 
our collective local interests in discussions with the State and the 
Department of Interior officials.
The Delta, a Rare and Unique Place
    The Delta is an amazing natural system and a major contributor to 
California's vitality and evolution over many decades. The vast size, 
unique shape, and geographical location of the Delta have contributed 
to its importance as an ecological and cultural landscape. It is a rare 
inland/inverse Delta, at the confluence of five rivers, Sacramento, San 
Joaquin, Mokelumne, Cosumnes, and Calaveras, through which waters flow 
from a vast watershed covering about 40% of California's land area. The 
impressive Sacramento-San Joaquin Delta is essentially the center of 
California from which rivers and streams flowing hundreds of miles from 
the north, south, east and west . . . from the far reaches of the 
Cascades and Sierra Nevada to the Coast Range . . . ALL drain through 
the Delta and Suisun Marsh to the Carquinez Strait and into the San 
Francisco Bay.
    The sheer size and distinctive shape of the Delta's landscape is 
unmatched anywhere in the world. The Delta's flat landscape includes 
about 1,000 miles of channels and levees protecting islands, and is the 
only inland delta in the United States. The Bay-Delta region is the 
largest estuary on the West Coast of the Americas, and the second 
largest in the United States after the Chesapeake Bay.
    Today it is home to more than 3.5 million residents, serves a $36 
billion agricultural industry comprised of family farms and supplies 
water to more than 23 million Californians and 3 million acres of 
agricultural land. The entire area is supported by more than 1000+ 
miles of levees protecting 60 distinct islands.
    Historically, the Delta has a multi-cultural landscape with Native 
American Indian settlements and history from the California gold rush 
era. A number of minority groups including Chinese, Japanese, 
Filipinos, East Indians, Portuguese, and Italians have established 
communities in the Delta and made significant contributions in shaping 
the Delta into the agricultural landscape that it is today.
    The high fertility of the Delta's peat soils, the high water table, 
and an available water supply, has enabled the Delta to be an extremely 
productive agricultural region since reclamation. There have been and 
are a variety of crops grown in the Delta including peaches, plums, 
cherries, tomatoes, onions, peas, celery, spinach, melons, wine grapes, 
olives, blueberries, pears, sugar beets, seed crops and more. Crops 
from the Delta have been shipped throughout the nation, as well as 
other parts of the world for quite some time.
    In addition, the rare Mediterranean climate of the Delta supports 
unique plant and animal species and provides habitat for more than 750 
species of plants and wildlife and 55 species of fish.
State Legislative Support for the Sacramento-San Joaquin Delta
    The State of California Legislature has long recognized the 
importance and significance of the Sacramento-San Joaquin Delta and 
passed the Delta Protection Act of 1992 delineating a Primary and a 
Secondary Zone of the Delta which consist of approximately 500,000 
acres and 238,000 acres, respectively. The Primary Zone is the area 
protected by State law from urban development, and includes waterways, 
levees, and farmed lands, extending over portions of five counties: 
Solano, Yolo, Sacramento, San Joaquin and Contra Costa. The Delta 
Protection Act is a unique approach to large scale protection of a 
valuable multi-resource landscape and lead to the establishment of the 
Delta Protection Commission.
    The Delta Protection Commission is governed by 15 members, with 
representation from cities,, counties, special districts, and the state 
of California. While I am a member of the Delta Protection Commission, 
I am not here testifying on their behalf I do want to indicate the 
State's level of involvement and commitment to keeping the Delta a 
unique and viable region in California.
    Specifically the 15 members of the delta Protection Commission are 
as follows:

Contra Costa County Board of Supervisors
Central Delta Reclamation Districts
Sacramento County Board of Supervisors
North Delta Reclamation Districts
San Joaquin County Board of Supervisors
South Delta Reclamation Districts
Solano County Board of Supervisors
Business, Transportation and Housing Agency
Yolo County Board of Supervisors
Department of Food and Agriculture
Cities of Contra Costa and Solano Counties
Natural Resources Agency
Cities of Sacramento and Yolo Counties
State Lands Commission
Cities of San Joaquin County

    In the fall of 2009, the California State Legislature passed a 
comprehensive package reforming governance of the Sacramento-San 
Joaquin Delta and related aspects of statewide water management. In 
Section 85301 of Senate Bill X7-1 (SBX7-1), the Legislature charged the 
Delta Protection Commission (DPC) with developing:

          A proposal to protect, enhance, and sustain the unique 
        cultural, historical, recreational, agricultural, and economic 
        values of the Delta as an evolving place . . . The Commission 
        shall include in the proposal a plan to establish state and 
        federal designation of the Delta as a place of special 
        significance, which may include application for a federal 
        designation of the Delta as a National Heritage Area.

    The Sacramento-San Joaquin Delta is both a hard working landscape 
and a place of great environmental sensitivity. It features highly 
productive farmlands, unique historical communities of diverse cultural 
roots, urban centers, miles of serene and wandering waterways, a 
complex levee and flood control system, key water distribution 
infrastructure both large and small, a myriad of fish, bird, animal and 
plant species along with unique habitats, traditional drawbridges, 
distinctive architecture and beautiful vista. It is truly the 
convergence zone of California's majestic mountains, sea and valley 
areas; a land where you can be in an urban center one moment and 10 
minutes away feel like you are reconnected to nature. It is difficult 
to comprehend the Delta landscape in one drive through. I have been in 
the region for years and continue to discover new opportunities and 
adventures in the Delta.
Why should the Delta be a National Heritage Area?
    Why is this important to the State and the five counties covered by 
the proposed National Heritage Area? The Sacramento-San Joaquin Delta 
is in the heart of one of the most productive agricultural areas. The 
climate and soils of our area allow for growth of many crop varieties 
over a long growing season. The county's agricultural sector is a vital 
part of the county's overall economic base. Many of our communities 
directly serve the agricultural activities and are critical to their 
existence and agriculture is essential to Solano County.
    It is also worth noting that within Solano County and with the 
proposed National Heritage area is the 116,000 acre Suisun Marsh, the 
largest contiguous brackish water marsh remaining on the west coast of 
North America. The marsh is carefully managed for habitat, and includes 
considerable bird and duck habitat, a number of hunting clubs, and a 
unique herd of introduced Tule Elk and a number of protected species.
    Also included within the proposed boundary area under consideration 
is the Carquinez Strait. A main waterway for transportation and 
commerce, the Carquinez Strait shares a rich history with the Delta. 
Agricultural goods produced in the Delta were processed and stored in 
grain warehouses and mills that once flourished on the shores of the 
strait. It was also home to numerous fishing fleets and canning 
facilities which supported the Delta's fishing industry. Today the 
Strait continues to support a unique and diverse Bay/Delta ecosystem by 
providing passage for native fish species and thousands of migratory 
birds traveling along the Pacific Flyway.
    There is a strong interconnectedness between our agricultural 
economy and other economic sectors. We believe the current efforts of 
the delta counties to support agritourism initiatives to further 
showcase the Delta's agricultural and wildlife friendly farming 
practices are demonstrating how Delta farmland and habitat can coexist.
    As important as the Delta is, it is subject to many stressors, 
including environmental, as well as lying at the center of California's 
water resource challenges. There is much debate on how to restore the 
Delta's health into the future. These deliberations will be carried out 
over time and accompanied by volumes of analysis. How the communities 
and ecosystem of the Delta will evolve in the future will depend on a 
strong National and State commitment to the needed investment and 
reinvestment. That said, we believe the legislation you are considering 
(S 29) transcends that debate and represents a clear and constructive 
way to do something positive for the Delta, and within a reasonable 
time frame. We are hopeful that establishment of a National Heritage 
Area will provide further enlightenment and recognition of the Delta as 
a unique and valued place; and that studies provide a better 
understanding of its socio-economic complexity; and can serve as a 
catalyst for investing in its future.
    A review of the description of a National Heritage Area reveals how 
clearly the Sacramento-San Joaquin Delta area fits under the 
description and criteria necessary for a NHA designation. The 
designation of a National Heritage Area embraces a defined place where:

          natural, cultural, historic and recreational resources 
        combine to form cohesive, nationally distinctive landscape 
        arising from patterns of human activity shaped by geography. 
        These areas tell nationally important stories about our nation 
        and are representative of the national experience through both 
        physical features that remain and the traditions that have 
        evolved within them.

    The Delta of today contains the requisite elements and the 
landscape tells the story. One only has to travel down the spine of the 
Delta through legacy communities such as Hood, Courtland , Clarksburg, 
and Walnut Grove to get a sense of the meshing of culture and natural 
landscape. The story unfolds before your eyes.
    We fully recognize the potential benefits of a National Heritage 
Area designation. We acknowledge the fact that it has a local 
orientation and allows the various local entities to retain land use 
jurisdiction. Additionally, we like that it reinforces the regions 
identity under a unifying theme while respecting the variables that 
exist between various areas of the Delta. Even the ability to use the 
National Park Service Arrowhead symbol has a symbolic significance and 
value.
    We recognize that funding associated with this designation would be 
limited. Nonetheless, we do appreciate the immense value of federal 
investment as we look for ``seed'' money and to leverage opportunities. 
We truly believe that if we target those dollars in a strategic way we 
can generate many multipliers that will benefit the region. The 
educational opportunities alone could provide many returns to our 
efforts.
    The establishment of a Sacramento-San Joaquin Delta National 
Heritage Area would further efforts to protect, and restore, the 
valuable natural, aesthetic, cultural, and historic attributes in the 
Delta, including recognition that the Delta as a place merits national 
recognition.
Status of Feasibility Study
    As the committee members are aware, there has been a National 
Heritage Area designation feasibility study, funded in part by grants 
from the California Endowed Fund of the National Trust for Historic 
Preservation and the California State Parks Foundation. In January of 
this year a draft feasibility study was released by the California 
Delta Protection Commission for a five week public review after which a 
revised draft was transmitted to the National Parks Service for their 
review. The California Delta Protection Commission has received their 
response and is incorporating their suggestions. We anticipate formal 
adoption of the revised Study by the Commission within this quarter. 
Upon acceptance of this feasibility study by the Delta Protection 
Commission, it will be submitted to our Congressional Representatives 
for presentation to Congress for consideration.
    Furthermore as part of the continuing local efforts on behalf of 
the Sacramento-San Joaquin Delta region numerous letters of support and 
partnership commitment were acquired from a wide variety of 
organizations including: historical societies, chambers of commerce, 
county boards of supervisors, recreation groups, historic preservation 
organizations, city councils, and more. There is a desire and 
willingness for us to work as partners in the region.
    In closing, the merits of a Sacramento-San Joaquin NHA are clear. 
NHA designation would bring significant added value to our collective 
efforts. Recognition and validation of the significance of the Delta's 
nationally through the NHA designation will bring focus and leadership 
to new partnerships and collaborations that would otherwise not take 
place. On behalf of the Solano County Board of Supervisors I come as 
their representative today share that we strongly support S.29 and urge 
approval of this legislation.
    In concluding, I would like to thank the Chairman and other members 
of the committee for conducting this important hearing. I also would 
like to thank Senator Feinstein for introducing and Senator Boxer for 
cosponsoring S. 29. Additionally, I would also like to extend my 
appreciation to the House members who introduced companion Delta NHA 
designation legislation, including Representatives John Garamendi, 
George Miller, Doris Matsui, Jerry McNerney, and Mike Thompson. We in 
the Delta are grateful for their efforts and we look optimistically for 
a successful conclusion to this process.
    Thank you. Have a good afternoon.

    Senator Udall. Thank you, Supervisor Reagan.
    Miss Harris, I look forward to hearing your testimony.

    STATEMENT OF ANNIE C. HARRIS, EXECUTIVE DIRECTOR, ESSEX 
            NATIONAL HERITAGE COMMISSION, SALEM, MA

    Ms. Harris. Thank you, Mr. Chairman. Thank you for this 
opportunity to testify.
    Senator Udall. I think you may need to turn on your mic.
    Ms. Harris. Sorry. Thank you for this opportunity to 
testify. My name is Annie Harris, and I am the Executive 
Director of the Essex National Heritage Commission. I have 
submitted my full, written testimony today, but I think you 
will be happy to know, I will just be summarizing it.
    Many of my remarks today also pertain to the other National 
Heritage Areas whose bills are before you today and looking for 
reauthorization. They have asked me to request that the record 
be kept open so they can submit their written testimony too.
    Senator Udall. Without objection, we will do so.
    Ms. Harris. Thank you.
    During these challenging economic times, every program that 
receives Federal funds needs to justify its worth, and must 
deliver substantial public benefits. I am proud to say that the 
national heritage areas do this. Since our designation in 1996, 
Essex Heritage, along with the other heritage areas, have 
proven that the National Heritage Area Program is one of the 
most effective and efficient of the external programs in the 
National Park System.
    At Essex Heritage, we work to conserve, promote, and 
develop our region's nationally significant resources using 
these heritage assets to revitalize our communities, and 
strengthen our economy. We promote cultural tourism sites that 
support the third largest job producing industry in 
Massachusetts. We provide grants in conservation and 
preservation that create jobs in construction and tourism. We 
create summer jobs for urban youth and much more.
    From our experience, we know that jobs and heritage 
development go hand in hand. Strong economies occur where there 
is deep community pride and dedicated stewardship.
    In the last 14\1/2\ years, Essex Heritage has achieved a 
great deal, but there is still much more to be done. Let me 
cite 3 examples of our accomplishments and the work that lies 
ahead.
    One, creating regional trails takes decades. In Essex, the 
idea of our regional trail network began about 45 years ago, 
but it took the unique management and partnership skills of 
Essex Heritage to secure the rights of way and to see that some 
of the first miles of trails were built.
    With the growing need for safe roads to schools and youth 
obesity on the rise, these trails are much more than just 
recreational routes. When this trail network is complete, there 
will be 58 miles of safe pedestrian and bike access connecting 
one-half of our region's communities. What is most important is 
that these trails will link many of our town centers and our 
schools and our libraries, not just our parks and recreation 
areas, but our work is not done here.
    Two, our Summer Youth Job Corps with the National Park 
Service has been highly successful, but for every young person 
hired, there are 10 more looking for work. We employ the 
disadvantaged urban youth who live near our parks, providing 
them with job skills and counseling, along with their summer 
work. When a young person such as Daniel Mondragon says, and I 
quote, ``This program has taught me responsibility, 
appreciation for the city and its history, and has opened new 
doors for my future,'' end of quote. How can we afford to let 
this program go?
    Three, the Essex Coastal Scenic Byway is a strategy for 
improving the economies of the region's underserved urban 
communities, as well as our affluent towns. Under the 
leadership of Essex Heritage, the recently completed Byway Plan 
is setting the course for new ways in which the 13 coastal 
communities can collaborate for their mutual benefit. The way 
is forward, but we need to continue.
    The work of the national heritage areas is important not 
only for our regions, but for the National Park Service. In my 
written testimony, I cite numerous National Park reports that 
make this case.
    But the support that I think I most appreciate is the 
comments of Director Jon Jarvis who, on numerous occasions, has 
said that he is a diehard fan of the National Heritage Areas 
because the Heritage Areas, and I quote, ``Offer an alternative 
model, more versatile, and inclusive, a new iteration of the 
classic model of parks.''
    In closing, national heritage areas have proven to be one 
of the most effective ways for the National Park Service to 
engage with local citizens, and the conservation of nationally 
significant places. This work happens without the Park Service 
having to bear all the costs of owning, maintaining, and 
managing these places.
    Also, national heritage areas involve people where they 
live in long term, multi-partnership, large landscape, and 
community conservation projects. The residents and businesses 
do not have to vacate these landscapes because heritage areas 
do not require public ownership for their success.
    In summary, the value of the national heritage areas lies 
in their ability to amplify their limited Federal funding, to 
leverage the public investment with private funds, to promote 
the principles of conservation and preservation from the 
grassroots up, to create jobs and revitalize communities, and 
to assist the National Park Service in meeting its mission.
    So thank you, Mr. Chairman, for this opportunity. If you 
come to Blackstone, we are only about 1 hour north, come visit 
us.
    [The prepared statement of Ms. Harris follows:]

   Prepared Statement of Annie C. Harris, Executive Director, Essex 
                 National Heritage Commission, Salem MA
    Mr. Chairman and distinguished members of the subcommittee, thank 
you for the opportunity to testifytoday regarding S. 1198, a bill to 
reauthorize the Essex National Heritage Area. Many of my comments also 
pertain to two other bills before you today S. 2131 to reauthorize the 
Rivers of Steel National Heritage Area, the Lackawanna Valley National 
Heritage Area and the Delaware and Lehigh National Heritage Corridor 
and S. 2133 to reauthorize the America's Agricultural Heritage 
Partnership in the State of Iowa. I have been asked to speak on their 
behalf and also to request that the record be held open so that these 
National Heritage Areas may be allowed to submit written testimony as 
well.
    My name is Annie Harris, and I am the Executive Director of the 
Essex National Heritage Commission. The Commission is the regional non-
profit organization that manages the Essex National Heritage Area, a 
500 square mile region located north of Boston, rich in in historic, 
cultural and natural resources. I also serve, in a volunteer capacity, 
as the Vice President of the Alliance of National Heritage Areas.
    Mr. Chairman and members of the subcommittee, I would like to speak 
to you about the importance of reauthorizing the Essex National 
Heritage Area, and the other National Heritage Areas whose bills are 
before you today, in advance of our September 30, 2012 sunsets.
    During these challenging economic times, every program that 
receives federal funding needs to justify its worth and deliver 
substantial benefits to the American public. The National Heritage 
Areas do this. Since our designation by Congress in 1996, the Essex 
National Heritage Area along with Rivers of Steel, Delaware & Lehigh 
Canal, Lackawanna Valley and America's Agricultural Heritage have 
proven that the National Heritage Area program is one of the most 
effective and efficient ``external'' programs in the National Park 
System.
    In the Essex National Heritage Area, our work is to conserve, 
promote and develop the nationally significant stories and resources of 
the region. From the infamous Salem Witch Trials of 1692 to the 
``Perfect'' storm of 1991, we have a robust network of public and 
private partnerships that rely on the heritage resources and stories to 
revitalize our communities and strengthen our economy. We promote 
cultural tourism sites and programs, supporting the third largest job 
producing industry in Massachusetts. We provide grants in conservation 
and resource stewardship that not only preserve the historic fabric of 
our region, but also create jobs in construction and tourism. 
Currently, it is estimated that we have created 1,488 jobs through our 
grants programs. For the past three summers, we have provided summer 
jobs for disadvantaged youth at two park sites. To date, 56 youth jobs 
have been created. We develop trails and bikeways for recreation and 
healthy living. Fourteen miles of trail were recently completed and are 
now providing safe recreation opportunities. We create regional events 
that build community pride and last year alone we assisted in 
attracting 1.3 million visitors to the region. We know that jobs and 
heritage development go hand in hand. Strong economies occur in places 
where there is deep community pride and dedicated stewardship.
    I am here today to request the reauthorization of Essex Heritage 
and my fellow National Heritage Areas in Pennsylvania and Iowa. 
Although, I have visited my companion areas and have been very 
impressed with their work, I speak now only on the accomplishments of 
Essex Heritage and the work we have before us. I respectfully ask this 
committee to permit the other Areas to submit their own testimony with 
their accomplishments.
    In the last fourteen and a half years, Essex Heritage has achieved 
a great deal but there is still much more to do. Let me cite some 
examples of our accomplishments and the work that lies ahead:

  <bullet> Trail Development--Creating regional trails takes decades. 
        In the case of the Essex Heritage Border-to-Boston Rail Trail 
        and the adjacent Coastal Trail, the ideas for these trails 
        began 45 years ago, but it took the unique management and 
        partnership skills of Essex Heritage to secure the rights-of-
        way and see that the first miles of trail were built. With the 
        growing need for safe roads to schools and youth obesity 
        rising, these trail are much more than recreational routes. 
        When the Coastal Trail and the Border to Boston Rail Trail are 
        complete, there will be 58 miles of trails connecting half of 
        the Area's communities, providing safe pedestrian and bike 
        access to town centers, libraries and schools as well as parks 
        and natural recreation areas. This goal is within reach 
        provided the coordination and guidance provided by the Heritage 
        Area continues.
  <bullet> Youth Job Corps--Our summer youth corps with the National 
        Park Service has been highly successful but for every young 
        person whom we have hired, there are 10 more still looking for 
        work. We have made a point to hire the disadvantaged urban 
        youth who live near our parks, providing them with jobs skills 
        and career counseling along with their summer work. When a 
        young person such as Daniel Mondragon says, ``This program has 
        taught me responsibility, appreciation for the city and its 
        history, and opened new doors for my future,'' how can any of 
        us afford to let this program disappear?
  <bullet> Stimulating the local economy--The Essex Coastal Scenic 
        Byway is a strategy to highlight the historic, cultural and 
        natural assets along the region's coastline for the benefit of 
        improving the local economies in the Area's underserved urban 
        communities as well as its affluent towns. Under the leadership 
        of Essex Heritage, the recently completed plan sets a course 
        for new ways in which the 13 coastal communities can 
        collaborate for their mutual benefit. The promise is clear, but 
        for success, Essex Heritage needs to continue.

    Mr. Chairman and members of the subcommittee, as I testify for our 
reauthorization, you may be questioning why we deserve your attention 
when there are so many other needs especially within the National Park 
Service. Therefore, I would like to direct you to what the National 
Park Service, the National Park System Advisory Board and the National 
Parks Second Century Commission say about the National Heritage Areas 
and our importance to the National Park Service.

  <bullet> In 2006, Douglas P. Wheeler, then Chairman of the National 
        Park System Advisory Board, wrote: ``National Heritage Areas 
        represent a significant advance in conservation and historic 
        preservation: large-scale, community-centered initiatives 
        collaborating across political jurisdictions to protect 
        nationally-important landscapes and living cultures.'' 
        (Charting a Future for the National Heritage Areas; Foreword).
  <bullet> In 2009 the Second Century Commission Report--Advancing the 
        National Park Idea--states that ``National Heritage Areas 
        provide a collaborative model that fits well within a large-
        landscape-scale preservation and conservation framework. 
        Recognizing them as long-term assets to the national park 
        system, we recommend that Congress pass authorizing legislation 
        creating a system of National Heritage Areas providing for 
        permanent funding and directing full program support from the 
        National Park Service to designated areas.'' (Advancing the 
        National Park Idea ; page 23).
  <bullet> In April 2010, President Obama launched America's Great 
        Outdoors and in the report issued in February 2011--America's 
        Great Outdoors: A Promise to Future Generations--ten major 
        priorities were identified from ``providing quality jobs, 
        career paths and service opportunities'' to ``making the 
        federal government a more effective conservation partner.'' In 
        the goals and recommendations that follow on from these 
        priorities, Essex Heritage has identified 30 areas of our work 
        which directly support the AGO (Essex Heritage and its 
        Relevancy to America's Great Outdoors, 2011). I am confident 
        that my colleagues' work in their National Heritage Areas also 
        supports and enhances the priorities of the AGO.
  <bullet> In August 2011, the National Park Service Call to Action: 
        Preparing for a Second Century of Stewardship and Engagement, 
        states that the ``parks'' described in the report ``connote not 
        only the 394 units of the National Park System but national 
        heritage areas . . . as well.'' (Call to Action; page 6)

    Most recently, in January 2012, the National Park Service's 
Northeast Region published the Report of Impacts and Operational 
Strategy for Sunsetting National Heritage Areas. The report discusses 
the value that the National Heritage Areas provide to the National Park 
Service and lists five major impacts on the National Park Service if 
the Areas sunset (Report of Impacts; page 3)

          1. NPS parks located within a heritage area will lose the 
        opportunities and resources that enlarge understanding of the 
        park resources and themes through the NHA.
          2. NPS identity is key to attracting and keeping other 
        partners engaged in NHAs. The NPS will lose the leverage that 
        its contributions to NHAs, proportionately modest but essential 
        to operational support, create.
          3. NHAs act as conveners for many other partners within the 
        region. The NPS parks and programs would have difficulty 
        replacing this partnership facilitation.
          4. NHAs will have to curtail programs and events that 
        highlight the distinctive cultural and natural assets of the 
        region for lack of funding once NPS leverage ends.
          5. NHAs bring numerous organizations and volunteers to the 
        NPS mission within the communities they serve. The NPS will 
        lose these connections.

    The NPS NER report further states that the ``National Heritage 
Areas have an impressive body of accomplishment in conservation, 
cultural and educational preservation and programming, economic 
development, recreation, and heritage tourism. They have provided the 
NPS regions the means by which to organize diverse communities around 
shared history and culture.'' It then refers to Director Jon Jarvis 
conversation with the directors of the National Heritage Areas in 
February 2011, when he described the National Heritage Areas as ``an 
alternate model, more versatile and inclusive, a new iteration of the 
classic model of parks.'' (Report of Impacts: page 2)
    National Heritage Areas have proven to be one of the most effective 
ways for the National Park Service to engage and partner with local 
citizens of every background in the preservation and interpretation of 
their nationally important and significant resources--and this work 
happens without the National Park Service having to bear all the costs 
of owning, maintaining and managing these places. National Heritage 
Areas involve people where they live in long-term, multi-partnership, 
large landscape and community conservation projects without requiring 
that the residents and businesses vacate the area because National 
Heritage Areas do not require public ownership for their success. The 
value of the National Heritage Areas lies in their ability:

  <bullet> To amplify their limited annual federal funds with matching 
        dollars many times over;
  <bullet> To leverage the public investment with private funding, 
        volunteer time, in-kind donations, and local and state 
        contributions;
  <bullet> To promote the principles of conservation and preservation 
        from the grassroots and in harmony with the goals of the 
        National Park Service;
  <bullet> To create jobs and revitalize communities using the Area's 
        indigenous resources;
  <bullet> To assist the National Park Service in meeting its mission 
        by proving a bridge to local communities, underserved 
        populations, youth and diversity.

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to testify before you today, and I would be happy to answer 
any questions you may have.

    Senator Udall. Thank you. Miss Harris, thank you for your 
compelling summary. You would make Jon Jarvis proud. You also 
helped educate the committee, and those who are here today, to 
listen as to the value, and the purpose, and the structure of 
the national heritage area approach.
    Let me, if I might, I have one question for each of you. I 
will start with you, Miss Harris, if that is alright.
    One of the fundamental policy issues that we need to 
resolve is whether a national heritage area should be given 
additional authorization, receive Federal funds after its 
initial authorization has expired. You have heard me talk about 
this with the previous testifier.
    What is your best argument why an additional authorization 
is good public policy?
    Ms. Harris. First of all, I think there are long term 
investments, and to reach the full benefit of the Federal 
investment, they need to be seen that way. Certainly, when we 
went into this project, the Greater Heritage Area, we knew 
there was a 15-year sunset. Actually, we did not know going in, 
but then we realized when the legislation was passed. But also, 
we expected if we did well, we would have a shot at being able 
to be reauthorized because these are long term projects.
    In fact, Congress did pass a bill a few years ago that 
asked the Park Service to evaluate us, and we have been 
evaluated, and I think you will be very interested in the 
evaluations when the Park Service does submit them to you.
    Also, all of our work is done in public-private 
partnerships, and the Park Service is an important partner with 
us. We are able to take the Federal funds and leverage them, 
and usually the match--we are required to come up with a 
match--usually our match is much better than 1 to 1. That 
match, we also can leverage with additional funds, both public, 
State and local funds, and also a lot of private funds. But we 
need that structure of the partnership. We need all partners to 
be at the table.
    Last, to be perfectly frank, most philanthropy, most other 
sources of funds, public and private funds, only go into 
projects, they are really project-specific, the funding from 
the Park Service provides a base. That is all it provides. It 
provides a base from which we can pay our rent and provide some 
staff support. From that, we are able to then apply for grants, 
leverage, and do projects. But it is important, what we call, 
seed money, to seeding all of the other public and private 
investment that we get, which is considerable.
    Senator Udall. Thank you for that and I think you have 
covered the landscape of the waterfront, whatever image you 
want to use.
    But if you have additional thoughts on that as well, the 
committee would certainly welcome those. Your passion is 
apparent, and I very much look forward to keeping my commitment 
to Senator Kerry and Senator Reed, and most importantly to you, 
to come up and see the Blackstone.
    Ms. Harris. Am I allowed to say a few more words?
    Senator Udall. Sure, please, yes.
    Ms. Harris. I also serve on a subcommittee to the National 
Park Advisory Board, and we are looking at the future of the 
Park Service for the next 100 years.
    Senator Udall. Yes.
    Ms. Harris. I must say, I think very strongly that the 
future for the Park Service is going to be in partnerships. I 
think, you know, there is a desire to have the Park Service 
play a much larger role in this country in terms of education, 
and interpretation, and conservation, and I think it can play 
that role.
    But it is going to have to, and need to, and wants to play 
it in partnership because we cannot have everything owned by 
the Federal Government. We cannot maintain, everything cannot 
be within boundaries of parks. They really need these 
partnerships and the heritage areas are a very, very effective 
model. You have it in place. It is extremely important to keep 
it in place, and to move forward.
    Also, second point, there is an excellent bill to create a 
national heritage area program within the Park Service. It has 
been introduced. It was introduced last week in the House. We 
all hope that it will pass this session or next.
    Senator Udall. Thank you for those additional comments. We 
have held hearings on the 100 year anniversary of the National 
Parks and the National Park system. I am sure you have studied 
what has been said. You have studied the reports that have been 
put forth that offer vision, and excitement, and passion.
    Ms. Harris. Yes, yes.
    Senator Udall. I think, a way in which to further connect 
Americans to the parks, and the national heritage areas are 
key. So thank you for----
    Ms. Harris. Thank you.
    Senator Udall. The work you do and for the way in which you 
present the potential here, and the opportunities.
    Mr. Reagan, I have a question for you.
    Mr. Reagan. Sure.
    Senator Udall. It is my understanding that local management 
entities for most national heritage areas are typically 
nonprofit organizations with experiences in coordinating and 
promoting the heritage of the region through partnerships with 
landowners and local businesses.
    Your proposed area is somewhat different, at least in my 
analysis with a Government commission managing the heritage 
area and with most of the commission members being elected or 
appointed State or county government officials; nothing against 
elected officials, by the way, county, or Federal, or 
otherwise.
    In your opinion, will the Delta Protection Commission have 
enough time, resources, and expertise available to effectively 
administer the heritage area given the competing 
responsibilities all the commission members have?
    Mr. Reagan. It has a staff.
    Senator Udall. I'm sorry?
    Mr. Reagan. The Commission has a staff.
    Senator Udall. A staff. Please elaborate.
    Mr. Reagan. There is actually a three-headed governance 
entity that the State has established there: a stewardship 
council, a protection commission, and a conservancy. All of us 
have partnerships with the nonprofits, the cities, counties, 
and landowners. We actually have elected, selected members 
representing the property owners in the north, central, and 
south Delta who are part of our Commission.
    It is a State level priority to protect and preserve this 
area. We see this national heritage designation as smart 
business for the Federal Government as a means of branding 
something that is, and should be, a worldwide recognized 
destination for tourism and recreation, as well as the 
appreciation of the--everybody knows about how much of 
America's specialty crops come out of California. This is the 
heart of the ``Slow Food Movement'' in this area here.
    Just in my county alone, we have 80 crops, different 
agricultural commodities that generate over $1 million in farm 
gain. We are small compared to some of the other counties in 
the Delta. I mean, this is a tremendously vital, agricultural, 
recreational, and ecological treasure. That, I think, this 
designation can actually help us brand it appropriately as an 
international destination.
    Senator Udall. I have to note that your county looks like 
it is significantly sized to me, as I study this map.
    Mr. Reagan. We are 850 square miles.
    Senator Udall. You say there are counties that are much 
bigger.
    Mr. Reagan. Yes.
    Senator Udall. Yes. Thank you, again.
    Mr. Reagan. We are only 400,000 people. We are actually the 
second most urbanized county in California after San Francisco 
as in percentage of the population who lives in an incorporated 
city, which actually occupy less than 15 percent of the land 
area of the county.
    Senator Udall. I really enjoyed learning more about the 
Sacramento-San Joaquin Delta. You painted an intriguing picture 
of everything that occurs, whether it is the forces of Mother 
Nature, or it is those who grow the food that sustains us. I 
look forward to working with you.
    Mr. Reagan. Thank you.
    Senator Udall. Your 2 Senators, who are outstanding 
Senators, by the way, I do not have to tell you that, to move 
this important initiative forward. So I want to thank you both 
for your testimony.
    Before we adjourn, I would like to include in the record a 
letter from Congressman Garamendi on this very topic we just 
discussed. We will do that without objection.
    Senator Udall. Let me now say I want to thank you again for 
your testimony, for taking the time to join us in Washington. 
Some members of the committee may submit additional questions 
in writing, and if so, we may ask you to submit answers for the 
record.
    We will keep the hearing record open for 2 weeks to receive 
any additional comments.
    Senator Udall. Again, thank you, and the subcommittee is 
adjourned.
    [Whereupon, at 3:38 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

    Responses of Stephanie Toothman to Questions From Senator Udall
    Note on responses--The questions below relate to H.R. 2606, the New 
York City Natural Gas Supply Enhancement Act. The responses are based 
on the assumption that H.R. 2606 would be enacted in the form the bill 
was received in the Senate.
Permits
    Question 1. What is the process for approving the initial permits?
    Answer. The process for issuing and approving permits is governed 
by NPS policy contained in Director's Order #53: Special Park Uses. 
[D.O. #53 can be found at http://www.nps.gov/policy/DOrders/D053.htm]. 
The Regional Director signs all new right-of-way (ROW) permits.
    Question 2. What is the process for renewing permits after the 
initial 10 year term?
    Answer. The renewal process will be identical to the original 
approval process, except that the renewal may be approved by the park 
superintendent.
    Question 3. Who has discretion to cancel permits after 10 years?
    Answer. The permits will automatically expire after 10 years.
    Question 4. What is the approximate revenue that will be generated 
from permits?
    Answer. The permit fees will be based upon a Department of the 
Interior-approved appraisal identifying fair market value and upon 
actual costs incurred by the park to administer and monitor the permit. 
Work on the appraisal cannot begin until the legislation is passed.
    Question 5. What Right-of-Way permits will be issued?
    Answer. A ROW permit will be issued for all portions of the gas 
line that cross NPS lands.
    Question 6. What is the process for Right-of-Way permit approval/
renewal?
    Answer. The process for issuing and approving permits is governed 
by NPS policy contained in Director's Order #53 (Special Park Uses). 
The Regional Director signs all new ROW permits. The park 
superintendent may approve renewal of ROW permits.
Lease
    Question 7. Who will the lease the land- Williams or National Grid?
    Answer. Williams will lease the hangar and associated land at Floyd 
Bennett Field.
    Question 8. Will the lease transfer from one to the other at some 
point? If so, will the lease berenegotiated at that point?
    Answer. Transfer (re-assignment) of the lease cannot take place 
without the expresswritten consent of the NPS. The terms and conditions 
of the lease will address anyanticipated transfer among parties.
    Question 9. What is the length of the lease?
    Answer. The length of the lease will be determined through the 
negotiation processbetween the NPS and the lessee. The lease will not 
exceed 60 years, since that is thelimit for NPS leases under NPS 
leasing regulations (36 CFR part 18).
    Question 10. What is the approximate revenue that will be generated 
from lease fees?
    Answer. Lease revenues are not known at this time because a 
Department of the Interior-approved appraisal has not been completed. 
Rent revenues, at a minimum, must be fair market value rent.
    Question 11. Will the lease fees ever increase or be renegotiated 
at any point during the lease term?
    Answer. Yes, this is possible. Conditions allowing for increases 
will be included in the lease terms.
Revenues
    Question 12. Will all revenues go directly to Gateway National Park 
rather than to Treasury or NPS General Fund?
    Answer. Revenues from the lease of the hangar will be retained by 
Gateway National Recreation Area, as will the cost recovery to 
administer and monitor the ROW permit. Revenues generated from the fair 
market value of the ROW will go to the Treasury.
    Question 13. What specific projects does NPS plan to use the 
additional revenue for?
    Answer. H.R. 2606 allows the revenue to be used for infrastructure 
needs, resource protection, and visitor services. We anticipate that 
the revenue will be used primarily for the restoration of key historic 
structures and to improve visitor services.
    Question 14. Will all additional revenue be spent on capital 
improvements?
    Answer. Not all, but we anticipate that much of it will be spent 
for that purpose.
    Question 15. How can we ensure that revenues from the lease will 
not be used to offset cuts tofederal funding for Gateway?
    Answer. At national park units that use NPS leasing authority, 
there has been no indication of reductions in federal funding as a 
result of NPS retention of leasing revenue.
Environmental/Park-Going Experience
    Question 16. What is the environmental impact on the park-during 
and after construction?
    Answer. During construction, impacts, if any, will be minimal and 
will be mitigated in accordance with Federal Energy Regulatory 
Commission (FERC) requirements. There are no anticipated environmental 
impacts once the project is completed.
    Question 17. What is the impact on park visitors-during and after 
construction?
    Answer. There will be no impact to park visitors after 
construction. During certain phases of construction, visitors will not 
be able to use a small part of Floyd Bennett Field.
    Question 18. What is the impact of the pipeline trenching?
    Answer. Except for a 100-foot section between Flatbush Avenue and 
the hangar building, the pipeline will be laterally drilled, not 
trenched. If there are impacts, they will be resolved through the FERC 
compliance process.
    Question 19. An artificial reef lies off the Rockaways-will the 
pipeline disturb it?
    Answer. No. The FERC compliance process has taken the artificial 
reef into consideration. The reef will not be disturbed.
    Question 20. Can the monitoring station be located somewhere other 
than a historic hanger?
    Answer. If the metering station is built outside the park, a new 
facility would need to be built. The size of the structure would be 
approximately that of a football field with 20-foot-high walls. The 
most likely location would be adjacent to the park, in a natural area, 
which would adversely affect the viewshed of the park. If the metering 
station is within the park, it will be located totally within the 
confines of the historic hangar. The public will see the restored 
building with no indication of the metering station located within the 
walls. There will be no visual intrusion on the historic scene.
    Question 21. What is the impact on park visitors if the monitoring 
station is located in one of the historic hangers?
    Answer. The impact to park visitors will be positive. The hanger is 
closed to visitors at the current time and will continue to be closed 
once it becomes a monitoring station. What will change for visitors is 
the visual experience they have when they visit Floyd Bennett Field. 
Currently, visitors see a structure in decrepit condition. After the 
hanger is rehabilitated, they will see an attractive historic 
structure.
Safety
    Question 22. What are potential safety hazards?
    Answer. FERC will ensure that all safety hazards are identified and 
addressed.
    Question 23. What safety review will be conducted prior to 
construction?
    Answer. FERC will review the security and safety measures to be 
incorporated into the design of the metering station and pipeline. 
These measures will reflect a collaborative effort between Williams, 
National Grid, the New York Police Department, the U.S. Park Police, 
and New York City Fire Department.
    Question 24. What safety standards will be in place after 
construction?
    Answer. We are not the technical experts on this subject and will 
defer to FERC's expertise on safety standards.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

 Prepared Statement of Hon. Frank R. Lautenberg, U.S. Senator From New 
                           Jersey, on S. 1589
    The New Jersey Coastal Heritage Trail is a valuable asset to the 
State of New Jersey that promotes the vast cultural resources along the 
state's vibrant coastline and helps boost tourism and local economic 
development. The trail showcases the rich and diverse resources along 
the coast, from the beaches of the Jersey Shore to the wetlands and 
wildlife in the Delaware Bay to the museums and state parks in the 
region. Since the trail's creation in 1988, the National Park Service 
(NPS) has reached important milestones implementing various pieces of 
the trail but was unable to complete it before its authorization 
expired at the end of Fiscal Year (FY) 2011.
    In 1993, the National Park Service established an implementation 
plan for the trail that included five interpretative themes in eight 
counties across 300 miles of coastline. According to the plan, the 
trail would stretch through five regions from Perth Amboy to Cape May 
and then west to the Delaware Memorial Bridge. Along the driving trail, 
the plan calls for signs, five welcome centers, promotional brochures 
and other visibility and outreach to bring tourists to trail 
destinations. Destinations include the Sandy Hook Gateway National 
Recreation Area, Island Beach State Park, the U.S. Coast Guard Station 
in Atlantic City, and the Cape May National Wildlife Refuge, and many 
other intriguing sites.
    While the plan called for the development of five themes, only 
three have been developed. In addition, NPS opened two welcome centers 
but have not opened the remaining three. The initial plan called for 
more than $10 million to complete the plan, but just $4.5 million was 
appropriated from FY 1993 to FY 2011. Lack of funding prevented NPS 
from completing the trail before the authorization expired at the end 
of FY 2011.
    On September 21, 2011 I introduced S. 1589, a bill to extend the 
authorization for the Coastal Heritage Trail in the State of New 
Jersey. The bill, cosponsored by Senator Menendez, would extend the 
authorization for the Coastal Heritage Trail in the State of New Jersey 
through FY 2016 to give NPS additional time to complete implementation 
of the plan.
    The New Jersey coastline is a treasure that is a source of pride 
for New Jerseyeans and serves as a popular attraction for thousands of 
tourists. The beaches, historical landmarks, natural habitats, and 
cultural sites lure many people to the shore, supporting local economic 
development and enriching New Jersey's heritage. That is why I am proud 
to sponsor S. 1589. I urge the committee to approve this legislation so 
the National Park Service can fulfill the mission initiated in 1988 and 
complete the development of the New Jersey Coastal Heritage Trail.
                                 ______
                                 
  Statement of C. Allen Sachse, Special Advisor and former President/
 Executive Director of the Delaware & Lehigh NHC, Incorporated, on S. 
                                  2131
    Mr. Chairman and distinguished members of the subcommittee, thank 
you for the opportunity to present testimony in support of S. 2131. My 
comments will address the reauthorization of the Delaware and Lehigh 
National Heritage Corridor (D&L) as established by Public Law 100-692. 
However, I support the reauthorization of Lackawanna Valley National 
Heritage Area and Rivers of Steel National Heritage Area, which are 
also included in SB 2131. In addition I also support the 
reauthorization of Essex National Heritage Area addressed in S. 1198, 
and America's Agricultural Heritage Partnership addressed in S. 2133.
    Congress designated the D&L as the nation's third national heritage 
corridor in November 1988 to assist the state and local agencies in 
preserving and interpreting the corridor's significant historic, 
cultural and natural resources, while fostering economic development 
focused on those resources. The D&L is located in eastern Pennsylvania 
with a population over 1.65 million. The story of the corridor is the 
story of America's industrial revolution expediously growing along the 
historic transportation system. From the anthracite coal fields of the 
Wyoming Valley to the port town of Bristol, the system of overland 
railroads and canals moved anthracite coal the early fuel for this 
revolution. Along the 165 mile route a diversity of industries 
flourished, including iron and steel, cement, transportation, textile, 
slate, agriculture, and zinc. This system (the spine of the D&L) was 
innovative in its day, and continued to operate for over 100 years. The 
Delaware and Lehigh Canals became the nation's longest operating 
towpath canal system, and the Switchback Gravity RR was the nation's 
first commercial successful railroad.
    In 2005, the D&L engaged the services of the Conservation Study 
Institute (CSI), Northeast Region of the National Park Service to 
assess the accomplishments and future challenges of D&L partnership 
network. The findings are detailed in the report titled Connecting 
Stories, Landscapes, and People: Exploring the Delaware & Lehigh 
National Heritage Corridor Partnership. The report was completed and 
published in spring of 2006.
    The research found that progress had been very significant; 
participation and activity of partners was growing expediously each 
year; time and momentum are very important; almost half of the projects 
were corridor wide in scope; over 40 percent activities were determined 
to be ``ongoing'' activities requiring ongoing commitments; telling a 
`national story' was both the greatest strength and challenge of the 
D&L; and building partner capacity and sustainability were continual 
challenges.
    The D&L partnership's ability to leverage funding and other 
resources has been very impressive. The study substantiated that for 
each dollar provided through the National Park Service, the Corridor 
was able to directly leverage almost 12 dollars from other sources. 
Even today during these challenging economic times the D&L is still 
leveraging more than two times our NPS funding each year. Obviously, 
this means investments into communities, important cultural and natural 
resources, and jobs.
    Looking to the future the CSI study team identified critical 
ingredients necessary for sustained success of the partnership network. 
Foremost among the ingredients necessary to sustain the partnership at 
current level was the NPS role. The team concluded, ``The anchoring 
state and federal government connections provided by the PA Department 
of Conservation and Natural Resources (DCNR) and the NPS are extremely 
important to the stability and sustainability of the D&L partnership 
system. These two partners have played critical and complementary roles 
in the Corridor partnership for a long time--the DCNR since it was 
formed in 1993 and the NPS since the Corridor's formative stages. They 
provide credibility and reinforce the importance of the Corridor 
initiative for partners and communities. . . .  Other critical 
structural ingredients include secure, stable funding from diverse 
sources and the ability to leverage funds, resources, and ideas. It is 
important to note that the ability to leverage derives primarily from 
the funding and participation of the two anchoring state and federal 
partners.''
    The D&L had asked CSI to examine future management (sustainability) 
options both inclusive and exclusive of federal and/or state 
participation. All options recognized the importance of a continuing 
relationship with the anchoring partners--DCNR and the NPS. However, 
one option addressed the possibility of moving forward without a 
federally authorized management entity and dedicated federal funding. 
If this were to become a reality, the study team concluded, ``this 
scenario would be a significant setback for the Corridor initiative and 
in all likelihood would substantially slow the progress toward 
achieving its broad mandate. Without federal authorization, D&L, Inc., 
and the partnership overall could have reduced stature, clout, and 
credibility with government agencies and other stakeholders. Perhaps 
more importantly, the loss of dedicated federal funding would leave a 
substantial void-both in direct terms for Corridor operations and 
management plan implementation, and indirectly in leveraging support 
from others.''
    Other than the D&L, there is no agency within the five counties 
that has a similar multifaceted mission and capacity to continue the 
work of the D&L at the same geographic scale and commitment to 
community enhancement. To demonstrate this I will provide two brief 
examples as to the scale and complexity of the work of the D&L.
    D&L Trail--The vision of the D&L Trail (165 mile spine) emerged 
during the management action plan (MAP) process. The MAP did challenge 
the proponents to secure a public right of way within the first decade 
(in principle completed in 2004); then building the trail (underway and 
ongoing); creating volunteer support and owners compact (underway and 
ongoing); and when the D&L Trail is near completion seek Congressional 
designation as a National Historic Trail--(this issue has yet to be 
pursued). Because the historic towpath canals were in commercial use 
longer than other towpath canals in the United States, parts of the 
system maintain a great deal of integrity even today. For instance, the 
59+ mile Delaware Canal has been designated a National Historic 
Landmark, and several sections of the Lehigh Canal are recognized as 
National Recreational Trails.
    The D&L Trail is a great recreational resource for it reconnects 
the population centers of eastern PA, as well as tremendous 
interpretive resource connecting the mines to the markets (industrial 
towns). The D&L Trail is also a rallying point for small town 
revitalization. With the completion or enhancement of each section of 
trail thousands of new users come from near and far. Towns along the 
trail are experiencing income growth for existing small businesses and 
even the opening of new businesses to serve the trail users.
    In the past five years over 20 miles of new trail has been 
constructed along the spine of the D&L Trail system. Presently the D&L 
has received preliminary approval for an additional $6.5 million in TEA 
Enhancement funding for eight construction projects along with DCNR 
funding to support the design of these projects. The D&L does not own 
the trail. But instead, we assist the more than 20 local agencies who 
do own the trail by securing and administering grants, providing design 
and construction management of major construction, and developing 
volunteer tender and patrol services along the D&L Trail.
    Tales of the Towpath is an award winning 4th grade curriculum 
written and produced by the D&L staff. The Tales of the Towpath text 
book tells of commerce and industry during 1850's along the canals 
through the experiences of 10 year old Finn Gorman. The D&L services to 
participating schools includes: a text book for each student in the 
class; a traveling trunk filled with period items; a teacher's manual 
that includes extensive information for local field trips; teachers 
training (required) accepted by the PA Dept. of Education for 
continuing education certification; a classroom visit by the author; 
and an interactive web site.
    In just four years the program has grown tremendously. This school 
year there are 64 elementary schools using this social studies 
curriculum and over 6000 students discovering the history of the 
corridor through the reflections of Finn as a child working on his 
family's canal boat. The D&L is very proud of the fact that the school 
districts of Allentown and Bethlehem area offer the curriculum in all 
of their elementary schools. Allentown and Bethlehem are the most 
populated cities in the corridor and have the highest numbers of 
minority residents. This curriculum provides insights into the history 
and heritage of the communities where they live.
    The D&L the staff authored the textbook, produced the teacher's 
curriculum guide, and gathered all the supportive materials. The Tales 
of the Towpath curriculum received a great deal of funding support 
through small grants and corporate donations, which were secured by 
leveraging a PA Corporate Educational Tax Credit program.
    During my introduction, I referenced the purpose for designation as 
stated in the act was to assist the Commonwealth and local agencies 
with preserving the resources and sharing the story while fostering 
sustainable economic development. The D&L addresses sustainable 
development in a variety of ways. Landmark Towns, Market Towns and 
emerging Trail Towns are D&L assistance programs focused on the 
historic towns and cultural resources along the spine of the corridor. 
The rural landscape is a focus of our Conservation Landscape Initiate 
assistance. Tourism development and marketing is done in partnership 
with our four visitors and convention agencies.
    In 2008, the D&L conducted a survey of visitors to key partner 
sites to help measure the economic impact of heritage tourism within 
the Corridor. The Money Generation Model, second edition, (MGM2) 
developed for the National Park Service, was the model used to gather 
information. The MGM2 is an econometric model designed to provide an 
estimate of the economic impact that visitors have on the local economy 
in terms of their contribution to sales, income and jobs in the area. 
The direct impact of sales resulting from heritage tourism was 
$21,874,480 which supported 570 jobs within the Corridor.
    Mr. Chairman and members of the subcommittee, I will not repeat the 
words of Annie Harris, President of Essex NHA, in her testimony to this 
committee presented at the hearing on March 7th. However, I do want to 
reemphasis the value of the work being done by the National Heritage 
Areas throughout this nation, and their importance to the National Park 
System. Ms. Harris noted a number of recent reports examining the 
future of the NPS and how best to save and share the story of America. 
The National Heritage Areas were recognized as major partners and 
contributor to the work of the NPS and each report recommended 
continual support to the program.
    Cost effective and results oriented, the D&L partnership offers a 
time tested model for telling a nationally significant story, saving 
the associated cultural and natural resources, and creating employment 
opportunities. The scale of this `living landscape park' is huge. The 
continual support of the NPS enables the D&L to leverage the collective 
richness of many the partners that own and care for the key cultural 
and natural resources. Together we can preserve and share this story.
    Mr. Chairman and members of the committee, the continued support of 
the NPS is vital to the sustainability of the D&L partnership network. 
Thus, I ask you to pass S. 2131 and I thank you for the opportunity to 
submit testimony.
                                 ______
                                 
 Statement for Lackawanna Heritage Valley National and State Heritage 
    Area, Submitted by Natalie Gelb, Executive Director, on S. 2131
    The Lackawanna Valley National Heritage Area is located in 
Northeastern Pennsylvania. It comprises the cities of Scranton and 
Carbondale, as well as scores of other municipalities near the 
Lackawanna River. Rich in natural resources, particularly anthracite 
coal, the region attracted thousands of immigrants in search of work 
and a new life in America in the 19th and early 20th centuries. It 
became a major manufacturing hub for coal mining, railroading, steel 
production and textile mills. It also was home to America's early labor 
movement, the first electric trolley system in the United States, and 
the development of distance learning with the creation of courses by 
mail to help miners, to prepare for their licensing exams. The mines 
produced, and the railroads transported, millions of tons of anthracite 
coal, the energy source that fueled the nation during the Industrial 
Revolution.
    In 2000, the Lackawanna Heritage Valley became a National Heritage 
Area, and the Lackawanna Heritage Valley Authority was designated as 
its management entity. This statement urges the committee to support 
Senate Bill 2131 to extend until September 30, 2022, the authorization 
of the Lackawanna Valley National Heritage Area, the Delaware & Lehigh 
National Heritage Corridor, and the Rivers of Steel National Heritage 
Area. As outlined in the March 7, 2012, testimony of Stephanie 
Toothman, Associate Director of Cultural Resources of the National Park 
Service, the three Pennsylvania national heritage areas preserve the 
historic, cultural, natural and recreational resources of their 
respective regions. Each designated geographical area has been 
recognized for its significant contribution to the history of the 
nation. By their very nature, each national heritage is different, 
representing an important aspect of the American story.
    The theme of the Lackawanna Heritage Valley is ``Land, People, 
Industry.'' Geographically designated as the watershed of the 
Lackawanna River, it encompasses Lackawanna, and parts of Luzerne, 
Susquehanna and Wayne counties. The area is known today for its 
authentic historic sites, stunning architecture, vibrant ethnic 
communities, diverse recreational activities, and beautiful mountains, 
lakes, and waterways. The Lackawanna River runs for forty miles, and it 
is in the Chesapeake watershed.
    The Lackawanna Heritage Valley was the destination for thousands of 
immigrants who came to the region to find jobs and a better life and 
ended up building a new nation. To tell that story, LHV has formed an 
award winning partnership with WVIA-TV, its local PBS station, to 
create the "Extraordinary Journey" series. Starting with ``Stories from 
the Mines,'' a history of the anthracite coal mining industry, several 
documentaries have been produced: ``The Extraordinary Journey of the 
Eastern Europeans,'' ``The Irish: Two Nations, One Heart,'' ``Paesani: 
The Italians of Northeastern PA,'' and ``St. Ubaldo,'' the story of a 
festival that is held each year in Jessup, Pennsylvania, a traditional 
event that was brought to Jessup, Pennsylvania, by immigrants from 
Gubbio, Italy, where it has occurred each year since the 13th century. 
In 2012, with the support of a local financial institution, WVIA 
created ``Legacy: The Story of the Lackawanna Heritage Valley.'' WVIA 
not only airs these documentaries repeatedly, but it also offers them 
to PBS affiliates throughout the country and markets the DVDs for 
public purchase.
    LHV has formed a coalition of federal, state, regional and local 
partners who work together to enhance the quality of life and improve 
the economic vitality of local communities. Its mission is to educate 
the public about the historic, cultural, economic and natural resources 
of the region. Small in size, but large in impact, the Lackawanna 
Heritage Valley ties the past to the present, always with a connection 
to the future. The Lackawanna Valley continues to reinvent itself, 
having survived the demise of the anthracite coal industry, the 
emigration of the textile industry offshore, and the transition from a 
manufacturing to a service economy that is focused on education, 
healthcare and a burgeoning bio-tech sector. The link between past 
modes of energy production, i.e., coal, to co-generation plants and 
natural gas production in the Marcellus Shale, and from the convergence 
of major railroads to the confluence of interstate highways, maintains 
the region's relevance as times change.
    The Lackawanna Heritage Valley ties all facets together in its role 
as convener and coordinator of the efforts of federal, state, regional 
and local governmental entities working with historic, cultural, 
educational and environmental partners and private entities to combine 
resources and build capacity. LHV hosts a monthly ``Heritage 
Roundtable'' of partners who meet to report on their respective 
activities, to share ideas, and to develop collaborative projects and 
programs that are strengthened by their collective efforts, expertise 
and enthusiasm. The partners rely on LHV not only for technical 
assistance and, sometimes, seed money or grant funding, but also as the 
catalyst for action. The Heritage Valley is recognized and valued by 
the hundreds of organizations with which it works each year for its 
role in weaving together the disparate elements and organizations that 
create and strengthen the fabric of the community.
    Like its counterparts throughout the country, the Lackawanna 
Heritage Valley honors its story, stimulates the local economy and 
creates stronger communities. It focuses on education, enlightening the 
public, creating a sense of place, and engaging the community in its 
work to conserve and preserve the region's resources. Please allow me 
to outline a few examples of the many ways it meets those goals:
EDUCATION
    The Heritage Passport program--LHV works with the Lackawanna County 
Library System to provide students enrolled in the summer reading 
program free entry to various historic venues and cultural attractions, 
including the Scranton Cultural Center, the Everhart Museum, Steamtown 
National Historic Site, the Electric City Trolley Museum, the 
Lackawanna Historical Society and the Pennsylvania Anthracite Heritage 
Museum. This program has allowed thousands of young people and their 
families the opportunity to learn about the region's industrial history 
and cultural traditions by visiting these important sites. For most, it 
is the first and only time that they have been able to afford such a 
visit.
    Museums as Classrooms--LHV works with professionals from the 
regional Northeast Educational Intermediate Unit, to present courses 
for teachers that are conducted at local historic and cultural sites. 
Teachers participate on site, using primary resources to enhance their 
ability to teach their students about the respective venues. 
Participants are provided with curriculum guides, developed according 
to PA State Standards, for each site, including Steamtown, the Trolley 
Museum, Scranton Cultural Center, Lackawanna Historical Society's 
Catlin House, Everhart Museum and Pennsylvania Anthracite Heritage 
Museum. Teachers receive continuing education credits for this program.
    Teacher mini-grants--Each year LHV offers ten mini-grants of $500 
to teachers for programs that relate to heritage or environmental 
stewardship. A variety of unique activities have been completed, some 
of which have resulted in permanent recycling programs, new student 
activity groups, gardens, improved park, as well as ethnic cookbooks, 
family albums, and artworks reflecting the students' diverse 
backgrounds.
CULTURE
    Heritage Explorer Train--LHV underwrites this annual journey on a 
train from Steamtown National Historic Site in Scranton to communities 
along the Lackawanna River where passengers have the opportunity to 
spend several hours at special events that showcase and celebrate the 
unique foods, traditions and businesses of the towns they visit. The 
Lackawanna Historical Society provides packets of information for the 
train ride, including children's activities and scavenger hunts that 
help them learn about the history of that particular city, borough or 
township. The Lackawanna Heritage Valley works with Steamtown National 
Historic Site, a component of the National Park Service, on a wide 
range of programs. In 2004, Steamtown and LHV received a federal 
partnership award for their effective working relationship and award 
winning projects.
    Christmas in a Small Town--In December, the Lackawanna Heritage 
Valley sponsors a Steamtown train that brings Santa to communities 
along the rail line where LHV has recreated several historic railroad 
stations. Thousands of residents, visitors and former residents return 
home to enjoy this event. The ``Santa Trai'' has become an honored 
tradition, with each community competing to create the best welcome and 
the largest crowds.
    Festivals and Celebrations--LHV supports and sponsors numerous 
cultural events, from Labor Day Weekend's ``La Festa Italiana'', a 
feast of Italian Food that attracts 150,000 visitors to Scranton, and 
the RailFest at Steamtown, to the Steamtown Marathon, the Scranton 
JazzFest, Pages and Places Book Fair, and the other festivals and 
events that celebrate the diverse ethnic groups that settled the area. 
Most recently, LHV has provided support for newer immigrant groups that 
are introducing their own traditions, such as the Diversity Fair at Nay 
Aug Park, Latino multi-cultural events and exhibits featuring customs 
and traditions from India and Southeast Asia.
NATURAL RESOURCES
    Lackawanna River Corridor Association--LHV has worked with the 
Lackawanna River Corridor Association for the past twenty years to 
restore the Lackawanna River to its current pristine state. Once a 
virtual industrial sewer, today the river has sections that have been 
designated as Class A Trophy Trout areas, attracting fisherman from 
near and far. In May, LRCA holds an annual RiverFest that hosts canoe 
and kayak races, and a day of riverside activities and educational 
presentations to celebrate the river. LHV has provided funding to 
restore the historic building, one of the oldest homes in Scranton, 
that houses LRCA. Ambassadors in Action, LHA's active volunteer group, 
engages in river and trail cleanups on an increasingly regular basis.
    Conservation Alliance--LHV hosts more than seventy environmental 
organizations in a group organized to collaborate and coordinate 
activities that foster environmental stewardship. Each year, LHV 
coordinates the ``Great NEPA Cleanup'' held in April, promoting, 
publicizing and leading the efforts of myriad groups, including scout 
troops, colleges and universities, businesses and neighborhood 
organizations. It also sponsors annual workshops that are led by 
professionals in the field to share knowledge and offer valuable 
training regarding best practices.
    Lackawanna River Heritage Trail--LHV's signature project is the 
development of the 70+ mile Lackawanna River Heritage Trail system from 
the New York State border to the City of Pittston in Luzerne County. 
The multi-purpose trail provides a wide range of recreational and 
wellness benefits, as well as alternative transportation opportunities 
along the Lackawanna River. It connects people to the river and 
communities to each other. The trail also acts as a linear interpretive 
park, with directional, safety and interpretive signage and other 
amenities that educate users about the industrial, cultural and 
community sites that developed along the Lackawanna River. In addition, 
the trail provides access to fishing, canoeing and kayaking in summer, 
cross country skiing in winter and, in the northern sections, 
opportunities for snowmobiling and horseback riding.
ECONOMIC DEVELOPMENT
    Connecting Nature and Commerce--The LHV trail is the spine of the 
Lackawanna Greenway which, when complete, will connect at either end 
with the Susquehanna Greenway to form a 250 mile loop that will be part 
of the Pennsylvania Mega Greenway network. LHV works closely with 
communities along the Lackawanna River to connect the trail to economic 
development by aligning the trail to travel through or close to the 
main streets of communities. LHV assists town officials and business 
owners to become ``trail-friendly'' so as to accommodate and encourage 
trail users to eat, shop, stay overnight and enjoy the amenities in 
each town.
    A survey of the Lackawanna River Heritage Trail in 2009 proved that 
there were an estimated 128,000 annual user visits to the trail, 
resulting in a direct economic impact of approximately $28.3 million. 
This number is projected to increase as more sections of trail are 
constructed and opened for public use.
    Ambassadors Tours--LHV works with regional Convention and Visitors 
Bureaus, as well as its fellow Pennsylvania State Heritage Areas and 
other governmental entities and media partners, to promote tourism. 
Hundreds of individuals have participated in these day-long 
``Ambassadors Tours'' of the Heritage Valley, where they learn about 
the history of the area and its many cultural, recreational and 
economic opportunities. Each year, LHV hosts members of Leadership 
Lackawanna, a program of the Scranton Chamber of Commerce for upcoming 
community leaders and executives of local businesses, newcomers to the 
area, and long time residents, to help them to understand all the area 
has to offer.
    Although there is no legislation that mandates an Evaluation and 
Report to be performed for the Lackawanna Valley National Heritage 
Area, Ms. Toothman recommends in her testimony that language similar to 
the of Section 462 of Public Law 110-229 be included in an amendment to 
S.B. 2131, that would require Lackawanna to have Evaluation and Report. 
Lackawanna concurs with that recommendation, and it further endorses 
the extension of authorization for federal funding for Lackawanna, 
Rivers of Steel and Delaware & Lehigh, so that the important work can 
continue.
    The testimony before this committee of Annie Harris, Director of 
the Essex National Heritage Area, references several reports, as well 
as America's Great Outdoors memo, that recognize the National Heritage 
Areas as vital to the NPS mission. Subsequent to that testimony, 
Jonathan Jarvis, Director of the National Park Service, issued Policy 
Memorandum 12-01 on March 16, 2012, to all employees ``to affirm the 
NPS's support for the National Heritage Areas Program,'' and to 
recognize them as a vital part of the NPS mission. He stated, 
``National Heritage Areas are places where small investments pay huge 
dividends, providing demonstrable benefits in communities across the 
country and in partnership with our national parks. It is important for 
us to recognize the benefits that heritage areas have for our parks and 
our program, and to find ways to build on their success by integrating 
their work with ours and providing support to them in any way 
possible.''
    Since its designation, the Lackawanna Heritage Valley has received 
$6 million of federal funds from the National Heritage Areas program. 
Since 1992, LHV has invested more than $37 million in the region, and 
it has created 1,649 fulltime jobs. Although it can be difficult to 
measure the effects of Lackawanna Heritage Valley on the quality of 
life and sense of pride among residents, this ratio proves that the 
economic impact has been impressive.
    Perhaps most apparent to the people of the region is the degree of 
community engagement that LHV has stimulated. Thousands of individuals 
use the trail, visit the sites, ride the trains, enjoy the 
celebrations, watch the videos and clean up the river. Hundreds of 
volunteers have been ``Heritage Partners.'' Through the work of the 
Heritage Valley, people who live here have a greater recognition and 
appreciation of the importance of their legacy. Children are learning 
from a very young age to protect the environment, to have a sense of 
place, and to understand that they can plan their futures in their 
communities.
    This is a great accomplishment for an area that has faced and 
overcome tremendous economic challenges over the past half century. 
Their work ethic and perseverance were passed on to them by their 
forebears. People who grew up here and moved away are returning, and 
those who stayed now see the place and themselves with new eyes. The 
Lackawanna Heritage Valley must survive if this revitalization is to 
continue.
                                 ______
                                 
 Statement of Maureen Finnerty, Chair, Executive Council, Coalition of 
               National Park Service Retirees, on S. 1708
    Mr. Chairman and members of the subcommittee, thank you for this 
opportunity to present the views of the Coalition of National Park 
Service Retirees on a bill currently before you, S. 1708, a bill to 
establish the John H. Chafee Blackstone River Valley National 
Historical Park, and for other purposes. We are submitting this for the 
record, to be incorporated with other testimony of your hearing of 
March 7, 2012.
    This is important legislation. We are pleased with the committee's 
involvement, and know that your consideration can help the get the 
balance right for the significant resources of the Blackstone Valley, 
and for the National Park Service as a whole. The Coalition of National 
Park Service Retirees strongly supports the enactment of an S. 1708 
that would create a Blackstone River Valley National Historical Park, 
based on its real significance to the nation, and sustained by mutually 
supportive partnerships.
    On the question of the park name, please consider our letter of 
December 13, 2011 to Chairman Bingaman in which we address the 
complexity of the question in some detail. So to focus today on the 
structural issue crucial to the success of this park we point out only 
this: If a family sets out to visit Gettysburg they go to Gettysburg 
National Military Park. If they go to visit Yellowstone, they go to 
Yellowstone National Park, or if to the Lincoln Memorial they go to the 
Lincoln Memorial. A park named for a person as an honorific instead of 
the plain name of the resource itself will confuse the potential 
visitor.
    The primary issue for this legislation is to assure that the park 
is fully founded on the resource of significance, anchored solidly on 
the resources that tell the story that matters. The concern is the park 
during the legislative process will be stripped of the recommended 
sites needed to tell the story of national significance. This park will 
need to include all representative sites identified by S. 1708 and by 
the Blackstone River Valley Special Resource Study (SRS) to retain its 
significance and meaning, and work effectively with related resources 
outside park boundaries.
    We believe appropriate legislation can provide the strategy and 
authority needed to protect and interpret the nationally significant 
resource. We believe the challenge before the committee for the 
Blackstone River Valley is not formidable or risky, but will require 
the committee to craft legislation distinctively designed to meet the 
need of this specific resource rather than a more compact framework 
that works well in most places but will not preserve the resource here.
    In this testimony we will identify the nature of the resource and 
the reasons why the legislative framework proposed in the SRS makes 
sense. We will describe the national significance, as the National Park 
Service (NPS) testimony does not address this, but an understanding of 
the resource is necessary to provide the needed legislative framework. 
We will explain why this park will be affordable and within the order 
of magnitude of the existing funding over the past 20 years to the 
Blackstone River Valley National Heritage Corridor commission, and why 
5 small units and parcels along the tributary and main stem of the 
Blackstone River, can be founded on a mix of partnership and ownership 
and still be sufficiently robust and self-sustaining to be the anchor 
and inspiration for cooperative visitor strategies outside the park in 
the larger Valley. We believe we will show that experience demonstrates 
no concern for federal overreaching beyond the park, and we will 
suggest alternatives to the land protection amendments proposed in 
their testimony by the NPS.
    What is the essential resource and story?
    It is certainly much more, and much more interesting to visitors, 
than the touted ``the Birthplace of the American Industrial 
Revolution.'' Describing these resources as exclusively industrial or 
of a narrow period of industrial history truly misses what makes the 
Blackstone River Valley significant.
    It is the ``wholeness'' of the Blackstone Valley that makes it 
significant, the concentration of resources and innovation across an 
entire landscape, and the 200-year long extent of the story that is the 
key to the need for appropriate legislation.
    This is the story of a representative watershed that has witnessed 
every phase of industrial development and interaction with the 
environment from colonial times to the present efforts of environmental 
revitalization. This Valley has high integrity, is compact, and capable 
of supporting the very best of interpretation and public programming.
    This landscape, particularly the north and west, contains what The 
New Yorker magazine called ``large and spectacular wetlands.'' Across 
its 45 miles, the streams and tributaries of the Blackstone River 
descend 450 feet from the hills in and above Worcester, Massachusetts 
to the Narragansett Bay, or 10 feet a mile--a faster descent than the 
Colorado River through Grand Canyon National Park and the reason why to 
this day there is no continuous road along the banks of the Blackstone. 
Instead, through the muse of geography and the work of people, the 
river and its tributaries became the first place in the United States 
to experience the widespread use of waterpower for industry; it became 
the center of industrial innovation for the nation, and the first major 
area of conflict in America between the environment and industrial 
development. This reshaping of the river basin, and its physical and 
social response, the creation of sustainable wealth and community, its 
economic and environmental decline and more recently its pathway to 
restoration is the major significance of the Blackstone River Valley, 
and the compelling story it tells America.
    In this small area between Worcester and Providence, Rhode Island, 
you can still see in successive layers an important concentration of 
colonial rural landscapes--the incubator of the essential pre-
industrial skills--including hilltop and crossroads villages, still-
existing rural roadways built in the 1600's atop the trails of Native 
Americans and farmlands still bordered by classic stone walls; layered 
above that the rise of tiny industrial villages and then cities, the 
first rural turnpikes, then the canals and railroads and highways, 
including large parts of the 2nd and 3rd largest cities of New England, 
a hugely diversified industrial base and 10,000 historic sites with 
continued layers right through to our time. Omnipresent in every layer 
are features indicating the significance of the waterways of the 
Blackstone River Valley.
    It is an environmental story of people living on the land, how the 
resources sustained the people and how the people sustained the 
resources; the story of what happens when the people or the resources 
fail, and of the solutions that can bring about the recovery of both 
the resources and the people who live with them and depend on them.

  <bullet> Historians have described the Valley as the perfect small 
        model for interpreting and understanding every phase of 
        industrial and community development.

    But, other than creating a park boundary around an entire living 
valley, how can such a place receive the recognition it deserves as a 
national historical park? What would be feasible, effective and 
affordable?
    S. 1708 and the SRS each have determined that, in a living 
landscape, the whole valley should be protected and interpreted through 
locally-driven partnership, but the national historical park should 
itself be a robust presence made up of representative parcels of 
national significance, each parcel carefully selected, distributed and 
linked as anchors throughout and for the whole Valley.
    The Coalition of National Park Service Retirees generally supports 
this approach as practical and affordable.

  <bullet> We recommend a park not unlike the design in S. 1708 or the 
        proposed National Park Service amendments, but with key 
        practical distinctions.
  <bullet> We support a park made up of representative parcels of on 
        the Blackstone River and its tributaries, with specific sites 
        at Whitinsville, Hopedale, Slatersville, Ashton and Slater 
        Mill. Removal of any one of these sites would compromise the 
        integrity and coherence of the park. In particular we support 
        legislative authorities for the park to be the anchor to 
        provide technical and financial assistance to a new 501(c)(3) 
        partner and other partners as appropriate and in accordance 
        with a plan, to develop cooperative visitor and preservation 
        strategies outside the NPS units.

    Although small in comparative acreage, this park and park operation 
as designed will contain sufficient leverage to enable the NPS to 
cooperate successfully with others to preserve the distinctive 
character and tell the story of the whole of the Blackstone River 
Valley. We strongly urge the committee to avoid a framework of only one 
or two units such as the Slater Mill Historic Site or Centennial park 
in Slatersville alone. We believe such a park would not be feasible 
because by themselves these sites would not be representative of the 
whole, and could not serve as the sinews or backbone of the larger and 
more important story. The rest of the Valley must see its connection to 
and identity with the national historical park.
    The National Park Service has broad and deep skills and partnership 
strategies found throughout numerous programs and parks. After years of 
experience we know these skills and strategies when assembled and 
targeted can work as a stable and predictable foundation for unit 
preservation and administration, when applied to populated cultural 
landscapes through a preservation compact with a highly supportive and 
engaged local community.
    We believe this resource and issues involved in protecting this 
park as proposed by the SRS are of crucial importance to the future of 
the National Park Service.
    As the NPS approaches its Second Century the question is, will the 
National Park Service be permitted to accept the strategic role needed 
by America to preserve and protect nationally significant places and 
landscapes in the century to come? To do so, the National Park Service 
must assemble and use in a strategic way all the wide range of skills 
developed in various individual NPS programs or projects and realize 
they are actually a time-tested tool kit. These skills and tools can be 
taught, are replicable and can be adapted to different circumstances 
based on congressional purposes and local needs.

  <bullet> Like the SRS, we recommend that the boundaries for the park 
        areas of Slater Mill, Ashton, Slatersville, Whitinsville and 
        Hopedale follow its Historic District or National Landmark 
        boundary.
  <bullet> The tributaries and the river should be represented by 
        parcels each identified to include multiple character-defining 
        elements such as rural, natural, cultural, recreational or 
        ecological features.
  <bullet> Lands within the park boundaries would be authorized for 
        donation or willing seller acquisition, or, in lieu thereof, 
        firm assurances such as by covenant or code or park 
        administrative agreement that the resource is protected in a 
        manner consistent with park purposes, as certified by the 
        Secretary of the Interior.
  <bullet> For lands within park boundaries on which the United States 
        holds an interest in the land, the Secretary may provide up to 
        100 percent of preservation costs.
  <bullet> We have seen no legislative maps for the tributaries or 
        rivers. If no representative parcels for tributaries and river 
        as described above have been identified for the committee or if 
        it is not practical to have them identified prior to enactment, 
        we recommend a provision in the legislation authorizing the 
        Secretary to incorporate in the park such small and 
        representative parcels upon notification of the committees and 
        publication in the Federal Register.

    This certification of consistency by the Secretary would be similar 
to the Taunton Wild and Scenic River in Public Law 111-11, section 
5003. This approach would be ideal for including portions of the state 
park at Ashton within the Ashton NPS unit, or the nationally 
significant private homes or factories at Slatersville where continued 
private use would be the highest and best means of preservation.
    We caution critics of partnership who expect the NPS to hold fee 
ownership throughout an entire unit, that the critical thing here is to 
identify an entire distinctive and character-defining cultural 
landscape for each unit. Of necessity when the story is about 
development, innovation and landscape, multiple partnerships are 
required. The key thing now is to preserve the complete resource with 
the involvement of the private interests while the site integrity is 
high.
    There will be criticism that having park parcels miles apart is not 
feasible, for managers or for the Visitor Experience.
    In fact, the thing that makes this valley such an exemplar is that 
it is small and comprehensible, and extremely susceptible to a wide 
variety of interpretive and public programming. ``Disconnected'' sites 
usually are not the ideal for a park, but this park would use the river 
and its tributaries to ``connect'' the sites, with each other and the 
rest of the Valley. The historic transportation routes between sites 
enhance the meaning and value of each NPS park destination site. The 
partnership projects located between lands to be operated by the NPS--
such as ``the Great Road,'' a tremendously significant series of early 
19th Century sites along an ancient trail--will contribute to the park 
story.
    The river and its tributaries will be the main link. New England 
has a very ``local'' sense of place and of local identity, sometimes 
with a sense of disassociation from sites very nearby. But each local 
place does see itself linked to this common watershed. Through the 
watershed, the common links of each local microcosm will be understood 
by visitors and residents, and reinforced by canoe trails, greenways 
and bikeways through the work of the National Heritage Corridor, the 
two states and local communities.
    The river and its tributaries enable the visitor to see beyond the 
narrow story of one factory or one industry. They link the other rural 
or natural resources, and connect the natural and cultural landscape 
with the icons of industry, such as mills and canal and railroad and 
worker housing. One understands what it took to make this world, and 
can see plainly what was sustainable economically and environmentally, 
and what was not.

  <bullet> We agree that financial assistance for development outside 
        the park should be matched by 50 percent.
  <bullet> We do not agree this makes sense within the park unit.

    At the very least, NPS should have the authority to provide 100 
percent of the funding when the NPS holds an interest in the land; for 
some such preservation assistance would be an incentive to donate an 
easement or preserve a property in accordance with the Secretary's 
Standards. There needs to be a distinction between the NPS assistance 
in for programs for the national heritage corridor and for the park. 
There needs to be an incentive, in particular, for properties within 
the sites identified for NPS administration, or the ability for the NPS 
to act in a timely way if the preservation of a resource is at stake.

  <bullet> An NPS General Management Plan is not the right vehicle for 
        planning for cooperative activities, especially outside park 
        boundaries, as proposed in the NPS testimony.
  <bullet> We recommend a joint preservation and interpretive plan as 
        both a framework and a priority setting tool, to be approved by 
        the Secretary, based on the nationally significant themes 
        represented at all levels inside and outside the park.

    The cooperative approach to planning will produce the creativity 
needed. The required the approval of the Secretary before the 
preservation plan can be funded, the joint planning team--perhaps made 
up of the new non-profit, the ``Blackstone River Valley National 
Heritage Corridor, Inc.'' and the NPS working together--will keep the 
plan affordable, targeted and strategic. Targets outside the park that 
are consistent with both national historical park and national heritage 
corridor purposes would be eligible for matching federal preservation 
funding. This plan may require little more than an updating of existing 
national heritage area plans that identify natural and cultural sites 
that should be preserved, restored, managed, developed, or maintained 
because of their cultural or natural significance. This joint 
preservation plan could be incorporated as a part of the General 
Management Plan, but there is no real partnership without partnership 
planning.
    The park resources should be seen as fully sustainable and powerful 
on their own, but also serving as anchors for interpretation and 
technical assistance and as exemplars and microcosms of the many other 
significant resources that need local leadership and support outside 
the parks but inside the Valley. Together, park and partners can tell 
the big story, and celebrate their resources, history and 
accomplishments.

  <bullet> We do not agree the matches should be by ``project'' as 
        proposed by the NPS, rather than by ``program'' as we 
        recommend.

    Some projects attract much larger matches than others. Some crucial 
expenditures such as advance planning and design or surveys and 
biological studies to leverage proper protection, can never by 
themselves be expected to be fully matched in all cases, but they are 
essential partnership tools to leverage huge third-party contributions. 
Of course donations of lands or easements or of in-kind assistance 
should be considered as matches. When the complete program, involving 
often multiple partnerships, can be considered for matching purposes as 
a whole, significant preservation work and participation can result. 
Matching the program, rather than by project, is also easier for 
bookkeeping purposes and project management purposes, and can enable 
each partner to contribute 100 percent of what it does well. The NPS 
might, for example, do all the archeological and other advance studies 
and planning plus the interpretive work, while a scenic byway 
connecting the site could be planned and maintained by the state or 
other agency.

  <bullet> While we agree that, in addition to the nationally 
        significant park sites, a specific and limited acreage should 
        be authorized to be included in the park for administrative or 
        visitor contact sites, we do not agree this authority should be 
        restricted to Woonsocket, RI, as provided in the NPS amendment.

    For example, Massachusetts has already obtained $5.5 million in 
funding for offices and a contact center just off Route 90 and Route 
146. This would bracket access to the park on the two major interstate 
highways in New England, Route 95 at Slater Mill and Route 90 at this 
site, and encourage access to all sites in between in the Valley. Right 
now all the visitor contact centers are either in Rhode Island, or in 
the MA town of Uxbridge that borders Rhode Island at the bottom of the 
MA portion of the Valley. NPS should be permitted flexibility to work 
with the State of Massachusetts if it chooses to include this site of 
great potential at the northern end of the Valley.

  <bullet> The proposed NPS amendment requiring identification of 
        priority land acquisition in advance contradicts NPS experience 
        and practice.

    Land protection planning, and cooperative management agreements 
typically all happen after park establishment, for good reason. NPS 
negotiators may welcome the additional strength and flexibility, in the 
negotiations for the administration agreement for certification by the 
Secretary, by including the preservation plan for the non-federal 
parcels in the mix with the parcels for NPS acquisition to create one 
balanced administration plan for each park site. The robust park as 
proposed in this testimony would not require a statutory priority 
system. We would yield to the wisdom of the committee if it is seen 
that extra assurance of robust park units is desirable.
  <bullet> While the continuation of independent funding authorities to 
        the national heritage corridor would enhance the park, we 
        appreciate that may contradict congressional intention for this 
        legislation, as the alternative to reauthorization of the 
        existing commission. However, in existing law (Public Law 99-
        647 (16 U.S.C. 461 note), section 9) the Secretary has ongoing 
        projects review authority in consultation with the corridor 
        commission. For the consultation process, we recommend in lieu 
        of the existing federal commission, that the successor 
        organization, the Blackstone River Valley National Heritage 
        Corridor, Inc., be substituted for the purposes of that 
        process.

    This section 9 provision should not be lost. It has helped other 
federal agencies understand the significance of the Valley and led to 
much positive cooperation leading to huge budgetary and program 
efficiency from many other federal agencies with local communities and 
the NPS.

  <bullet> As our final recommended amendment, we believe the park 
        purposes in Section 2 of S. 1708 could be made simpler and 
        stronger, and focused more properly on what would make the 
        Blackstone River Valley National Historical Park important to 
        the nation. We are attaching a proposed amendment that could 
        help accomplish this.

    The industrial story should be seen of one piece with the 
environmental story, the story of the creation of wealth and community, 
the understanding that the Blackstone Valley as a whole can be seen as 
one system.
    This understanding of history is well supported as context 
throughout the entire SRS, and strongly articulated by the six 
historians assembled by the Organization of American Historians to 
advise the NPS on park significance. To supplement the committee's 
record on this key issue, we recommend including the profound but brief 
narrative reports written by these six industrial historians. These 
short reports see this big story, state it more clearly than the SRS, 
and see the opportunity for a modest but strategic role for a properly 
located, scaled and strategic national historical park.
    Equally supportive of the big picture, and the proper balance 
between the NPS and the partners, and why things work as well as they 
do in the Blackstone Valley, we also recommend that the record include 
a copy of the 2005 National Park Service report by its Conservation 
Study Institute (CSI), ``Reflecting on the Past, Looking to the 
Future,'' that gives the best understanding of these issues. This 
report was the foundation for Public Law 109-338, ``The John H. Chafee 
Blackstone River Valley National Heritage Corridor Reauthorization Act 
of 2006.'' We will forward a copy of this report to the committee. 
Readers of this report can see immediately why continuing the existing 
level of energy and huge leveraging in the Valley today is essential to 
any preservation plan, and why the small federal role in this two-state 
valley unlocks the rest. This will be as true for the park as it was 
for the national heritage corridor.
    The National Park Service is also to be congratulated for the 
distinction and insight of the Blackstone River Valley Special Resource 
Study. This is as important and as difficult a landscape as may be 
found to devise so many elegant and essential resource preservation 
solutions. Beyond the interests of multiple federal agencies, it should 
be remembered this park plan engaged two sovereign states and over 20 
New England towns and cities and 40 historic villages. At one point in 
the colonial history of Massachusetts, simply being from Rhode Island 
and on Massachusetts soil was legally punishable by death on sight. 
More recently, for a period of 40 years, from 1790 until 1830, the 
obvious canal between Worcester and Providence was blocked to prevent 
mutual benefit and enterprise. As recently as 1989 on a sign on the 
Massachusetts border where the river could be seen to continue to flow 
into Rhode Island was this notorious marker: ``NOW LEAVING THE 
BLACKSTONE RIVER VALLEY.'' It took personal resilience, a great 
willingness to really listen to Americans and an uncommon belief in the 
value of the preservation mission of the National Park Service to 
produce this masterwork. Most could not think out of this box. Most 
would not try to achieve what now can be done here.
    To conclude, we would like to address some of the needless final 
fears concerning this proposed park.

          1. That passing this legislation will lead every national 
        heritage area to seek NPS status.

    In fact, very few of the other heritage areas would be interested 
or qualified to be units of the National Park System.
    The Blackstone River Valley has always had the closest ties to the 
NPS of any heritage area. Unlike all other heritage areas, it has an 
ongoing ONPS allocation, and in effect would not require a new ONPS 
allocation to be continued as a Unit of the National Park System. On 
its own terms, this proposed park has been found after an extremely 
painstaking and objective study, to be suitable, feasible and 
significant and should be made into an innovative national historical 
park on the merits.

          2. Something on this scale, with so many thousands of 
        historic sites and so many dozens of historic villages will be 
        a money sink.

    In fact, as the CSI report demonstrates, if the existing energy and 
imagination and partnerships in the Valley from the NPS' past 
experience are incorporated into this new national park, the costs will 
be very modest. The SRS calls for NPS expenditures on the same order of 
magnitude as the last 20 years.
    The National Park System Advisory Board after considering this CSI 
study for its own 2006 report Charting a Future for National Heritage 
Areas, found:

           . . .  the [Blackstone River Valley] corridor has fostered 
        restoration of dozens of historic buildings for private and 
        public use, annual cleanup efforts, regular water-quality 
        testing, and improved water access. The commission's work has 
        generated thousands of volunteers and new recreation 
        enthusiasts. Residents, businesses, and local governments are 
        reconnecting with the Blackstone River, generating new economic 
        vitality, valued at 22 times the National Park Service 
        investment of $24 million over the past 18 years. The 
        commission has inspired federal, state, and local governments; 
        historical, recreational, and environmental organizations; 
        businesses; and private landowners to collaborate on projects 
        based on shared ideals and goals.

    In other words, for an NPS expenditure of $24 million over 18 
years, or averaging $1.3 million per year, a total of $528 million was 
leveraged from other sources to carry out the Blackstone River Valley 
mission.
    This would be a great partner, and a great deal, for the national 
historical park.

          3. Providing NPS partnership opportunities outside park 
        boundaries will be an intrusion of federal authority over 
        private lands and local governments.

    In fact, after 20 years it is clear from the record that exactly 
the opposite happens. No one has cited any loss of their power or 
authority. No community has ever asked to be deleted from the area. In 
fact, other communities keep asking to join. The overwhelming community 
response was in support of the park, with nearly all those who spoke at 
the public meetings calling for including the river and its tributaries 
in the park.
    This is because all the planning is collaborative and voluntary. 
The regional umbrella developed by the corridor commission and NPS 
empowers local people and communities to have a seat at the table to 
voice their priorities effectively the federal government, not the 
other way around. Since no one is mandated to participate, and because 
the partners participate because of their commitment to the quality of 
life in their communities, everything is voluntary. The NPS role on all 
these non-federal lands has been to bring the interpretive message to 
celebrate the resources and to provide the technical skills, plans and 
studies that show that preservation is compatible with economic health.
    Thank you for considering this testimony of the Coalition of 
National Park Service Retirees.
    The more than 800 members of the Coalition of National Park Service 
Retirees are all former employees of the National Park Service (NPS) 
with more than 24,000 years of stewardship of America's most precious 
natural and cultural resources. In their personal lives, CNPSR members 
maintain their professional outlook. Just as the national parks are 
supported by the broad spectrum of the American people, the CNPSR 
members reflect the broad spectrum of political affiliations. CNPSR 
members now offer their professional experience and integrity as they 
speak out for national park solutions that uphold law and policy. Our 
members also support the mission of the National Park Service through 
public education.
    We would welcome any questions, and would be delighted to provide 
whatever level of detail is necessary.
          attached--proposed amendment to section 2, s. 1708.
PROVIDED FOR THE RECORD OF THE COMMITTEE
  <bullet> Six Scholars Reports for the Blackstone River Valley Special 
        Resource Study.
  <bullet> ``Reflecting on the Past, Looking to the Future: A Technical 
        Assistance Report to the John H. Chafee Blackstone River Valley 
        National Heritage Corridor Commission,'' the Conservation Study 
        Institute, Woodstock, VT.
Proposed Amendment to S. 1708, section 2.
    On page 1 and 2, strike all of SEC. 2 PURPOSE, and insert the 
following in lieu thereof:
SEC. 2. PURPOSE.
    The purpose of this Act is to establish the Blackstone River Valley 
National Historical Park----
    (1) to preserve, protect and interpret for the benefit and 
inspiration of future generations certain nationally significant 
natural and cultural resources in the Blackstone River Valley that 
exemplify the transformation and sustainability of a landscape that was 
the first complete river and its tributaries harnessed for industrial 
innovation and development in the United States, and that today reveals 
every phase of industrial development from colonial times to the 
present;
    (2) to support and enhance the efforts of the citizens, 
organizations, and state and local governments of Massachusetts and 
Rhode Island, and other agencies, to work cooperatively to protect, 
preserve and celebrate the purposes of the John H. Chafee Blackstone 
River Valley National Heritage Corridor and the purposes of the 
Blackstone River Valley National Historical Park.
                                 ______
                                 
 Statement of Robert T. Leavens, Gloucester, MA and Elizabeth M. Ware, 
                      Newburyport, MA, on S. 1198
    Mr. Chairman and Members of the subcommittee, thank you for the 
opportunity to present our views on S.1198, a bill to reauthorize the 
Essex National Heritage Area.

          1. Heritage Commission-arm of the NPS and 501 c (3) non-
        profit.

    The Essex National Heritage Area (ENHA) was created by Congress in 
a vote of the Omnibus Parks Act of 1996. The creation of the HA 
included a provision that would allow for the creation of a management 
entity of the HA. About a year or so after the Congressional vote, and 
around the time that the management plan for the area was being 
approved by the National Park Service (NPS), the Essex National 
Heritage Commission (ENHC) was created. Additionally, the ENHC filed 
papers for non-profit, 501-c-(3) status with the Secretary of State of 
the Commonwealth of Massachusetts.
    ENHC Executive Director Annie Harris notes in her testimony to the 
U.S. Senate Committee on Energy and Natural Resources, National Parks 
Subcommittee that ``The Commission is a regional non-profit 
organization that manages the Essex National Heritage Area, a 500 
square mile region located north of Boston, rich in historic, cultural 
and natural resources.'' To our knowledge, there is no such entity as a 
``regional non-profit organization.'' The ENHC is a Massachusetts non-
profit entity whose Congressional charge is the oversight of a specific 
region.
    The status of the ENHC as both a Congressionally-designated 
management entity of the ENHA and a quasi-arm of the National Park 
Service and a Massachusetts non-profit is a dangerous combination. The 
ENHC is given a tremendous amount of leeway as a non-profit but can 
ultimately use that flexibility to gather information and eventually 
team up with the NPS, who has the benefit of enormous and far-reaching 
Federal powers. The NPS and the ENHC have ``cooperative agreements'' so 
that if the ENHC desires a certain outcome, they can rely on the NPS to 
make it happen via its Federal powers. That manifests itself in a 
dangerous alliance that allows the NPS to expand its land holdings, 
local land use controls and federal controls through secretive 
``partnerships'' and ``cooperative agreements.''
    It should be noted that these ``cooperative agreements'' and 
``partnership agreements'' have been requested from both the NPS and 
the ENHC, but have not been made available. Being a non-profit, the 
ENHC is not required to provide the information under a Freedom of 
Information Act request and the NPS has consistently refused to comply 
with FOIA. The only means to get copies of these agreements is to sue 
the NPS, which is a daunting and financially-untenable action to an 
average citizen.
    The chameleon-like status of the ENHC is dangerous to the ENHA as 
well. As a non-profit, it is difficult to find out information on their 
inner operations and any coordinated efforts they are working on with 
the NPS. For example, at present there is a House Bill for funding for 
a study of expanding the boundaries the Salem Maritime National 
Historic Site, but there is no background or information provided by 
the NPS or the ENHC on this initiative. Why such an expansion is viewed 
warranted by both organizations and where their target areas are are 
unknown to those in the ENHA. Press releases have mentioned several 
sites, whose owners and/or overseers have been unaware of the NPS and 
ENHC's interest. Alone, the ENHC has no power to exercise eminent 
domain powers. In concert with or subject of ``cooperative agreements'' 
with the NPS, the ENHC has a lot of power and control. This level of 
power and control is disturbing and one questions whether it was 
intended in the Congressional legislative action of 1996.

          2. Funding and ``Making Their Federal Match''

    According to the Congressional legislation in 1996, the ENHA is 
supposed to match its federal funding dollar for dollar. Since the 
creation of the management entity of the ENHC, it is doubtful that the 
ENHC has matched its NPS funding on a dollar for dollar basis. 
Executive Director Harris notes in her testimony that ``The value of 
the National Heritage Areas lies in their ability to amplify their 
limited annual federal funds with matching dollars many times over;''
    According to the statement to your committee by Stephanie Toothman, 
Associate Director of Cultural Resources, National Park Service 
concerning S.1198, ``for every Federal dollar Essex received, it 
leveraged approximately $5 of non-federal funds in fiscal year 2011 
($671,000 Federal vs. $3,574.139 non-federal). In total, Essex has 
received over $12 million in Federal funding.''
    The statements of Ms. Harris and Ms. Toothman are troubling for 
many reasons. Firstly, Congress only initially authorized $10 million 
in Federal funding to ENHC. Who authorized the extra $2 million? 
Secondly, $10-12 million for a 15-year period does not seem to be 
``limited annual federal funds.'' With over three quarters of their 
annual allocation being used for salaries and minimal rent (per review 
of the Massachusetts Secretary of State tax filing) , only about 
$200,000 is actually being spent on initiatives and grant programming 
for the area, with a $25,000 grant program having been offered in one 
of the last three years and no grant program in each of the other two 
years.
    Thirdly, there is a serious question as to whether Essex or any 
other heritage area makes its match. Senator Kennedy's office and 
Congressman Tierney's executive aides were both asked how the ENHC made 
its match. While both legislators heavily support the ENHC, neither 
office could answer the question of how or if the ENHC made its match. 
The ENHC audits do not specify how or if the match of federal funds is 
made, with the auditors specifically circumventing that issue by 
stating language to the effect that ``if this program qualifies as a 
match per federal requirements, then it is a match; however the 
auditors would not make that determination. In a discussion several 
years ago with Heritage Area Administrator Brenda Barrett, Ms. Barrett 
stated that the financials were not really reviewed by her office or by 
the NPS and that ``the Heritage Areas could do anything they want'' 
with little to no oversight by the NPS or her office.
    The ENHC grant program papers seem to tell the story of how the 
ENHC makes its match. When operative, the grant program requires that 
the remaining funds of the project are able to be used as ENHC 
``match.'' For example, a local historical society decides it needs to 
replace a building roof. Say that this project has a $50,000 price tag. 
The local historical society raises $48,000, with ENHC providing the 
remaining $2,000 in one of its ``partnership grants'' to the project. 
The ENHC is then allowed to use the $48,000 as their ``match,'' noting 
that the $2,000 has ``leveraged'' $48,000 in private funds to do the 
needed restoration. In actuality, the work would have been completed 
without the ENHC grant funds and, in many situations, the bulk of the 
donated funds were secured before the ENHC was approached about 
donating the final $2,000.
    In speaking with an ENHC commissioner who was a member of the grant 
selection team, the grant ``match'' theory noted above was confirmed by 
him. When faced with a number of grant proposals, the ENHC selection of 
grants did not seem to focus on who was most needy but who had the 
larger projects and how the ENHC ``could leverage'' the most funds per 
year. Additional ``match'' of volunteer time is also included the 
ENHC's calculation of how much money and participation is ``leveraged'' 
in a given year. Having attended several semi-annual meetings (of 
course monthly annual meetings could generate a larger match) and being 
asked to sign a ``match form,'' I have no idea of what monetary value 
my time as an attendee was given. As a non-profit, the ENHC is not 
obligated to tell me!

          3. What is their area of jurisdiction?

    When the ENHA was designated, a specific map, entitled NAR-51-
80,000 and dated August 1994, was created to delineate the area. As 
with other elements of the Heritage Area designations, this map seems 
to have been either reinterpreted to expand the area or has been just 
outright ignored. There are several examples of this lack of clarity of 
regional jurisdiction. Recently noted on the ENHC's website, a story of 
the idea of possibility of linking the new proposal for the 
``Wonderland casinos'' in East Boston and Revere, Massachusetts with 
the Essex Coastal Scenic Byway has been proposed. In the article, job 
creation and increased revenues to the area were highlighted. It should 
be noted that East Boston and Revere are not within the boundaries of 
the ENHA, but that does not appear to stop that relationship from being 
fostered. What a casino has to do with a scenic coastal byway is not 
clear but Ms Harris and the Commission members seem to be doing 
whatever is necessary to link the Commission with job creation and 
increased revenues to communities located north of Boston, whether they 
are technically within the ENHA or not. We do not believe that gambling 
was a part of the Cultural Heritage that Congress had in mind when it 
created the ENHA.
    Likewise, in 2004, the NPS, who funds the ENHC, designated the ENHC 
as the new owners of the Baker's Island Light station reservation, a 10 
acre ``excessed'' U.S. Coast Guard station, containing a lighthouse, 
two keeper's houses and other associated structures. This award was 
granted by the NPS to the ENHC under the National Historical Lighthouse 
Preservation Act of 2000, and may be one of the first ``partnership'' 
acts to expand the Salem Maritime National Historic Site to include 
Baker's Island, which is not located within the ENHA.
    This latter example of NPS/ENHC coordination is particularly 
troublesome in that it indicates the ability of the ENHC to act in its 
non-profit role (ignoring Federal mandates that most HAs are not 
supposed to own real estate, particularly from the entity that funds 
them), proves the NPS/ENHC ``partnership'' is without controls or 
mindfulness of its Federal limits of area designation and provides an 
excellent example of the ENHC's attempts to shape-shift the ENHA. Since 
its inception, the ENHC has been particularly vague as to its areas of 
jurisdiction, noting in some documents that the ENHA includes all of 
Essex County (which it does not!), includes 500 square miles 
(unspecified) north of Boston to whatever description of the area is 
most beneficial at a given moment. At this point in time the transfer 
of the Baker's Island light station to the ENHC has not taken place due 
to the fact that the U.S. Coast Guard needs to complete a $1.5M lead 
soil remediation project in order for the property to be transferred.
    In the meantime, the ENHC and NPS have secured $250,000 in funds 
under the Paul Sarbanes Transportation Grant program to have a 
specialty boat fabricated so that the NPS can run tours to the light 
station, which is to be operated as a privately owned/public park. 
Transporting the public from a National Park Historic Site to a private 
park is not Paul Sarbanes Transportation in Public Parks grant 
eligible. That does not stop the Park Service, who by the way 
administers their Paul Sarbanes grants themselves through a 
``cooperative agreement'' with the Department of Transportation. Sound 
familiar? It is anticipated that these tours will start in summer of 
2012, despite the fact that the site has not been remediated and may be 
of danger to young children due to the lead levels of the soil.

          4. Role in Land Use controls and Decision Making.

    The ENHC has been involved in controlling land uses and interfering 
with property rights since its inception. In her testimony to your 
committee, Ms. Harris states that ``In the case of the Essex Heritage 
Border to Boston Rail Trail and the adjacent coastal trail, the ideas 
for these trails began 45 years ago but it took the unique management 
and partnership skills of Essex Heritage to secure the rights-of-way 
and see that the first miles were built.'' Did the Congressional 
legislation anticipate or dictate that the ENHC could become involved 
in negotiating land ownership transactions? Perhaps not as a 
Congressionally-designated area but ``as a non-profit, they can do 
anything they want.''
    To stress their interest in historic preservation, the ENHC has 
recently started holding historic preservation building restrictions. 
This authority is supposed to be reserved for entities that have 
experience and expertise in formulating and holding such restrictions. 
While several individual members may have historic preservation 
experience, the ENHC has no such experience or track record in the 
preservation of historic properties.
    The Essex Coastal Scenic Byway, an 85-mile route through a number 
of North Shore communities, is another example of the ENHC's 
involvement in meddling in private property rights issues. In the Essex 
Coastal Scenic Byway report, prepared by Walker/Brown, consultants to 
the ENHC, it is recommended that communities adopt land use controls to 
limit development and control aesthetic issues along the byway. The 
ENHC represents that the route is entirely within the ENHA, despite 
present efforts to now have it start in East Boston and Revere.

          5. Heritage Tourism, Job Creation and Role of the Essex 
        National Heritage Commission.

    Ms. Harris' testimony indicates that the ENHC created 1,488 jobs 
through the grant program and assisted in attracting 1.3 million 
visitors to the region. Both of these figures cannot be confirmed, 
particularly since the NPS figures (if those were the ones used) 
include ``visits'' to their website as visitors to the park itself. 
When website ``hits'' are calculated and included in the ``visitation'' 
figures, then they are interjected into a marketing model that includes 
those website ``hits'' to include expenditures of ``visitors'' to the 
ENHA. One might visit the ENHC and NPS Salem Maritime National Historic 
Site 500 times annually via the web, but those ``visits'' do not 
necessarily equate to area expenditures leading to a false expansion of 
tourist feet on the ground and fictitious analysis of visitor 
expenditures in the region. Actual visitors to Salem are likely counted 
twice if they go to the Visitor's Center and the Salem Maritime 
National Historic Site.
    The ENHC's claim of the creation of almost 1,500 jobs due to their 
grant program is almost laughable, given that the ENHC has either not 
operated its grant program in the past five years or has operated it 
with such a low amount of funds, that there is no mechanism for their 
determination of ``new'' jobs that have been created. An argument can 
be made that for those projects that sought grant funds, the work would 
have been completed whether the ENHC awarded grants or not . . . hence 
the argument that no ``new'' jobs have been created.
    The ENHC operates as a regional chamber of commerce for the ENHA, 
however that area is defined on a given day. They do not interpret or 
preserve historic properties nor do they oversee cultural or natural 
resources at any level. They disseminate information on agencies and 
organizations that do perform those acts. As one ENHC Commissioner 
stated to me, ``If they disappeared tomorrow, no one would miss them. 
If the $1M in funds that goes to the ENHC were to be given to select 
Chambers of Commerce within Essex County, the Chambers could much 
better use the funds for greater impacts than the ENHC, who spends 
three quarters of their federal funding on salaries and rent.'' Hardly 
a resounding endorsement of the ENHC!

          6. Lack of Heritage Area Planning.

    Stephanie Toothman, in her testimony to your committee, has stated 
that ``Consistent with congressional directives in the 2009 and 2010 
Interior Appropriations Acts, the Administration proposed focusing most 
national heritage area grants on recently authorized areas and reducing 
and/or phasing out funds to well-established recipients to encourage 
self-sufficiency in the FY 2013 Budget. The Department would like to 
work with Congress to determine the future federal role when heritage 
areas reach the end of their authorized eligibility for heritage 
program funding.'' She further notes that ``there are currently 49 
designated national heritage areas, yet there is no authority in law 
that guides the designation and administration of these areas.'' We ask 
that your committee not support the additional funds requested in a 
lengthening of the sunset provision for the ENHC for the following 
reasons:

          a. In its roles as the management entity of the ENHA and as a 
        non-profit agency, the ENHC is responsive to no one. The NPS 
        does not fully oversee its operations and, as a non-profit, it 
        is protected from providing certain information to the public, 
        who might want to understand their roles and operations in 
        cooperation with the NPS. This element of their operations 
        needs to be clarified and their records need to be made 
        available to the public, as they are merely an extension of the 
        NPS;
          b. The ENHA is one of the original heritage areas, created in 
        1996, has received over $12M and has yet to become self 
        supporting. It is considered one of the most ``successful'' 
        heritage areas in the program. How much worse are the others?;
          c. Congress, OMB and the NPS need to determine what a match 
        of federal funds is and how that ``match'' is calculated. It 
        needs to be reasonable and easy to calculate. To date we do not 
        believe that the ENHC has met its match of Federal funds;
          d. Congress did not anticipate the role of heritage 
        commissions in formulating and administering land use controls. 
        This issue needs to be addressed;
          e. The ENHC needs to stay within the confines of its 
        federally-designated area-map NAR-51-80,000, dated August 1994. 
        To stray off shore and into other communities not within its 
        district cannot be what was intended by the legislation of its 
        designation;
          f. If it is determined that heritage areas are to remain, 
        Congress, the NPS and other related organizations need to 
        develop a long range plan of the roles of heritage areas in 
        federal government. At present the ENHC is a boondoggle, 
        answering to no one, continually requesting federal dollars and 
        not providing any service more than, as one ENHC Commissioner 
        has stated, what a local chamber of commerce would provide.
                                 ______
                                 
Statement of Caswell F. Holloway, Deputy Mayor for Operations, City of 
                         New York, on H.R. 2606
    Good afternoon, Mr. Chairman and members of the committee. I am 
Caswell Holloway, New York City's Deputy Mayor for Operations. On 
behalf of Mayor Michael R. Bloomberg, thank you for the opportunity to 
submit testimony in support of H.R. 2606, the New York City Natural Gas 
Supply Enhancement Act. This legislation is not just about facilitating 
the construction and operation of a natural gas pipeline-though the 
jobs created by the project are certainly a good thing. This pipeline 
is critical to building a stable, clean-energy future for New York 
City, and dramatically improving the public health of New Yorkers.
    As the members of the committee know, H.R. 2606 is will make 
possible the construction of a 3-mile, 26'' diameter natural gas line 
that will enable National Grid to supply gas consumers in Brooklyn from 
an existing bulk pipeline in the Atlantic Ocean that is operated by the 
Williams Companies. Congressional action is needed to authorize the 
pipeline route to cross beneath the Gateway National Recreation Area 
(Gateway), which is operated by the National Park Service. I note that 
Mayor Bloomberg is working closely with the National Parks Service on 
many initiatives to improve public access to and use of Gateway and 
City and National Parks throughout New York City.
    As with any pipeline project, the primary concern is public safety-
and Williams and National Grid are taking steps to ensure that this 
pipeline is safe, and has a minimal impact on Gateway, as well as 
property along the entire route. Foremost among these measures is the 
planned use of horizontal directional drilling, a trenchless 
construction method, that will install the pipeline at a considerable 
depth below ground-from 30 to as much as 80 feet at certain points. And 
trenchless technology, which the City has used successfully on our own 
water and sewer projects, will minimize the impact of the construction 
itself. In addition, the developers have stated that they will: (1) use 
piping of a gauge and strength that will greatly exceed the safety 
requirements established by the Department of Transportation's Pipeline 
and Hazardous Material Safety Administration; (2) undertake rigorous 
safety measures beyond those directed by federal regulators at DOT and 
at the Federal Energy Regulatory Commission (FERC), such as the use of 
automatic shut-off valves; and (3) voluntarily meet a number of 
additional safety and reliability measures sought by New York City and 
by the TriBorough Bridge and Tunnel Authority, including a reinforcing 
concrete cap over a portion of the pipeline. The TBTA is part of the 
Metropolitan Transportation Authority, and a portion of the pipeline 
route crosses through a right-of-way deep beneath an MTA property.
    The City led the environmental assessment for the National Grid 
portion of the project, and following a thorough review, the City 
issued a Negative Declaration for that segment in December of 2011. 
FERC is acting as lead agency for the environmental review of the 
Williams part of the line, from the ocean connection point on the 
Transco line to the approach of the principal bridge connecting the 
Rockaways to the Brooklyn mainland. As you can see from this 
description, getting this project done involves a major effort that 
includes the private sector, and the City, State, and Federal 
governments.
    As I noted at the outset, this project is vitally important to New 
York City. Energy demand in New York City is increasing, and will 
continue to grow. Indeed, in July of last year, the City's electric 
utility company, Con Edison, reported that overall demand peaked at 
13,189 megawatts, eclipsing the former all-time record for the utility 
set in 2006.
    And some 90 percent of New York City's electric generation--much of 
it located in Brooklyn and Queens--uses natural gas as its primary 
fuel. Consequently, there is a very close relationship between the 
availability of natural gas, and our ability to ensure adequate and 
affordable electricity for New York City's 8.4 million residents, and 
the millions more who work in and visit New York City. It has never 
been more important to secure clean, reliable, domestic energy sources 
to meet this demand.
    In 2007, Mayor Bloomberg issued PlaNYC, a comprehensive long-range 
sustainability program for the City. Among other ambitious goals, the 
plan seeks to achieve a 30 percent reduction in greenhouse gas 
emissions by 2030, wider use of repowered electric generation 
facilities, and a dramatic reduction in the use of highly polluting 
heating fuels-particularly Number 4 and 6 grade oils. When burned, 4 
and 6 oil produce carbon dioxide at a rate that greatly exceeds that of 
natural gas. In addition, the combustion of these fuels throws off 
considerably higher levels of pollutants such as sulfur and nickel, and 
particulate matter emissions. We estimate that the elimination of these 
fuels alone will save more than 200 lives, and eliminate 100 hospital 
visits per year. This is an amazing return on a comparatively small 
investment-changing the fuel supply at approximately 10,000 of the 
950,000 buildings in NYC. Mayor Bloomberg recently enacted regulations 
that mandate phasing out the use of dirty heating fuels by 2030-but to 
meet that goal, we have to increase the availability of natural gas in 
New York City.
    No new bulk gas transmission lines have been built in New York City 
for more than forty years, and without new supply, many parts of the 
City will have to continue to rely on dirty fuels for heat and 
electricity. Natural gas is the most efficient and cleanest-burning 
fossil fuel available. The National Grid/Williams pipeline will 
significantly increase our access to natural gas, and given the 
location of the Rockaways area of Queens that the gas line will serve, 
and the geographic position of the Gateway Recreation Area, there is no 
practicable alternative to traversing beneath Parks' property.
    I might note that there will also be a direct benefit accruing to 
Gateway from this legislation. As I understand it, the proposed lease 
agreement to be entered into by Williams and the Park Service will 
involve payment of funds by the pipeline developer for preservation and 
restoration of historically important aircraft hangar buildings at 
Floyd Bennett Field.
    In sum, I urge your passage of H.R. 2606 as a means of ensuring 
that New York City's future energy needs are met in a way that assures 
system reliability, reduces our carbon footprint, and protects public 
health. Thank you again for the opportunity.
                                 ______
                                 
                                               U.S. Senate,
                              State of Rhode Island, March 7, 2012.
Hon. Jeff Bingaman,
Chairman, Senate Committee on Energy and Natural Resources, Washington, 
        DC.
Hon. Mark Udall,
Chairman, Subcommittee on National Parks, Senate Committee on Energy 
        and Natural Resources, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Senate Committee on Energy and Natural Resources, 
        Washington, DC.
Hon. Rand Paul,
Ranking Member, Subcommittee on National Parks, Senate Committee on 
        Energy and Natural Resources, Washington, DC.
    Dear Senator Bingaman, Senator Murkowski, Senator Udall, and 
Senator Paul, I write to express my strong support for the John H. 
Chafee Blackstone River Valley National Historical Park Establishment 
Act (S. 1708). This legislation, championed by Senator Reed of Rhode 
Island and cosponsored by myself, and Senators Kerry and Brown of 
Massachusetts, would create a National Park designation for the 
birthplace of the American Industrial Revolution. S.1708 will continue 
efforts to preserve these historic sites and spur tourism and economic 
development in the region. I encourage the committee to approve this 
important and bipartisan bill.
    The Blackstone River Valley is where the United States took its 
first step toward industrialization when, in 1790, Samuel Slater 
constructed America's first textile mill. Slater's success in 
Pawtucket, Rhode Island brought many others to the Blackstone River 
Valley to build their own factories. Soon, mill villages like Ashton 
and Slatersville began to spring up across the region, and a canal was 
constructed to transport goods along the river. Throughout the 19th 
century, manufacturing flouri shed in the valley. People from Ireland, 
Quebec, Portugal, Poland, and elsewhere, immigrated to the area to work 
in these mills, enriching the region with their vibrant cultures and 
traditions.
    The importance of the Blackstone River Valley in bringing forth 
America's Industrial Revolution is central to our nation's history and 
worthy of national recognition. For this reason, in 1986, Congress 
designated the area a National Heritage Corridor. The Corridor 
designation expires in October of this year. Now is the time to 
implement a more permanent and active National Park Service presence in 
the area to partner with the strong local private entities dedicated to 
preserving this corner of American history.
    Under S. 1708, the Old Slater Mill Historic District, the mill 
villages of Ashton, Hopedale, Slatersville, and Whitensville, the 
Blackstone River and its tributaries, and the Blackstone Canal will 
become part of a new National Historical Park. In addition to providing 
greater protection for valuable historic resources, the designation 
will expand tourism and recreation activities on and along the 
Blackstone River, and open new economic opportunities for the region. 
Secretary of the Interior Ken Salazar, local organizations, state 
officials and agencies, and all Congressional representatives from the 
region support the creation of this National Historical Park.
    The John H. Chafee Blackstone River Valley National Historical Park 
Establishment Act is a critical step in continuing to preserve 
America's industrial heritage. I urge the committee to support to this 
important legislation.
            Sincerely,
                                        Sheldon Whitehouse,
                                             United States Senator,
                                 ______
                                 
                                     U.S. Congress,
                                  House of Representatives,
                                    Washington, DC., March 6, 2012.
Hon.  Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, 304 Dirksen Senate 
        Building, Washington, DC.
Hon. Lisa Murkowski
Ranking Member, Committee on Energy and Natural Resources, Washington, 
        DC.
    Dear Chairman Bingaman and Ranking Member Murkowski, Thank you for 
your consideration of the Rota Cultural and Natural Resources Study 
Act, H.R. 1141, a bill that authorizes the Secretary of Interior to 
study the suitability and feasibility of designating areas on the 
island of Rota for inclusion in the National Park System. The 
Subcommittee on National Parks holds a hearing on H.R. 1141 on March 7, 
2012; and I ask that you support the bill for passage.
    In 2004, the National Park Service sent a team to Rota, at the 
request of then-Northern Mariana Islands Senator Diego Songao of Rota, 
to assess the importance of the cultural and natural resources of the 
island. The study team surveyed the Mochon Latte Stone Village and 
other sites of the ancient Chamorro people of the Marianas. The team 
explored the Chugai Cave, containing over 90 pictographs of prehistoric 
origin. The Park Service identified the presence of rare species of 
plants and animals, such as the critically endangered aga, or Marianas 
crow, and the endangered nosa Luta, or Rota bridled white-eye, in the 
limestone forests that blanket parts of Rota. Having completed this 
field reconnaissance, in September 2005 the Park Service issued a 
report that concluded there are cultural and natural resources located 
on Rota that are of ``national significance.'' The Park Service further 
recommended a study of the ``suitability and feasibility'' of 
designating these sites as a unit of the National Park System. H.R. 
1141 authorizes the Secretary of the Interior to conduct the 
recommended study.
    In the 111th Congress the House of Representatives approved a bill 
with the language of H.R. 1141 by voice vote without objection. The 
Senate, however, did not have time to act. So I introduced H.R. 1141 
when the 112th Congress convened. The House of Representatives has 
again approved the bill. Both the Parks Service and the public on Rota 
support the bill. The Parks Service testified to the House Subcommittee 
on National Parks, Forests and Public Lands in May 2011 without 
recommending any change in H.R. 1141. In testimony submitted to the 
National Parks Subcommittee the National Park Service now recommends an 
amendment, clarifying that the areas to be studied are those suitable 
and feasible for inclusion and not the entire island. I believe a plain 
reading of the bill leads to the more limited conclusion and suggest 
that report language reinforce that interpretation. Representatives of 
the people of Rota have also testified in favor of H.R. 1141 or offered 
letters supportive of having areas of their island added to the 
National Park System. I have attached several of these letters and 
their enclosures, and I ask that they be made a part of the 
Subcommittee's hearing record on the bill. Conducting a suitability and 
feasibility study is the established procedure when areas or resources 
of national significance have been identified. Eventually, 
establishment of a unit of the National Park System on Rota, should 
that prove appropriate, would serve the twin purposes of protecting 
national treasures, while at the same time freeing up other areas for 
development should the people of Rota so choose. For these reasons, I 
ask that your committee favorably report H.R. 1141.
            Sincerely,
                            Gregorio Kilili Camacho Sablan,
                                                Member of Congress.
                                 ______
                                 
            Representative Teresita Apatang Santon,
                                  House of Representatives,
                                      Saipan, MP, February 3, 2012.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, 304 Dirksen Senate 
        Office Building, Washington, DC.

Rota National Park Bill, H.R. 1141
    Dear Chairman Bingaman, I am writing this letter to respectfully 
seek your consideration and support of H.R. 1141 for the conduct of a 
suitability and feasibility study of prehistoric, historic and primary 
limestone forests on the island of Rota in the Commonwealth of the 
Northern Mariana Islands.
    The island of Rota, amongst the islands within the Mariana Islands 
archipelago, which includes the island of Guam, possesses the largest 
prehistoric, historic and intact primary limestone forests that are in 
critical need of preservation. The preservation of these important 
areas through the establishment of a National Park will greatly assist 
in the protection of our native cultural heritage and also serve as 
critical habitat for native endangered flora and fauna for which the 
American people and our future generations may enjoy.
    Our past and present legislative delegations and people of the 
island of Rota have supported and are enthusiastic about the idea of 
establishing a national park on the island to protect the remaining 
remnants of our cultural heritage and native wildlife.
    With this is mind, the Rota Legislative Delegation and people of 
Rota appreciates your taking the time to consider this important matter 
and kindly ask your support and passage of H.R. 1141 which would help 
us realize one of the largest National Park units in America's 
westernmost frontier in the northwestern pacific. Thank you.
            Sincerely,
                                        Teresita A. Santos,
                                                  Vice Chairperson.
                                 ______
                                 
              Commonwealth of the Northern Mariana Islands,
                                      Saipan, MP, January 27, 2012.
Hon. Jeff Bingaman
Chairman, U. S. Senate, Committee on Energy and Natural Resources, 304 
        Dirksen Senate Building Washington, DC 20510.
Hon. Lisa Murkowski
Ranking Member, U.S. Senate, Committee on Energy and Natural Resources, 
        304 Dirksen Senate Building, Washington, DC.
    Dear Chairman Bingaman and Ranking Member Murkowski:
    The purpose of this letter is to express strong support for the 
``Rota Cultural and Natural Resources Study Act,'' H.R. 1141 which 
would authorize the Secretary of the Interior to study archaeological, 
historical and natural resources on Rota, Commonwealth of the Northern 
Mariana Islands, for inclusion in the National Park System.
    In 2005, the Interior Department field survey found that Monchon 
Latte Stone Village, the Chugai Pictograph Cave, and other ancient 
sites on Rota have national significance and should be protected. These 
sites are crucial to protecting our remains of the ancient Chamorro 
people for all time.
    I commend Representative Gregorio Kilili Camacho Sablan for 
introducing this legislation which was referred to your committee on 
January 24, 2012. The people of Rota are hopeful for the passage of 
H.R. 1141. Thank you for your consideration.
            Respectfully,
                                          Paul A. Manglona,
                                                  Senate President.
                                 ______
                                 
                                              Mark Michael,
                                                       May 6, 2011.
Hon. Sablan Congress,
U.S. House of Representatives, Washington, DC.
    Dear Congressman Sablan Thank you for your letter in regards to 
legislation H.R. 1141.
    I personally believe there are some very historically worthwhile 
things on Rota that should be protected but I was wondering if the 
people of Rota fully understand that when you get a national park 
designation that the land it occupies is basically no longer yours but 
belongs to the Federal government.
    Two things in your letter I just have to comment on. One our CNMI 
Senate has failed to act on a lot of things and to me as a group they 
are a big disappointment. And two you mention Rota's eco-tourrsm I have 
heard this buzz word many times, but I haven't seen anybody practicing 
eco-tourism full time here. Our elected officials think that casinos 
are eco-tourism.
    I think your introduced legislation is a great idea and hopefully 
you and I will see it fulfilled.
            Sincerely,
                                              Mark Michael.
                                 ______
                                 
      Commonwealth of the Northern Mariana Islands,
                                       Office of the Mayor,
                                          Rota, MP, March 30, 2011.
Hon. Gregorio Kilili Camacho Sablan,
Member of Congress, 423 Cannon House Office Building, House of 
        Representative Washington DC.
    Dear Representative Sablan: Thank you for providing me a copy of 
H.R. 1141 for which you are asking for my thoughts and comments in your 
letter of March 23, 2011. Indeed it is an honor that certain sites on 
Rota have historic significance, both modern and pre-historic, which 
may qualify as units of the U.S. Natural Park Service. Should the 
suitability and feasibility study, as proposed by H.R. 1141 confirm 
this, our goal of turning Rota into an eco-tourism destination would be 
greatly enhanced. Therefore, I am in support of H.R. 1141 and I am 
ready to render oral testimony on this bill if it is scheduled for a 
public hearing.
    On a minor note, the National Register of Historical Places website 
(www.nps.gov) does not list the sites indicated in section I (b)(4) of 
H.R. 1141. The web page lists the Japanese Hospital, the Japanese Sugar 
Mill, the Japanese WWII Command Post, but none of these is listed in 
H.R. 1141. I am not nitpicking, but I am concerned that we are 
confusing the public. Perhaps, the web page hasn't been updated.
    In closing, our people join me in recognizing your efforts in 
having our issues heard in the halls of the U.S. Congress.
            Sincerely,
                                       Melchor A. Mendiola,
                                                             Mayor.
                                 ______
                                 
  Statement of Hon. Joseph Lieberman, U.S. Senator From Connecticut, 
                               on S. 1191
    Mr. Chairman, thank you for the opportunity to offer a statement in 
support of this significant legislation, the Naugatuck River Valley 
National Heritage Area Study Act.
    As the first arsenal of American democracy, the Naugatuck Valley 
deserves special recognition for its contributions to our nation in 
times of war and peace. Fourteen towns and cities along the Naugatuck 
River--which flows for forty miles between Torrington and Shelton--are 
a part of the valley, which is notable not only for its physical beauty 
but for its industrial history shaped by the arrival of numerous 
immigrant populations during the late 1800s and early 1900s. Factories 
along the Naugatuck River led to the creation of prominent industries 
which still shape the fabric of communities today: the brass industry 
in Waterbury, the rubber industry in Naugatuck, and the clock industry 
in Thomaston, just to name a few. The region is also architecturally 
significant, with numerous industrial-era and art deco buildings, 
including 88 structures listed in the National Register of Historic 
Places. As industry has moved out of the valley, many of our 
communities are just now re-discovering the natural beauty and 
potential of the Naugatuck River, and I applaud the efforts underway to 
reconnect our communities with the River that has inherently shaped 
their histories.
    As the committee is aware, this legislation would direct the 
Secretary of the Interior to complete a study to determine whether the 
region is worthy of being a National Heritage Area. This has the 
support of all the communities in the study area, the state, and the 
civic organizations that have actively preserved the Naugatuck Valley's 
unique history, and has been championed by the Greater Valley Chamber 
of Commerce. I am encouraged by the support of Senator Blumenthal and 
Representatives DeLauro, Larson, and Murphy, and I am confident that if 
examined, the Naugatuck River Valley will receive the federal attention 
it deserves.
    Thank you, Mr. Chairman.
                                 ______
                                 
                                        City of Torrington,
                            Torrington, Connecticut, March 6, 2012.
Hon. Joseph I. Lieberman,
U.S. Senate, Washington, DC.
Hon. Richard Blumenthal,
U.S. Senate, Washington, DC.
Hon. Congressman Jim Himes,
U.S. House of Representatives, Washington, DC.
Hon. Congresswoman Rosa DeLauro,
U.S. House of Representatives, Washington, DC.
Hon. Congressman Chris Murphy,
U.S. House of Representatives, Washington, DC.
    Dear Senators Lieberman, Blumenthal and Congressmen Murphy, Himes & 
DeLauro,
    On behalf of the City of Torrington, I am writing today to express 
my full support for S. 1191 the Naugatuck River Valley national 
Heritage Area Study Act.
    From the City of Torrington to the lower valley, the communities 
that line the Naugatuck River share a history that is rich in industry 
and production. The Naugatuck River Valley has been the birthplace of 
innovation from brass, to rubber, clocks, and more. This area has been 
the driving force in manufacturing in the State of Connecticut for 
generations.
    The historical significance of this are should not be overlooked. 
From the first law school in America in Litchfield, to architectural 
gems such as the Warner Theatre in Torrington or the Sterling Opera 
House in Derby, the Naugatuck River Valley has a wide array of 
significant buildings that deserve to be recognized for their 
contribution to our communities.
    If passed, Senate Bill 1191 has the potential to shed light on the 
many aspects of the Naugatuck River Valley that all who reside here 
treasure and respect. I urge the passing of this bill and look forward 
to being a part of this worthy endeavor.
            Respectfully,
                                           Ryan J. Bingham,
                                                             Mayor.
                                 ______
                                 
                                Valley Chamber of Commerce,
                               Shelton, Connecticut, March 5, 2012.
Hon. Joseph Lieberman,
Senator, Washington, DC.
Hon. Richard Blumenthal,
U.S Senate, Washington, DC.
Hon. Rosa DeLauro,
U.S. House of Representatives, Washington, DC.
Hon. Jim Himes,
U.S. House of Representatives, Washington, DC.
Hon. Chris Murphy,
U.S. House of Representatives, Washington, DC.
RE: S.1191; Naugatuck River Valley National Heritage Area Study Bill

    It is with great excitement and anticipation that I am writing in 
support of Senate Bill 1191, a bill to direct the Secretary of the 
Interior to carry out a study regarding the suitability and feasibility 
of establishing the Naugatuck River Valley National Heritage Area in 
Connecticut, which will be discussed before the U.S. Senate Committee 
on Energy and Natural Resources on Wednesday, March 7th.
    As is outlined in this proposed bill, the Naugatuck River Valley is 
comprised of 14 communities along the Naugatuck River, which stretches 
for more than 40 miles from its headwaters in Torrington, CT to the 
confluence with the Housatonic River in Shelton, CT. This region of 
Connecticut has an assemblage of natural, historic and cultural 
resources that represent distinctive aspects of American heritage 
worthy of recognition, conservation and celebration as a National 
Heritage Area. Of particular note is the Valley's prominent role as a 
center of three major industries during the American Industrial 
Revolution: the Brass Industry centered in Waterbury, CT, which to this 
day is known as The Brass City, the Rubber Industry, which was spawned 
in neighboring Naugatuck, CT and the Clock Industry, where Seth Thomas 
began making the first of millions of clocks in Thomaston, CT in 1813.
    In addition to the region's contribution to the Industrial 
Revolution, the Naugatuck River Valley has also been a major 
contributor to the United States war efforts, from the American 
Revolution and Civil War to World War II, a fact noted by Ken Burns in 
his 2007 PBS film, ``The War'' in which he characterized Waterbury as 
the ``arsenal'' of the war effort because of its high concentration of 
industry.
    Among the region's notable citizens have been authors, diplomats, 
inventors and patriots, among them David Humphreys, Aide-de-Camp to 
General George Washington, Commodore Isaac Hull, Commander of ``Old 
Ironsides'', Ebenezer Bassett, the country's first black Ambassador and 
Pierre Lallement, inventor of the modern two-wheel bicycle.
    Most importantly, the Naugatuck River Valley is home to a group of 
public-spirited citizens that have been pursuing National Heritage Area 
designation for a number of years, and the Greater Valley Chamber of 
Commerce has been proud to support their efforts. The Chamber was 
pleased to receive funding from The Community Foundation for Greater 
New Haven to conduct a preliminary study of the natural, cultural and 
historic resources of the Naugatuck River Valley, which we are anxious 
to share with the National Park Service as a foundation for their 
feasibility and suitability study. What we have documented about this 
Valley is truly astounding and worthy of preservation and celebration.
    On behalf of the business community in the ``All America City'' 
Naugatuck River Valley, thank you for your support of this important 
bill for the Valley's past, present and future.
            Sincerely,
                              William E. Purcell, CCE, CAE,
                                                         President.
                                 ______
                                 
                                      Borough of Naugatuck,
                             Naugatuck, Connecticut, March 6, 2012.
Hon. Richard Blumenthal,
U.S. Senator, Washington, DC.
Hon. Joseph I. Lieberman,
U.S. Senator, Washington, DC.
Hon.  Rosa L. DeLauro,
U.S. House of Representatives, Washington, DC.
Hon. James A. Himes,
U.S. House of Representatives, Washington, DC.
Hon. Christopher S. Murphy,
U.S. House of Representatives, Washington, DC.
    Dear Senator Blumenthal, Senator Lieberman, Representative DeLauro, 
Representative Himes and Representative Murphy: This letter serves to 
acknowledge my support for Senate Bill 1191. The purpose of this 
legislation is to commission a feasibility study to create the 
Naugatuck River Valley National Heritage Area.
    As a lifelong resident of the Borough of Naugatuck, I am honored to 
join with the leaders of our neighboring communities from Torrington to 
Shelton to support this initiative. The Valley has a rich history of 
ingenuity and industrial productivity during times of war and peace. 
Throughout the industrial age and continuing to this day, Valley 
workers and business owners have manufactured products used throughout 
the world.
    Together, we are bound not only by our common history, but by the 
scenic Naugatuck River which travels through each of our communities. 
Once the victim of industrial pollution, the Naugatuck once again runs 
clean and strong through the Valley, and the diverse ecosystem 
throughout the watershed has returned. Many Valley communities, 
including Naugatuck, recognize that the Naugatuck River not only 
provides recreational and environmental benefits for Valley residents, 
but presents opportunity for responsible economic development as well.
    The most valuable resource in the Valley, however, is the people 
who call it home. The time-honored traditions of hard work, devotion to 
family, service to community and entrepreneurial creativity remain 
alive and well.
    Designation as a national heritage area would strengthen the 
Naugatuck River Valley in many ways. We greatly appreciate your 
continued support for our region, and would be pleased to further 
discuss support for this important legislation at your convenience.
            Sincerely,
                                           Robert A. Mezzo,
                                                             Mayor.
                                 ______
                                 
                                             U.S. Congress,
                           House of Representatives, March 7, 2012.
Hon. Mark Udall,
SH-328, U.S. Senate, Washington, DC.
Hon. Rand Paul,
SR-208, U.S. Senate, Washington, DC.
    Dear Chairman Udall and Ranking Member Paul, As your subcommittee 
holds a hearing on Senator Feinstein's bill, S. 29, the Sacramento-San 
Joaquin Delta National Heritage Area Establishment Act, I would like to 
offer my strong support. This bill would establish a National Heritage 
Area in the Delta in order to protect the largest estuary on the West 
Coast. I introduced companion legislation in the House, H.R. 486, 
because of the Delta's environmental importance, its rich history and 
culture, as well as the economic benefits it provides to the State of 
California and the Nation.
    The Delta is home to more than 3,500,000 residents, 2,500 family 
farmers, 750 species of plants and wildlife, and provides drinking 
water for 23 million Americans. Furthermore, it supports billions of 
dollars in economic activity and tens of thousands of jobs. That said 
the Delta is facing escalating challenges from invasive species, 
wastewater discharges, and stress from water exports. Establishing a 
National Heritage Area in the Delta would help combat these issues and 
preserve its vibrant community and fragile resources. This bill 
empowers the Delta Protection Commission to build local bottom-up 
partnerships for conservation efforts with greater assistance from the 
National Park Service.
    Both of California's Senators, as well four of my colleagues from 
the Delta in the House of Representatives have supported this critical 
legislation. I ask for your support in aiding local efforts to protect 
this wonderful community and economic engine.
            Sincerely,
                                            John Garamendi,
                                                Member of Congress.

                                    

      

</pre></body></html>
